<html>
<title> - INVESTING IN INFRASTRUCTURE: CREATING JOBS AND GROWING THE ECONOMY</title>
<body><pre>[Senate Hearing 111-815]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-815


   INVESTING IN INFRASTRUCTURE: CREATING JOBS AND GROWING THE ECONOMY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING JOB CREATION AND ECONOMIC GROWTH THROUGH INVESTMENT IN OUR 
                        NATION'S INFRASTRUCTURE

                               __________

                           SEPTEMBER 21, 2010

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                 Available at: http: //www.fdsys.gov /


                  U.S. GOVERNMENT PRINTING OFFICE
  63-651 PDF             WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman

TIM JOHNSON, South Dakota            RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
DANIEL K. AKAKA, Hawaii              JIM DeMINT, South Carolina
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
MARK R. WARNER, Virginia             JUDD GREGG, New Hampshire
JEFF MERKLEY, Oregon
MICHAEL F. BENNET, Colorado

                    Edward Silverman, Staff Director

              William D. Duhnke, Republican Staff Director

             Mitchell S. Warren, Professional Staff Member

                   Lisa Frumin, Legislative Assistant

                   Shannon Hines, Republican Counsel

              Jeffrey M. Wrase, Republican Chief Economist

                       Dawn Ratliff, Chief Clerk

                      Brett Hewitt, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)









                            C O N T E N T S

                              ----------                              

                      TUESDAY, SEPTEMBER 21, 2010

                                                                   Page

Opening statement of Senator Merkley.............................     1

Opening statements, comments, or prepared statements of:
    Senator Shelby...............................................     5
    Chairman Dodd
        Prepared statement.......................................    38
    Senator Johnson
        Prepared statement.......................................    38
    Senator Crapo
        Prepared statement.......................................    39

                               WITNESSES

John F. Kerry, Senator from the State of Massachusetts...........     2
    Prepared statement...........................................    39
Roy Kienitz, Under Secretary for Policy, Department of 
  Transportation.................................................     7
    Prepared statement...........................................    41
    Responses to written questions of:
        Chairman Dodd............................................    63
Alan B. Krueger, Assistant Secretary for Economic Policy and 
  Chief Economist, Department of the Treasury....................     9
    Prepared statement...........................................    45
    Responses to written questions of:
        Chairman Dodd............................................    64
Edward G. Rendell, Governor, Commonwealth of Pennsylvania, and 
  Cochair, Building America's Future.............................    23
    Prepared statement...........................................    49
    Responses to written questions of:
        Chairman Dodd............................................    96
Robert Wolf, Chairman and Chief Executive Officer, UBS Americas..    27
    Prepared statement...........................................    53
    Responses to written questions of:
        Chairman Dodd............................................    97
        Senator Vitter...........................................   100
Donald Shubert, President, Connecticut Construction Industries 
  Association, Inc...............................................    29
    Prepared statement...........................................    54
    Responses to written questions of:
        Chairman Dodd............................................   101

              Additional Material Supplied for the Record

Prepared statement submitted by the California Infrastructure and 
  Economic Development Bank......................................   104
Prepared statement submitted by the Construction Management 
  Association of America.........................................   109
Letter submitted by the National Association of Manufacturers....   112
Letter submitted by the Association of Metropolitan Water 
  Agencies.......................................................   114

                                 (iii)

 
   INVESTING IN INFRASTRUCTURE: CREATING JOBS AND GROWING THE ECONOMY

                              ----------                              


                      TUESDAY, SEPTEMBER 21, 2010

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:03 a.m., in room SD-538, Dirksen 
Senate Office Building, Senator Jeff Merkley, presiding.

           OPENING STATEMENT OF SENATOR JEFF MERKLEY

    Senator Merkley. I call to order this meeting of the 
Banking, Housing, and Urban Affairs Committee. Colleagues, 
thank you for being here for this conversation about how to 
finance our critical infrastructure needs and, in particular, 
the role of a potential National Infrastructure Bank in helping 
to finance that infrastructure.
    You have heard it before, and you will hear it again: Our 
Nation's infrastructure is a state of shameful disrepair. Yet 
by investing in our infrastructure and providing our 
communities and constituents with the physical building blocks 
of society, we can create hundreds of thousands of jobs. And 
just as importantly, we put in place a critical foundation for 
future economic growth.
    The pipeline disaster in California 2 weeks ago now joins 
the I-35 disaster in Minnesota as yet another wake-up call 
alerting us to the state of our infrastructure. From our 
railroads to our water systems to our schools and universities, 
our backlog of needed maintenance and our failure to maintain 
modern infrastructure act as a drag on our economy. We have 
4,000 dams deemed deficient. One in four of the Nation's 
bridges are either structurally deficient or functionally 
obsolete. The EPA estimates that an investment of $255 billion 
is needed over the next 20 years to update or replace water and 
wastewater systems. We have a backlog of $78 billion in our 
public transit systems, and one in three urban and rural roads 
are in just fair, mediocre, or poor condition.
    Just as critical is this point: Right when our economy 
needs a boost in employment, maintaining that infrastructure 
would be a major source of jobs. Infrastructure projects put 
people to work immediately, particularly our construction 
sector that has been so hard hit. Infrastructure lays the 
groundwork for a strong and vibrant economy into the next 
generation. Our businesses cannot grow without a safe, 
reliable, and efficient transportation network, ready access to 
safe and clean water, reliable and safe delivery of energy.
    We also know that with significant deficits to deal with, 
we need to look at innovative ways to finance this necessary 
investment in our infrastructure. One of the ideas that has 
been much discussed in recent months is the idea of a National 
Infrastructure Bank. Such a bank could make merit-based 
decisions to prioritize projects of regional and national 
significance. And by using tools such as loans and credit 
support and by bringing private capital into the market, the 
bank could bring new financing tools and hopefully additional 
financing to this area where our needs are so significant.
    I thank our witnesses for being here. We look forward to 
all three panels, but we begin today with my friend Senator 
John Kerry, who has a strong interest in the challenges of 
maintaining and expanding our infrastructure here in America, 
and we look forward to his comments.
    Welcome, Senator Kerry.

     STATEMENT OF JOHN F. KERRY, SENATOR FROM THE STATE OF 
                         MASSACHUSETTS

    Senator Kerry. Thank you very, very much, Chairman Merkley, 
and I apologize for being a moment late. I want to thank the 
other Members of the Committee. I am pleased to come back here 
as a former Member of this Committee. I think it served on it 
for 10 years and sat beside Chairman Dodd and worked with 
Senator Shelby in that period of time. And I have long 
advocated for the need for us to try to address the question of 
America's infrastructure.
    ``Infrastructure'' is a horrible word. It is a lost word to 
many citizens. But when you see a bridge fall down over the 
Mississippi or you see, you know, airports clogged and our lack 
of adequate generation of radar and other things that we face, 
people begin to understand it.
    The truth is, Mr. Chairman, that we are living off our 
grandparents' and parents' responsibility, sense of 
responsibility. We are living off prior generations' 
willingness to invest in America. There is a great book called 
``The Power Broker'' about Robert Moses and New York, and it is 
a tremendous tale of how the Triborough Authority and all of 
the great bridges and roads that connected New York to Long 
Island and upstate New York and elsewhere provided for the 
economic development growth of that State.
    The fact is that I believe a National Infrastructure Bank 
is the essential way for our country to catch up to the 
enormous infrastructure deficit that we face in this country. 
Rising economic powers around the world, our competitors--
China, India, Brazil, Mexico, other countries--are all 
investing in their future, and they are all investing in their 
future much more significantly than the United States. The 
truth is we are moving at our current rate toward a secondary 
competitive status because of our inattention to the 
infrastructure of our country.
    Now, there are a lot of ideas about the best way forward. I 
think we have to be candid in the beginning of this discussion 
and make it clear: Building infrastructure does not come on the 
cheap. But it is clear that the most efficient way that we 
could galvanize the private sector to actually provide the 
investment rather than a big Government approach is, in fact, 
to create an infrastructure bank for the United States. 
Already, a diverse bipartisan group supports the idea of a 
National Infrastructure Bank, including the Chamber of 
Commerce, the AFL-CIO, SEIU.
    So I believe that if we create new and strong incentives 
for investment here in the building blocks for economic 
competitiveness, all of which are key to America remaining a 
great economic power--the roads, the bridges, the rail, 
aviation, other essential infrastructure. You know, countless 
communities--I was visiting Fall River, Massachusetts, the 
other day. They have a combined sewer overflow requirement by 
the courts. The courts have ordered it. They do not have the 
tax base, they have no ability to be able to build this on 
their own. Already, families that cannot afford it are paying 
an additional $800 for a system that the court has ordered that 
lasted over a hundred years, and they are going to be building 
it for the next hundred years. But none of that is reflected in 
the financing structure, which is all immediate and all sort of 
pay-as-you-go in the current budget.
    President Eisenhower recognized, when he built the National 
Highway System, that it was good to bet on American ingenuity 
and American economic capacity, and it strengthened our hand in 
the cold war. Frankly, all of our infrastructure issues, 
whether it is our grid, which is barely existent as a national 
grid, or our lack of adequate ability to move people by rail 
after 9/11--remember, the only way you could really move people 
was by rail for the first few days. The truth is that 
infrastructure is directly related to America's economic 
strength, and economic strength is directly related to our 
projection of power on a global basis.
    Now, we are going to disagree sometimes, as we all know. We 
are seeing it well exploited in the current political context, 
the question of the appropriate size of Government. I think we 
all agree that a smaller Government is better and that you want 
to try to reduce the size of bureaucracy and so forth. And we 
should not get tangled up in the demagoguery that surrounds 
that issue. Americans do not want big Government, but I will 
tell you what they do want. They want a Government that works 
for them effectively. They want as much Government as it takes 
to be safe and secure on roads and bridges and rail and 
highways and air travel. And businesses want as much Government 
as is required to efficiently and cheaply move goods, products, 
to market. That means upgrading our Nation's highway system, 
our rail, our maritime, our aviation, and modernizing our 
electric grid.
    Now, just to get a picture of how much we need this, Mr. 
Chairman, in 2008, the National Surface Transportation Policy 
and Revenue Study Commission called for an annual investment in 
our country in infrastructure of $250 billion a year from 
Federal, State, and local governments for the next 50 years in 
order to meet just the bottom standard of what we need to bring 
our infrastructure up to par. We are talking about staggering 
sums of money here, and it clearly reflects how much we have 
neglected our infrastructure, and it clearly reflects the path 
of deterioration that we are on.
    Well-functioning infrastructure is not a luxury. It is the 
key to connecting and protecting our people and to creating 
millions of middle-class jobs for American workers over the 
long term, though it is not a jobs bill. That is the ancillary, 
sort of side benefit of doing this. It is a bill directly 
related to economic strength, directly related to competitive 
strength, and directly related to national security. It is 
vital to our economic future in the face of global competition.
    Quite simply, we are falling behind our main economic 
competitors, and the further we fall behind in this race, the 
harder it is to catch up and the easier it is for companies to 
decide, Well, I am not going to locate my company there because 
it costs me so much more to move my goods, it is so much more 
difficult to effect business; I am going to go somewhere where 
they have got a modern infrastructure capacity.
    China. China's 2009 infrastructure spending is estimated to 
be 9 percent of GDP, or $350 billion a year, and growing at an 
annual rate of 20 percent. China's highway mileage is expected 
to surpass the United States' in under 3 years.
    Europe's infrastructure bank--they have one--the European 
Investment Bank, financed $350 billion in projects from just 
2005 to 2009 across Europe, across the continent, helping to 
modernize seaports, expand airports, build railroad lines, and 
reconfigure city centers.
    Brazil. Brazil has invested over $240 billion in their 
infrastructure in the past 3 years alone, with an additional 
$340 billion planned in the next 3 years. They have unveiled 
major initiatives to invest in infrastructure ahead of hosting 
the World Cup and the Olympics. And, incidentally, the 
infrastructure bank was a central part of their strategy in 
attracting the World Cup and the Olympics. And they are using 
their infrastructure bank as a key tool to finance this massive 
expansion.
    So to get back into the game, Mr. Chairman, Members of the 
Committee, we need something more than the municipal bond 
market system, which is already struggling to support over 80 
percent of the infrastructure investment in the United States. 
A National Infrastructure Bank would complement existing 
infrastructure programs, not compete with it. This is not in 
lieu of the highway bill, not in lieu of the FAA bill and other 
things. It is a complement to it, and it is a complement that 
takes a small amount of public seed money, puts it into a 
revolving concept, and leverages anywhere from 6 to 10 times 
that amount of money so that you go from $25, $35, $40 billion 
of initial investment up to $600, $700, $900 billion of private 
sector stake. If done right, Mr. Chairman, this bank can change 
the playing field for our country. It would finance projects 
from high-speed rail to seaports. In today's newspaper, there 
is a big article--I cannot remember if it is the New York Times 
or the Washington Post, but it talks about the difficulties we 
are having right now getting high-speed rail out there. And one 
of the reasons is the freight competition for dedicated track. 
We need to build dedicated track for high-speed rail. That is 
what they have in France; that is what they have in Japan and 
Germany and places. And until we get there, we are not going to 
have a first-rate, modern transportation system for our 
country.
    So I would just close by saying, you know, this can be run 
in an open, transparent manner by experienced professionals. It 
can have meaningful congressional oversight. We could even 
sunset it, which is something that I have proposed, so that 
nobody fears that we are building some long-term, eternal 
Federal bureaucracy but, rather, it has a purpose, it brings us 
back to par, and then we figure out whether we are going to be 
a country with a capital budget or how we are going to proceed 
in the future.
    Americans have always been builders. We built the 
Transcontinental Railroad. We built the Panama Canal. We built 
the Interstate Highway System. We went to the Moon. But for the 
last 25, 30 years now, we have lacked adequate investments in 
that building ethic, and the result is we have been without a 
strategic plan for all of that period of time, and I believe a 
National Infrastructure Bank and the commitment of this 
Congress can change that and put us back onto the path that 
President Eisenhower noted when he signed the Interstate 
Highway System and he said, ``Together, the united forces of 
our communication and transportation systems are dynamic 
elements in the very name we bear--United States. Without them, 
we would be a mere alliance of many separate parts.''
    That is the direction we have been moving in. I hope we 
will put an infrastructure bank in place, reverse the course, 
strengthen America's competitive posture in the world, and give 
our citizens the economy and the quality of life that they 
deserve.
    Thank you, Mr. Chairman.
    Senator Merkley. Thank you very much, Senator Kerry, both 
for painting the vision of the investment we need to make in 
our infrastructure to serve the next generation and create 
jobs, but also how the National Infrastructure Bank would play 
a critical role in making that happen. So you have kicked off 
our hearing very well. Thank you.
    Senator Kerry. I appreciate it. Thank you.
    Senator Merkley. While our second panel is coming up, I am 
going to ask Senator Shelby if he would like to make his 
opening statement.

             STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Mr. Chairman. Thank you for 
putting together this hearing.
    Today the Committee revisits the idea of a National 
Infrastructure Bank and the potential of infrastructure 
investment to create jobs and enhance economic growth. We have 
been told by many experts over the years that infrastructure 
spending is an ineffective means to stimulate the economy, 
although we know it is important on its own.
    As early as January 2008, then-CBO Director Peter Orszag 
testified before Congress regarding public works projects. He 
stated, ``Even those that are on the shelf generally cannot be 
undertaken quickly enough to provide timely stimulus to the 
economy.'' But the nonpartisan Congressional Budget Office has 
told us repeatedly that infrastructure spending has one of the 
lowest bangs for the buck in terms of job creation, if that is 
what we are trying to do.
    Regardless, in early 2009, the Administration enacted, as 
we will recall, a massive stimulus program of over $800 billion 
with the promise that unemployment would not rise above 8 
percent. Mr. Chairman, unemployment is 9.7 percent right now in 
my home State of Alabama and higher than that of a lot of 
States. The unemployment rate nationally is 9.6 percent, well 
above the 8.2-percent rate when the stimulus was enacted and 
well above the Administration's promise of an 8-percent 
ceiling. This equates to 2.5 million payroll jobs lost since 
the stimulus was enacted.
    The President has promised to create jobs. The only thing 
his policies have produced, in my opinion, is more Government, 
more debt, more regulation, and more unemployment. Americans 
are tired of the ``borrow now and pay later'' mentality of this 
Administration and its allies in Congress, and they want it to 
end.
    I agree that investing in our infrastructure is important 
to our Nation. I think we all do that. It is a long-term 
proposition and one that must be considered carefully and 
constructed thoughtfully. Debt-funded infrastructure spending 
is not and never will be the most effective way to deal with 
shorter-term economic difficulties. Nor do I believe that we 
should create under the guise of innovation in infrastructure 
finance a new GSE-like structure where taxpayers are put on the 
hook for the risk of others.
    We already have many ways of funding infrastructure 
projects. While they may not be perfect, most involve the 
process of appropriating funds through this Congress. I 
understand that it may not be as efficient to have Congress 
involved, but it does give the American taxpayer a voice in 
these multi-million-dollar spending decisions.
    When advocates for a National Infrastructure Bank talk 
about leveraging taxpayer resources in partnership with the 
private sector, I hear private profit and public risk. When I 
hear that an infrastructure bank will not cost the taxpayers a 
dime, I wonder why Federal resources and guarantees are needed. 
When taxpayers are on the hook, Congress must have a role, I 
believe. We must agree that we must maintain and modernize our 
national infrastructure. It is a must. Neither the creation of 
a National Infrastructure Bank nor another $50 billion in 
spending would constitute a comprehensive plan for the future.
    Rather than expose the American taxpayer to more risk and 
waste billions of dollars on ineffective, inefficient programs, 
I believe we need to develop a comprehensive long-term approach 
to infrastructure investment. I believe that we need an 
approach that encourages private sector participation and 
investment, one that demands efficiency, effectiveness, and 
reasonable return on investment.
    But I also believe that we need to protect taxpayers and 
make sure that we do not again construct another Fannie and 
Freddie under the guise of a National Infrastructure Bank. I 
hope we have learned our lesson in that regard. We will see in 
the future.
    Thank you, Mr. Chairman.
    Senator Merkley. Thank you, Senator Shelby.
    We will now hear from our first panel. First we will hear 
from the Honorable Roy Kienitz, the Under Secretary for Policy 
at the United States Department of Transportation. Mr. Kienitz 
assists the Secretary in formulating national policies 
affecting surface transportation and aviation. Prior to his 
appointment to the Department of Transportation, Mr. Kienitz 
served as the deputy chief of staff for Pennsylvania Governor 
Edward Rendell.
    Next we will hear from the Honorable Alan Krueger, who 
currently serves as the Assistant Secretary for Economic Policy 
of the Treasury Department. He advises the Secretary on all 
aspects of economic policy, including current and prospective 
macroeconomic developments, development and analysis of the 
Administration's economic policy initiatives.
    Thank you both for coming, and I ask that you keep your 
remarks to approximately 5 minutes. We look forward to hearing 
your thoughts. Thank you.

     STATEMENT OF ROY KIENITZ, UNDER SECRETARY FOR POLICY, 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Kienitz. Thank you, sir. Good morning, Mr. Chairman, 
good morning, Senators. Thanks for allowing us to appear today.
    I would like to start by saying it is very appropriate that 
this hearing is entitled ``Creating Jobs and Growing the 
Economy,'' because those are two things where we see a very 
powerful role for the type of infrastructure investment we are 
talking about here today. Obviously, the things that we do do 
create jobs in the short run. But as Senator Kerry said, that 
is not our principal aim. That is a wonderful thing to do, but 
the principal aim is to build projects that create long-term 
economic benefit over decades and generations.
    If we select projects correctly, they decrease costs for 
business and they increase overall economic productivity, and 
that is something that lasts for generations. And that is 
really the lesson of the big infrastructure investments of the 
past, be they the Transcontinental Railroad, the Interstate 
Highway System, the airport system, these generations-long 
streams of benefits that the whole economy gets.
    As folks here have alluded to, 2 weeks ago the President 
gave a speech in which he laid out the initial outlines of a 
vision for making a long-term investment in transportation 
infrastructure, and that combines both the goal of a long-term 
plan but something pretty quick now to get going in the current 
environment. And this is a signal that the Administration 
agrees with the Members of this Committee and most of the 
Members of the House and Senate that a 6-year reauthorization 
of surface transportation programs is important and we should 
get it done as quickly as possible. And it is a way to get rid 
of the long-term infrastructure backlog, but to make these 
kinds of investments that will give us long-term change in the 
economy.
    To accomplish this, the program that we are going to be 
proposing will need a robust level of funding, significantly 
higher than the current baseline that is in the budgets going 
forward. And we are suggesting that a significant share of 
these new resources, as much as $50 billion, be frontloaded in 
the current environment in the first year. We see that money as 
part of the long-term plan, but the traditional method by which 
these bills--they are smallest in the first year and grow 
largest in the last year, and, now is when the economy needs 
help, and hopefully in 4 or 5 years from now the economy will 
be humming along. So we are looking at a different investment 
profile to start sooner.
    Under the Recovery Act, we are finding that bid prices for 
a whole range of projects are coming in on average about 20 
percent below prior estimates, so just from a bang-for-the-buck 
point of view, now is the perfect time to put in a large chunk 
of money because we are going to get the same projects for less 
money.
    Some of the tangible accomplishments of the President's 
plan over the next 6 years we hope will be able to rebuild up 
to 150,000 miles of roadway; construct and maintain 4,000 miles 
of rail; and as part of our up-front proposal, we are proposing 
some aviation investments that potentially could help us 
rehabilitate or reconstruct 150 miles of runway. This aviation 
investment plan would not be part of the long-term plan. We are 
not proposing to merge the surface reauthorization and aviation 
bills, but we would like to do some of that as part of the up-
front plan.
    More generally, we want this to be part of a long-term 
plan. The programs at the Department of Transportation have 
been counted up over various times. We think on the surface 
side there are over 100 individual funding categories right 
now. That is traditional where you start with a small, 
streamlined program and it grows over time, and it has been 20 
years since there has been a major pruning exercise, and we 
think that it is time to do much less in the way of categories 
and much more in the way of performance-driven budgeting, both 
at the Federal and the State level.
    The Department in our Strategic Plan that the Secretary has 
put out, we have outlined the five strategic goals we want to 
pursue, which are all pretty simple: economic competitiveness, 
safety, state of good repair of existing assets, environmental 
sustainability, and community livability. And we want to have 
our investments both on the formula side and on the 
discretionary side driven by those priorities.
    So the infrastructure bank for our purposes is a way to 
direct spending, A, at the strategic priorities we have in a 
much more concrete and specific way; and, B, to do it according 
to a set of principles of merit-based decisions on what project 
to pick and what mode to pick that project in rather than a 
set-aside slide of money for each individual category. You have 
to make that decision on a project-by-project basis and be 
driven by analysis to get the biggest bang for the buck for the 
country for these long-term economic gains.
    So those are the core principles behind the infrastructure 
bank that we see. There are a lot of questions that need to be 
resolved. We have yet to make a specific proposal on all the 
points that Senator Shelby laid out, and I was glad to hear his 
statement; and I think if those are the markers you are laying 
down, I think we can meet those markers. But that will 
obviously be a conversation we have with this Committee and the 
other committees of Congress.
    So those are, I think, the principal reasons why the 
President has been supportive of this, and then we want to work 
with the Members of this Committee and the rest of the Senate 
and the House to try to work out details that everyone can 
believe in.
    Thank you.
    Senator Merkley. Thank you very much.
    Now we turn to our second testimony from Honorable Alan 
Krueger.

STATEMENT OF ALAN B. KRUEGER, ASSISTANT SECRETARY FOR ECONOMIC 
     POLICY AND CHIEF ECONOMIST, DEPARTMENT OF THE TREASURY

    Mr. Krueger. Thank you, Senator Merkley and Ranking Member 
Shelby and other Members of the Committee. I appreciate the 
opportunity to discuss proposals to improve our Nation's 
infrastructure investment.
    The President has announced a bold plan to renew and expand 
America's transportation infrastructure through an up-front 
investment connected to a 6-year reauthorization of the surface 
transportation program.
    In my testimony, I will discuss several aspects of the 
President's proposal. First, I will evaluate why focusing on 
infrastructure investment makes sense in the current economic 
environment. Second, I will discuss some of the long-term 
benefits from increasing our investments in infrastructure. I 
will then turn to the core ideas behind the Administration's 
proposed National Infrastructure Bank, which were heavily 
influenced by the bipartisan work of Chairman Dodd and former 
Senator Hagel. Finally, I will highlight a successful, 
innovative financing program, Build America Bonds, which could 
be a useful tool for the National Infrastructure Bank.
    The recession that started with the financial crisis of 
2008 has had an exceptionally large impact on the job market. 
From December 2007 to December 2009, our country lost over 8 
million jobs. While there are positive signs of recovery in 
many sectors of the economy, additional steps are needed to 
ensure that the recovery stays on track. In this environment, 
accelerating infrastructure investment makes good economic 
sense for several reasons.
    First, infrastructure investment will provide opportunities 
for workers who were disproportionately affected by the 
recession. Due to the collapse of the real estate market, the 
contraction of employment in the construction industry has been 
especially acute. One in five of the 8 million jobs lost was in 
the construction sector. The unemployment rate among 
construction workers is now 17 percent.
    Second, a wide range of analysts, including the CBO, have 
concluded that additional spending on infrastructure is among 
the most effective policy options for raising output and 
employment.
    Finally, during recessions it is common for State and local 
governments to cut back on capital projects, such as road 
construction, in order to meet balanced budget requirements. 
Past research has found that expenditures on capital projects 
are more than four times as sensitive to year-to-year 
fluctuations in income than is State spending in general. The 
Recovery Act provided crucial support for infrastructure during 
the recession.
    Investing in infrastructure is not only important to our 
economy now; it is also crucial to the economy's long-term 
health. While economists have debated the magnitude of the 
various infrastructure investments, evidence from recent 
research points to a positive and significant effect of 
transportation infrastructure investment on productivity.
    John Fernald's research, for example, has found that 
building the Eisenhower Interstate System corresponded with a 
significant increase in the productivity of vehicle-intensive 
industries compared to industries that did not heavily rely on 
vehicles.
    One of the most promising ways to leverage scarce Federal 
resources while targeting our most productive investments is to 
establish a National Infrastructure Bank. Our current method of 
funding infrastructure lacks effective mechanisms to attract 
and repay direct private investment in specific projects. A 
National Infrastructure Bank would create the opportunity for 
greater private sector investment in infrastructure.
    Second, with a few notable exceptions, Federal funding for 
infrastructure investments is not distributed on the basis of 
competition among projects using a rigorous economic analysis 
or cost/benefit comparison. The National Infrastructure Bank 
would develop a framework to analytically examine potential 
infrastructure projects based on benefit/cost analysis. It 
would prioritize the most effective and efficient investments.
    I should acknowledge that creating a framework for project 
selection based on cost/benefit analysis is a challenge. 
Consider, for example, the problem of congestion. Americans 
waste an estimated 1 week of time sitting in traffic. Valuing 
the time lost due to traffic may appear simple at first, if the 
opportunity cost is lost income due to foregone work. However, 
it is not clear that time spent in congestion should be valued 
at the wage rate as not everyone sitting in traffic wants to 
work more hours or can find a job. Additionally, there are 
emotional and physical costs of commuting beyond lost working 
time. All of these potential costs of congestion should be 
factored into any cost/benefit analysis of infrastructure 
alternatives.
    Identifying all of the benefits of potential infrastructure 
projects is also challenging as all the benefits do not 
necessarily accrue directly in the area where the 
infrastructure is built. For example, a project that improves 
the connectivity between a freight rail and a port to allow for 
quicker, cheaper, and more reliable service will be a benefit 
for the producers of those goods, even if they live very far 
away.
    Another benefit of the National Infrastructure Bank arises 
because coordinating multimodal, multijurisdictional projects 
in the current system is extremely difficult. This is because 
each mode of transportation has a distinct Federal funding 
source, and there could be significant difficulty accessing the 
capital markets for local funding for jurisdictional projects. 
A National Infrastructure Bank would be able to bridge this 
gap.
    Finally, in addition to improving the targeting of our 
infrastructure investment, we need to consider new ways to 
finance it. A National Infrastructure Bank should be at the 
forefront of innovative and sound ways for financing worthy 
projects. One such financing tool is Build American Bonds, 
which the President has proposed extending.
    I am happy to answer any questions.
    Senator Merkley. Thank you both very much for your 
testimony, and we will have about 5 minutes of questioning from 
each of our Members of the Committee.
    I will begin just by noting, Mr. Kienitz, you referred to 
five goals: economic competitiveness, safety, state of repair, 
livability, and environmental sustainability. And, Mr. Krueger, 
you refer to financing worthy projects. Walk us through the 
vision of how an infrastructure bank makes its choices about 
what type of projects to fund. And I think, Mr. Kienitz, you 
referred also to getting away from the traditional stovepiping, 
which means everything is in competition with each other. So 
how does that get sorted out?
    Mr. Kienitz. It is a complex task and that is exactly the 
right question. We have started to try to figure that out, as 
some of you may know. We have a discretionary program that was 
created in the Recovery Act and has been continued since called 
the Secretary's Discretionary Grants, or the TIGER program. We 
have used this as a bit of a pilot to start doing exactly that, 
and we asked applicants who are asking for larger amounts of 
money to provide cost-benefit analysis along with their 
applications. Some of those analyses we got were thin and not 
very well done, and some of them were thick and expert.
    And what we did is we weighed two sets of things, the first 
of which is what do we think the overall bang for the buck for 
this project is, all costs included and all benefits included. 
Second, do we think this project is meaningfully advancing our 
key national goals that we have set out, or, for example, so if 
you had two projects that had a very similar sort of bang for 
the buck and one of them advanced four of our strategic goals 
and another one only advanced one of our strategic goals, we 
might lean more heavily in its favor.
    So it is a balancing act, but I would say the principal 
thing that we want to say about the strategic goals is in the 
past, the financing markets have often concentrated on can this 
project be financed? Do the numbers work? That is a very 
important consideration. We start actually with a different 
question, which is does this project achieve something of 
national importance? If it does, then we will look into, do the 
numbers add up, and in some cases, it can be financed entirely 
through debt. In some cases, part of it can be financed through 
debt, but it might need grants for part of it. And in some 
cases, if it is in a smaller community that has very little 
ability to pay but there is still a high return on investment, 
then a grant funded project is appropriate. So it depends on 
the specific circumstances of each project.
    Senator Merkley. Mr. Krueger, do you want to add to that?
    Mr. Krueger. Sure.
    Senator Merkley. And specifically, nitty-gritty. Is there 
going to be a board that makes these decisions, or how are the 
proposals actually evaluated?
    Mr. Krueger. Well, of course, all of those details remain 
to be worked out with the Congress. And as Under Secretary 
Kienitz said, I think it is a balancing act. One needs to weigh 
in any benefit-cost analysis the benefits of increased safety, 
for example. I know that is done in other realms and I think 
that can be done here, as well.
    But the details of how the Infrastructure Bank would work 
would depend on the legislation that authorizes it, and, of 
course, we would be very happy to discuss those details further 
with you and your staff.
    Senator Merkley. OK. Well, I will follow up with one other 
question here, and that is in the testimony, Mr. Krueger, you 
referred to the potential for an Infrastructure Bank to 
recognize and fund projects will have significant network 
effects. Can you talk about this in a little more detail, why 
such effects are important, but also why it is our current 
systems of funding don't adequately target projects with those 
types of network effects?
    Mr. Krueger. Sure. I think much of the benefit from 
transportation infrastructure comes about because of the 
network effects, because one highway is connected to another or 
because a highway reaches an airport or a rail line or a port. 
And valuing those external benefits is very difficult. If a 
project is funded locally, the local government may be aware of 
some of those benefits, but it doesn't have the same incentive 
as the national Government does to take into account of those 
external benefits.
    So taking into account of those external benefits, I think 
is extremely important, especially for projects of national 
significance where you are talking about projects that cut 
across, in many cases, cut across jurisdictional lines and cut 
across different modes.
    Senator Merkley. Thank you very much.
    With that, Senator Shelby.
    Senator Shelby. Thank you. One of my concerns, and I don't 
think I am the only one here, about an Infrastructure Bank is 
that it would involve private profit-seeking goals with 
Government backing, in other words, private profits socializing 
the risk. I fear that the bank will simply be a new GSE or 
something like it and we will face another Fannie and Freddie-
type entity that will cost the taxpayers money down the road, 
maybe not immediately, but down the road.
    Have you thought that out? In other words, if you are 
putting the Government guarantee there, you are exposing the 
taxpayers, but the people who invest privately will make the 
profit, not the taxpayer. Will we benefit from the 
infrastructure? Sure. We all do. We know that. But have you 
thought that out, the mechanics of how this would work? Your 
statement earlier seemed a little vague and like this is a work 
in progress. But I fear the GSE model.
    Mr. Kienitz. Yes, sir. The statement is vague and 
deliberately so because it is a work in progress. We are 
actively in discussions right now----
    Senator Shelby. Is it deliberately so because you don't 
know yet, or is it deliberately vague because you would rather 
not have the Congress know what is going on?
    Mr. Kienitz. We hope to make a very specific proposal----
    Senator Shelby. OK.
    Mr. Kienitz. ----but probably not for a while, and so we 
are currently discussing what that should be. I would say that 
the GSE model, I don't think is terribly high in favor with a 
lot of folks right now, just because Fannie and Freddie are 
obvious examples of something that looked like a good idea at 
the time and has since shown its weaknesses.
    Up until now, we have been using the principles of what is 
called the Federal Credit and Scoring Act, where if we give a 
loan, for example, under the TIFIA program at DOT, we set aside 
a certain amount of money as coverage, and when you do a 
portfolio of loans, you are setting aside enough money. In the 
15 years of that program, I think there has been one 
bankruptcy, which just occurred. In fact, we insist on, in the 
case of a bankruptcy, the Federal Government jumps to the head 
of the line in terms of the ability to get repaid, and our 
analysts are telling us that we may make a little bit of money 
in the bankruptcy of that loan, and it is the only one out of 
the entire history of the program that has ever gone bad.
    So that system that exists right now works pretty well. It 
has been pretty safe. It is just way too small, and so part of 
the potential here is to--one model is to simply take that 
system and put a whole lot more money behind it and expand the 
scope.
    Senator Shelby. What you are talking about basically, and 
correct me if I am wrong, is leveraging this money. In other 
words, if you created a $50 billion, if you had an 
appropriation, I assume an appropriation of $50 billion----
    Mr. Kienitz. Right.
    Senator Shelby. ----I guess we would have to borrow it from 
the Chinese, and then they wouldn't be able to build their 
infrastructure, would they?
    [Laughter.]
    Senator Shelby. But anyway, if we did that, what would you 
envision, seriously, to leverage with 50? Could you leverage it 
10 times or 5 times?
    Mr. Kienitz. Our experience has been it is generally 
somewhere between 8-to-1 and 12-to-1, depending on what pledge 
we get.
    Senator Shelby. So let us say if it is 8-to-1, you are 
talking about $400 billion in infrastructure.
    Mr. Kienitz. Now, I would expect that some portion of that 
money would be grant money. I mean, the example Senator Kerry 
used of Fall River, Massachusetts, if they are going to do a 
water upgrade, some portion of that is going to be paid by the 
local ratepayers. There will be money there to pay back, 
because part of that will be loans. The issue is the level that 
the rates would have to be in that community is so astronomical 
that you can't realistically pay for the whole thing.
    Senator Shelby. Would that be like transit today, where we 
put up so much money and the cities put up so much money?
    Mr. Kienitz. Right, and so there might be a portion of its 
loan that is backed by local ratepayers and a portion of it 
that is grant----
    Senator Shelby. How would you limit, sir, or I will direct 
this to both of you, how would you limit the exposure of the 
taxpayer to this? Let us say they put up $50 billion. Is that 
an implicit guarantee for the $400 billion that you would 
leverage, say if it was eight times?
    Mr. Kienitz. Right now, the TIFIA program has one-third is 
the maximum that the Federal Government can put into any 
project, so someone else's money has got to be in there for 
two-thirds.
    Senator Shelby. I understand that.
    Mr. Kienitz. Also in this case----
    Senator Shelby. No, but I am talking about the liability. 
Let us go back to the ultimate liability of the taxpayers. 
Would they be liable for, either implicitly or explicitly, $400 
billion or just for the $50 billion?
    Mr. Kienitz. Uh----
    Senator Shelby. And how would you sell that? I mean, you 
would be selling bonds, probably.
    Mr. Kienitz. Right. The model that exists now is the 
Treasury simply puts the actual cash into the deal and we hold 
back a reserve, and the reserves are pooled over multiple 
projects. So if one out of 20 projects goes bankrupt, but you 
are collecting one-20th of the project value from each one, it 
covers itself, and so far, it has worked well.
    Senator Shelby. Have you run numbers, and who has run those 
numbers, we would like to know, to see if all this could be 
actuarially sound?
    Mr. Kienitz. We have yet to do that because we haven't 
quite made a specific proposal----
    Senator Shelby. I know that, but isn't that important?
    Mr. Kienitz. Oh, absolutely. Absolutely.
    Senator Shelby. Secretary Krueger, do you want to comment?
    Mr. Krueger. Just a couple of quick responses. I think this 
would be very different from the GSEs.
    Senator Shelby. How? Explain.
    Mr. Krueger. And I would say that Under Secretary Kienitz 
used understatement in saying that the model was different----
    Senator Shelby. Would it be different because you would 
call it something different, or----
    Mr. Krueger. Oh, no, no. Let me explain----
    Senator Shelby. ----in reality----
    Mr. Krueger. Because it would be on-budget, first of all. 
Second, because it would use the Federal Credit Reform Act for 
scoring. Third, and probably most importantly----
    Senator Shelby. Explain what you meant there.
    Mr. Krueger. This is related to what Under Secretary 
Kienitz said, that the scoring would be based on expected 
losses, and there would also be limits in terms of the 
leverage. I mean, I can give you an example. In my testimony, I 
described the Build America Bonds model, which as you know are 
direct subsidy bonds where the Federal Government pays right 
now 35 percent of the borrowers'--of the issuers' costs. That 
certainly limits the liability to 35 percent. The issuer is 
responsible for the rest of the borrowing costs, and this is 
one way of leveraging Federal resources which we are doing 
right now.
    But the other point I want to make is with the GSEs, the 
GSEs were profit-seeking institutions. The Infrastructure Bank 
would not be. The Infrastructure Bank would be an institution 
that is seeking to make the best investments, but not trying to 
make itself a profit, which is part of the problem--a big part 
of the reason why the GSEs ran into trouble.
    Senator Shelby. One quick question. Who would decide who 
would get what under this bank? Would that be the Secretary of 
Commerce, the Secretary of Transportation, or somebody there, 
and would Congress have a role, or who would have a role, and 
how objective would that be?
    Mr. Krueger. Well, Congress----
    Senator Shelby. How do you remove politics from it?
    Mr. Krueger. Well, Congress would certainly have a role in 
designing the institution.
    Senator Shelby. What about giving out the money?
    Mr. Krueger. Under Secretary Kienitz can talk more about 
that, but----
    Senator Shelby. Would that be up to the Secretary of 
Transportation?
    Mr. Krueger. ----the proposal that we had was that the bank 
would be housed in the Department of Transportation but have 
input from other relevant agencies and departments. But as I 
said, that is a detail--that is an important detail that needs 
to be worked out with the Congress.
    Mr. Kienitz. As would the question of does this person--is 
it run by a Government appointee? Is that person confirmed by 
the Senate? There are many ways that you gentlemen are more 
familiar with than I do in which proper oversight and attention 
is given. And we are sorting through what we want to propose. 
We suspect whatever we propose will be adjusted here----
    Senator Shelby. Are you telling us basically it is an idea 
now that has got to be fleshed out and crystallized before you 
really make a concrete proposal?
    Mr. Kienitz. Correct----
    Senator Shelby. OK.
    Mr. Kienitz. ----and the second point, is we are trying to 
balance two things. We are trying to balance enough separation 
from politics so that they can make some tough calls, but 
enough connection that people feel like it is legit. And so I 
don't think that is an easy balance, but that is the balance it 
has to be.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Merkley. Thank you.
    Now we will turn to Senator Tester.
    Senator Tester. Yes. Thank you, Mr. Chairman, and I want to 
thank the panelists for being here. If I don't get a chance to 
say hi to Governor Rendell, I want to thank him for being here 
today, too. I very much appreciate it. I know how passionate 
you are about this issue.
    A personal comment first, and then we will get to the 
questions. First of all, I think if we don't start investing in 
infrastructure, we are not going to be a leader in this world 
for much longer. I think it is critically important that we 
invest and it is going to cost money. Whether we pay for it at 
this level or we pay for it at the local level, it is going to 
cost some money. But we will all get benefits from that if it 
is done right, and that is critically important. I think as we 
look at our electrical transmission to water systems to our 
transportation system, whether that is road, highways, or air, 
there has to be an investment there or we will not be able to 
compete. That is just my comment.
    Now I am going to talk about rural America, because I do 
have some concerns with an investment bank. We are going to try 
to make it as nonpolitical as possible and we are not going to 
have the Banking Committee oversee it, doggone it. I was hoping 
that would be the case, but it is not.
    And you talked about, Mr. Krueger, you talked about cost-
benefit analysis, and I think that on the surface, that sounds 
really, really good, especially if you are talking about people 
who are sitting in front of stoplights or whatever it may be. 
Now, we have got 950,000 people in the State of Montana, and 
Montana is a pretty good-sized State. Traffic, for the most 
part, isn't an issue, although if you look for it, you can find 
some traffic problems, but you have to really look for it.
    So in the area of highways, how does Montana get a fair 
shot at any sort of investment when, quite honestly, we don't 
have a population base that is the size of a place like 
Pittsburgh, much less a bigger city or a bigger State?
    Mr. Krueger. Well, I think the principle of cost-benefit 
analysis applies in different regions and different types of 
economic conditions. The rural areas, I think, would also 
benefit certainly from connection, you know, the delivery of 
goods and services, transport of minerals or of cattle and so 
on to ports. Rural areas would certainly benefit from 
improvement in the ports, improvement of the freight rail 
lines----
    Senator Tester. No argument here.
    Mr. Krueger. ----and I think that is exactly what you meant 
when you said that the State would benefit from the investment 
in infrastructure. Presumably, in many cases, that would pass 
benefit-cost analysis, which would help the State.
    Senator Tester. OK. Let me burrow down a little bit, and 
this may be unfair because we are just fleshing this thing out 
and it is just starting, and you can jump in if you want to, 
Ron. The issue is, I have been to Southern California. I mean, 
it is a nightmare to drive in that place. If you are looking at 
developing a mass transit system, you could take a whole pile 
of money and send it down to Southern California and Montana 
wouldn't even be a blip on the radar. How does Montana get to 
be more than a blip? And I know you are talking about shipping 
cattle, but when you are talking about votes and you are 
talking about the Electoral College and all those kind of 
things, fact be known, I mean, I don't care if you are talking 
about the Missouri River or you are talking about highways, 
that makes a difference.
    How does that cost-benefit analysis--you are not going to 
be able to do everything all at once, don't have enough money. 
We are talking, if the figures are right I put in my head, I 
don't know how many, $60 trillion or something like that over 
an extended period of time, but how do we get to be a part of 
the equation? And then if there are minimums on the amount of 
dollars, like no project can be under $75 million, that puts us 
at another disadvantage. How is this going to work? Maybe you 
can touch on that.
    Mr. Kienitz. Yes, sir. We have thought about this a lot. An 
interesting thing that is going on, for example, in Southern 
California right now, they have gotten to the point where they 
have agreed to tax themselves to try to fund their transit 
infrastructure because, as you said, their needs are so large, 
even the Federal Government is not big enough to do it. They 
have to raise money locally, and so they have proposed a plan 
to raise $30 billion locally. Now, what they want help from us 
is loans to help front-load some of that money to get the 
projects done quicker, but not grants so much.
    We held one of our outreach sessions on the surface 
reauthorization in Bismarck, North Dakota--far away, but close, 
if you get what I am saying----
    Senator Tester. Yes.
    Mr. Kienitz. ----and what we heard up there was extractive 
industries. That is the big growth area up there, and it is oil 
and gas and it is timber and it is grain and things like that. 
And interestingly, in the cost-benefit analysis we did on our 
TIGER grants, frankly, much to my surprise, the largest 
category of grants that we gave was the freight rail system. It 
wasn't urban transit. We did some of that. But it was the 
freight rail system because those are folks who have really 
good information about if we make this improvement and this 
improvement and this improvement, and we the private guys will 
pay half or two-thirds, there is enormous benefits that come to 
shippers over a wide area.
    And so that is the type of thing that we can actually see a 
fair amount of helping in rural America, be it rural Kentucky 
on the short line railroads or the Great Plains on the major 
railroads. So that has, I feel like, been a bright spot for us. 
The question of how to make sure those benefits flow out 
everywhere rather than just to the sort of concentrated pockets 
is an issue. But as Mr. Krueger--you know, untangling the mess 
in Chicago is hugely beneficial to everything that is 1,000 
miles west of there.
    Senator Tester. Right, and I have run out of time, but I 
would just like to say, I mean, I think this is a critically 
important conversation we are having. I think it is a 
conversation--I mean, since I took over the farm, which has 
basically been a little over 30 years ago, I haven't seen much 
infrastructure take place. It seems like the attitude has been 
about me instead of about all of us together. And I can tell 
you that if we don't address this, because I see it falling 
apart, I see the need there for water and sewer and highways 
and rail and--I mean, our rail system in the State of Montana 
is significantly less than it was 30 years ago. We have got 
rails that are shut down. We have got less access to markets 
than we had. And if this continues along this line, I mean, it 
is not healthy for the country overall and it is not good for 
our economy.
    I appreciate you guys working on this. I hope we can come 
together, put the politics aside, and come up with something 
that is going to work for the country. I think this cuts across 
everybody, rich, poor, Democrats, Republicans, Libertarians, 
Independents. We have got to have something that works for this 
country.
    Senator Reed [presiding]. Senator Menendez.
    Senator Menendez. Mr. Chairman, I know that Senator--I was 
here before, but Senator Warner has been here, so I am happy to 
wait----
    Senator Reed. Thank you very much.
    Senator Warner, you are recognized, please. Thank you, 
Senator Menendez.
    Senator Warner. I would like to thank the Senator for that 
distinguished moment of leadership.
    Let me--a couple of quick comments, and I will try to be 
brief, recognizing that Senator Menendez is next.
    One, I want to just reiterate what my friend, Senator 
Tester, said, kind of net-net. I think Senator Kerry mentioned 
this earlier. We have seen a 50 percent decline in 
infrastructure investment in America as a percentage of our GDP 
since the 1970s, and what used to be, as I know my good friend 
Governor Rendell pointed out, or will later, one of America's 
competitive advantages, infrastructure, now becomes a 
competitive disadvantage vis-a-vis nations around the world.
    And while a lot of details need to be worked out, the 
concept we are talking about here of how we can use, with 
limited exposure of the public, part of the larger balance 
sheet to help finance infrastructure investments is not a 
radical concept. We do it right now with OPIC. We do it right 
now with the Export-Import Bank. We do it right now with the 
World Bank. We do it right now with a variety of municipal 
financing tools that are used.
    We do it right now with the TIFIA grants, one of the 
things--let me get out a couple of questions here and then you 
can both address them. How what we are proposing here, what you 
are proposing here would differ from TIFIA, number one. Number 
two, before I got this job, I spent about a year working with 
the Bipartisan Policy Center with former Senator Gorton from 
Washington State on the question of how we do the evaluation so 
that, again, as Senator Tester mentioned, we don't go back just 
to VMT as your assessment and how we have these policy goals 
and real metrics on project selection, and I would commend the 
Administration to look at the Bipartisan Policy Center's work 
and AASHTO and a whole series of organizations have been 
involved in that, on that question. So I would like to hear a 
little bit more about what kind of metric evaluation we are 
going to use.
    And then I would also like to make sure, if we thought 
through this and put this investment bank into reality, how 
would we ensure that there would be mode neutrality in the 
assessments? We still have, as a former Governor, and I know 
probably Governor Rendell will mention this, we all like to 
talk about at our State levels a goal toward pushing rail, 
pushing multimodal. In 90 percent of the States, the Highway 
Department still outweighs virtually everybody else. If we were 
going to create this Infrastructure Bank, how would we make 
assessments based on some level of mode neutrality?
    Mr. Kienitz. Thank you, Senator. From a structural point of 
view, mode neutrality is not that hard to imagine. The issue we 
have right now is there are dollars which are highway dollars 
and dollars which are transit dollars and so you don't ever 
have a conversation about how much highways and transit do I 
want, because it is all locked in stone, mostly at the State 
level and here at the Federal level, too.
    So part of what we are proposing is a large amount of 
dollars which has no label on it, if we can agree to that. That 
has been a political difficulty, honestly, more than anything 
else, because all of the recipients of these dollars, the first 
thing they want is certainty. I want to know how much is before 
me, before we look at the projects. I want that decided first. 
Well, we have to let that be decided last. Once you create that 
structure, then the challenge is on us to say, how do you 
evaluate a freight rail project versus a transit project versus 
a highway project? That is a little bit hard. We are starting 
to do that in active year-by-year grant rounds with these 
modest dollars we have in our discretionary program, but it is 
the first test of how would you actually go and do that.
    And what we find is that in the highway world, they are 
really good at evaluating one highway project against the 
other, and in the transit world, they are pretty good at 
evaluating one transit project against the other. And then when 
you ask the two folks to sit down and have one meeting, there 
is a little bit of talking past each other. The systems haven't 
ever been created to work together, and let alone high-speed 
rail and aviation and freight rail.
    So what we are trying to do is start with the generic cost-
benefit analysis as the leveling tool----
    Senator Warner. Would the bank----
    Mr. Kienitz. ----recognizing that it misses a lot and that 
you need to be able to say, what about CO2? That has to count, 
too. And what about safety? That has to count, too.
    Senator Warner. But the bank would not--the bank, as you 
envision, would not be broken into silos. You would have your 
traditional grant programs, which we all hope will get out of 
their silos. The bank would be one additional financing tool 
out there, hopefully leveraging private sector dollars----
    Mr. Kienitz. Yes.
    Senator Warner. ----in a much greater way with these policy 
goals that don't have the definition as strict as some of our 
silo approach now back to VMT----
    Mr. Kienitz. That is the hope.
    Senator Warner. ----with these policy goals, and again, I 
commend you to look at the Bipartisan Policy Group, which has 
spent 2 years looking at trying to come up on a way, because is 
a tough thing----
    Mr. Kienitz. Right.
    Senator Warner. These are great goals that are tough to 
kind of break down into how you then evaluate projects.
    Again, my time has been expired and I thank my colleague 
and friend, Senator Menendez, for letting me jump here.
    Senator Reed. Senator Menendez, please.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Secretary, I want to get a sense, as someone who is a 
full supporter, I heard some of the comments earlier that 
suggest that this is somehow wasteful, that this is an effort 
at stimulus. It seems to me it is an effort at the future 
economy of this country. Just look at China. It understands how 
it is making its investments in such a way that it is going to 
yield enormous economic opportunities for that country, and it 
is readying itself for fulfillment of its capacity in this 
century. And so I think it is in that context that we would 
look at this, understanding that these are about investments 
that yield huge dividends in the long run and that leverage our 
opportunity to attract the private sector.
    I remember in my days in the House of Representatives when 
I sat on the Transportation Committee, and if you came to visit 
my, what was then my district and now, of course, in my State, 
you would have seen abandoned railroad yards up and down the 
Hudson waterfront overlooking Midtown Manhattan. And it was the 
effort of myself and others who created an infrastructure and 
the high-speed nonpolluting light rail line along that same 
waterfront, and working to create sewage infrastructure and 
what not that now has a multi-million-dollar ratable base all 
up and down that waterfront, created tens of thousands of new 
jobs, and created an economic synergy in the region that is 
probably even in this current challenging economy, that is 
second to none.
    And that was based in the first instance upon an investment 
in infrastructure. So it seems to me that the dividends that 
are yielded is rather significant and more than pays back on 
the investment.
    So if we look at it in that way and eliminate the 
criticisms just on a partisan basis, my question goes, how does 
a National Infrastructure Bank help us particularly when we 
have large, important national--projects of national 
significance, and I will just cite one right now. I have 
labored very long and hard, along with Senator Lautenberg, to 
have a new trans-Hudson tunnel created from New Jersey to New 
York. It is the largest single Federal investment in our 
history. It creates 6,000 construction jobs and it ultimately 
generates by every analysis anywhere between 40,000 and 50,000 
new permanent jobs.
    Now, unfortunately, our Governor is in the midst of trying 
to cannibalize the State's contribution to that in order to 
fund his State Transportation Trust Fund, but in the process, 
we will lose the leverage of billions of dollars and the 
creation of an infrastructure project that has been noted as 
nationally needed and significant and has a ripple effect in 
our economy of huge proportions.
    So part of the challenge has been moving that project from 
conception to where we are today, which is already started. How 
do you envision a National Infrastructure Bank being able to 
help us with projects of national significance move more 
efficiently?
    Mr. Kienitz. I will respond to that. I mean, as you 
mentioned, Senator, the ARC project is the largest commitment 
the Federal Transit Administration has ever made to any single 
project, and that is something that we hope has a future. I 
think we are all going to find out in the next month.
    That was hard to fit into the budget of the Federal Transit 
Administration and it is going to create a big lump of cash-
flow going out multiple years. Having a National Infrastructure 
Bank hopefully gives another window for folks who have those 
very large but very transformative projects to go to in a way 
that allows the more bread and butter run of the mill stuff to 
be funded out of the regular budget in the normal way. And then 
the question would really be, that project has high costs but 
huge benefits given the number of people who will use it, but 
there is a project in Florida and there is a project in Texas 
and a project elsewhere and those will all go in and their 
evaluations will get put together.
    But to our point of view, it means that the Infrastructure 
Bank has got to be big enough that it can handle these big 
projects. And right now, the TIFIA program we have, which gives 
out loans for these programs, we tend to do $200 million, $400 
million, $500 or $600 million is a really big loan out of 
there. And you can do some good stuff with that, but you don't 
do these big transformational things at that price tag. So that 
is, I think, part of what we are seeing. We just need--the 
magnitude has got to be sufficient to the costs of these big 
transformative projects. They are in the many billions now. 
That is just the reality of today.
    Senator Menendez. I just hope that as we look at this, 
after the vetting goes through and the determination is made of 
what is a project that is worthy of being funded, that we would 
look also at the mechanism of streamlining a process that 
ensures that we can, in essence, make the project a reality in 
a most cost efficient manner. In my mind, the bank can be a 
component of helping that become a reality, as well.
    And finally, if I may, Mr. Chairman, Secretary Krueger, I 
mean, do we look at these investments from an economic paradigm 
that says they yield huge dividends and can be, in fact, part 
of creating a more robust economy for the future, or are we 
just looking at it as some road or highway or sewer system that 
we are dealing----
    Mr. Krueger. Well, I think we look at investment in 
infrastructure now as helping us now and in the future. Our 
competitiveness will be improved in the future if we improve 
our infrastructure now. And given the underemployed resources 
we have currently in the construction sector, a 17-percent 
unemployment rate for construction workers, Roy mentioned that 
their projects are coming in 20 percent below cost from what 
they expected. That is an indication of the unemployed 
resources we have in the sector. This is the right time to 
invest. But we are investing because of the benefits that are 
yielded for the future and how they will help our country in 
the future as well.
    Senator Menendez. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Menendez.
    Gentlemen, thank you for your testimony and also for your 
work. Just two areas I would like to focus on quickly. One, all 
of us, I think, are encouraged by the proposals for the 
creation of some type of infrastructure bank. Based on not just 
alone, but based on the TIGER process, there seems to be a 
focus on new projects, yet we all recognize there is a huge 
deficit in maintenance of existing road systems, sewer 
systems--you name the system, it has to be maintained.
    In my home State of Rhode Island--and we are not unique--27 
percent of our bridges are structurally deficient; 21 percent 
are functionally obsolete. We are closing parts of Route 95--
are we doing or better or worse, Governor? Probably right in 
the middle. We are closing part of 95 now to truck traffic, the 
major north-south route, and we face another serious closure in 
the future of a major section in the middle of Providence, 
which could be devastating not just to the economy of Rhode 
Island but just the whole Northeast economy.
    And so the question really is: How are we going to meet 
these obvious demands with an infrastructure bank? There is a 
suggestion, I think, in some of your comments that, well, when 
we do this, we can sort of focus on new projects and let the 
rest of the budget sort of deal with the maintenance, et 
cetera. But if you could just comment. I know this is not an 
easy yes-no, one-line answer. Some initial thoughts, at least, 
Mr. Secretary, then Mr. Secretary.
    Mr. Kienitz. I am happy to do so. I think that our hope--
and I think this is a widely shared view--is that there has to 
a bread-and-butter program, these underlying formula programs, 
because the needs are so huge. I think one policy initiative 
that is outside the infrastructure bank is making sure that 
that money as necessary is going into these repair situations 
rather than repair needs but still going out and using that to 
build a big new thing. To the degree that that is happening, we 
have actually had some progress recently. In the last dozen 
years or so, road and bridge conditions have actually gotten 
better. It is a huge ship so turning it is slow, but it is kind 
of going in the right direction. And what that has meant, 
really, though, is the starvation of the funds that have 
normally gone into those new things.
    So you are seeing somewhat of a division, but I will say, 
for example, in the TIGER program, the project we funded in 
Rhode Island was a redevelopment building for the future 
project, but in Oklahoma, their highest priority is deficient 
bridges. And so the project we funded in Oklahoma, they came to 
us and said, ``This is our number one priority. Help us with 
deficient bridges.'' And so we funded a program in Oklahoma for 
deficient bridges.
    So to some degree, Phoenix and Las Vegas, they have big new 
visions to accommodate all their new people, and, other States 
are going to have different priorities, and that is OK. And the 
bank needs to respect that. There are huge benefit costs--
benefits that come from rebuilding existing and from building 
new if the projects are designed well.
    So I would not want to go in with a doctrinaire approach to 
that question, but the thing that has been starved in recent 
years has been the ability to do new things. So I think there 
might be more of a focus in the infrastructure bank on that, 
but that would need to be worked out over time.
    Senator Reed. Let me just ask, before I turn to Secretary 
Krueger, you have to think, as you are--how you coordinate 
these two demands consciously. I mean, if we set up an 
infrastructure bank and give them separate directors that are 
approved by the Senate, then they go off doing their great 
things, but there is no device to integrate that with the 
Department of Transportation budget and the meat and potatoes 
of repair. So I do not think you have got an answer yet, but 
certainly that is a topic that you are going to give us an 
answer.
    Mr. Kienitz. I think our hope is that it be as integrated 
as possible so you get that kind of a coordination. But there 
will be many views on that topic.
    Senator Reed. Secretary Krueger, your comments?
    Mr. Krueger. Well, I would just highlight that a lot of the 
economics research confirms what you said, that the return to 
investment in maintaining our existing transportation system 
tends to be very high. Ned Gramlich, a former Governor of the 
Federal Reserve Board--I am sure you knew him--published a 
study where he concluded that maintaining our system of 
infrastructure has a very high rate of return, not just adding 
to it but focusing on maintenance. So I think that confirms the 
point that you were making.
    Senator Reed. Thank you. Just on another topic, a quick 
topic. We tend to talk about roads, bridges, you know, port 
facilities. But the electrical grid is something that is 
vitally important up our way, could open up huge opportunities 
in terms of the alternate energy technologies that we all think 
are the next big thing. That I presume would be a topic of this 
infrastructure bank, too, that you would be looking at that.
    Mr. Kienitz. That is a policy question that I think will be 
a tough one. To the degree that there is some news on this 
front in the President's speech, he is proposing that the 
initial creation of this thing be done through the surface 
reauthorization bill that would move through this Committee and 
Environment and Public Works and the others here in the Senate 
and the Transportation Committee in the House. I think that 
will tend to give it a transportation focus just because of the 
jurisdictional issues there. It could certainly go more broadly 
than that. I am not an expert on the electrical grid. I think 
there will be a fear that the wider you make the need, the more 
money you need to put in, and then how are you raising that 
money. And so that will be the tension.
    But we have not made a specific proposal on that. I think 
our goal is to have it be as broad as it can reasonably be 
given the amount of money we are putting in.
    Senator Reed. Thank you very much, gentlemen, and there are 
no further questioners so there are no further questions. Thank 
you very much.
    Mr. Krueger. Thank you.
    Mr. Kienitz. Thank you, sir.
    Senator Reed. Let me ask the third panel to come forward, 
please.
    Let me introduce our third panel in order of their 
presentations. First, we will hear from the Honorable Edward G. 
Rendell. Governor Rendell is the 45th Governor of Pennsylvania. 
He has been a strong advocate for increased infrastructure 
spending and the need for a National Infrastructure Bank.
    Thank you very much, Governor, for being here today.
    Then we will hear from Mr. Robert Wolf, the Chairman and 
CEO for UBS Americas. He is president of the UBS Investment 
Bank and a member of the UBS Group Executive Board. He is also 
a member of the President's Economic Recovery Advisory Board.
    Thank you very much, Mr. Wolf.
    And then, finally, we will hear from Mr. Donald Shubert, 
president of the Connecticut Construction Industries 
Association, and he was also appointed by Governor Rell to her 
task force on reforming State contracting.
    Thank you and welcome, a neighbor of Rhode Island. Thank 
you very much, sir.
    Governor Rendell, your comments, please.

   STATEMENT OF EDWARD G. RENDELL, GOVERNOR, COMMONWEALTH OF 
      PENNSYLVANIA, AND COCHAIR, BUILDING AMERICA'S FUTURE

    Governor Rendell. Good morning, Mr. Chairman. I am going to 
start actually answering some of the questions you asked of the 
first panel. The problem with sitting there is, you know, you 
are chomping at the bit to answer the questions, and the 
questions were very important. Unfortunately, some of the 
Members who asked them are not here, but let me answer what 
Senator Shelby said.
    First of all, I want you to understand I am here both as 
the Governor of the Commonwealth of Pennsylvania and also 
Cochair of Building America's Future, an organization that I 
had with Governor Schwarzenegger of California and Mayor 
Bloomberg of New York. It is a 501(c)(4) and (3), and we are 
dedicated to revitalizing this country's infrastructure.
    First, I think Senator Shelby is absolutely right. The 
infrastructure bank is a small piece of the infrastructure 
puzzle. It is an important piece of the infrastructure puzzle. 
In many ways, it could be a linchpin to fixing and solving the 
puzzle, but it is a small piece. And we all agree that $50 
billion does not begin to scratch the surface that the 
President has recommended. That has got to be an up-front 
payment on a larger reauthorization of surface transportation 
and other things, like water and wastewater and levees and dams 
and you name it. So that is number one.
    Number two, Senator Shelby can rest at ease that we are not 
trying to create a GSE with the infrastructure bank, and the 
guarantees that will be given by the Federal Government are 
very similar, as Deputy Secretary Kienitz said, to the 
guarantees we give in the TIFIA program or the BABs program or 
anything else that is underway right now. We are not becoming 
the--we are not putting the Federal credit behind all of these 
investments.
    In fact, the bank, because it will leverage private sector 
investments in most cases, I think you will see a higher 
scrutiny on projects because the private sector is interested 
in the rate of return. And for the rate of return to be 
successful, the project has to be successful. So you will not 
only have some level of Government oversight, but you will have 
the investor oversight as well. And I think that will even 
tighten and reduce the risk and also spread the risk out. No 
question about that. Private-public partnerships do, in fact, 
spread the risk out and take a lot of the risk off the 
shoulders of Government.
    Second, Senator Tester was absolutely right--and Senator 
Warner--about a competitive disadvantage. If we do not do 
something about infrastructure in this country, we are cooked 
as an economic power. The ten biggest ports in China take 
three-and-a-half times the throughput of the ten biggest ports 
in the United States. Only two American ports--Los Angeles Long 
Beach and the Port of New York--would rank in the top ten in 
China. Unless we can find a way to competitively move goods and 
get goods in and out, we are not going to get investment, 
domestic or foreign investment, in this country. Goods movement 
is absolutely critical. Economic competitiveness depends on a 
vital and vibrant infrastructure.
    To your question, Senator Reed, the infrastructure bank is 
only a component. There still has to be your basic 
transportation bill. The smaller States, the rural States, are 
going to still get their money through the reauthorization of 
ISTEA. Nothing is going to change to that effect. In fact, by 
taking some of the larger projects out of the normal highway 
trust fund, you may have more money to spend for local and 
regionals. But the real answer to how we are going to maintain, 
the question of maintenance, versus new construction is you 
must--with the next transportation bill, you must totally lift 
the restriction on States tolling previously Federal accredited 
highways. You must lift that restriction. If you want 
maintenance, the only way we are going to maintain I-80 or I-95 
through Pennsylvania or through Rhode Island is if we have the 
right to toll it. That restriction makes no sense. The theory 
is: Why make the taxpayers pay for it twice? Well, when you buy 
a car, you pay for it. But you also pay to maintain it, right? 
Same thing with infrastructure. And the only way, unless you 
are going to come up with a whole lot more money than I think 
you are going to come up with, is you have got to lift that 
restriction. That is the single most important thing we can do 
for maintaining what we have. It is as simple as that.
    I think the infrastructure bank--and BAF does as well--has 
to include more than just transportation. To ignore the needs 
of the electric grid, to ignore the needs of broadband--I 
assume--and I am sorry Senator Tester is not here. But 
broadband reaching some of the rural areas of Montana--I guess 
there is nothing but rural areas in Montana. But to reach those 
rural areas, there has to be broadband buildout, and that has 
to be financed, and it has to be financed through 
accommodation, I think, of private and public investment. So if 
you expand the infrastructure bank beyond transportation, it 
opens up a lot of new avenues that are, I think, very 
attractive to the smaller States and the rural States as well.
    Now, we need this bank for so many different reasons but, 
first of all, because the public wants it. Interestingly, BAF 
has taken a series of polls to find that the public, 
Republicans and Democrats alike, want to invest in 
infrastructure. Two years ago, 81 percent said they would be 
willing to pay 1 percent more in Federal income tax for 
investments in infrastructure, but only if they knew that the 
investments were not going to be distributed through the normal 
political process but would be distributed based on some merit 
cost-based analysis. Public support for infrastructure is 
there. They can see it, they can feel it. They can ride on it. 
It is different than almost any other type of Government 
spending. But they want it to be distributed in a way that 
makes sense.
    Congress can control the performance measures. You put into 
the act setting up an infrastructure bank what the criteria are 
that the bank should make its decisions on. That is where your 
control comes in. And, of course, your oversight. But you can 
control the criteria. You can control the scoring by what you 
do in the act itself. So it is not a question of losing 
political control, but it is a question of gaining the public's 
confidence in these projects.
    Why do we need an infrastructure bank? Well, first and 
foremost, until the stimulus, there have been no real vehicles 
for multi-State, regional, and projects of national 
significance. Let me give you a project that Senator Corker is 
familiar with and Senator Shelby, were he still here, would be 
familiar with, and that is Crescent Corridor. Six States and 
Norfolk Southern combined on what is an incredible home run for 
rail freight, taking from the southern ports going up the 
country to Pennsylvania and winding up in Bethlehem, 
Pennsylvania, a rail system that will add tens of thousands of 
jobs.
    Senator Corker, since you are here, I can tell you with 
much satisfaction that your investment in the TIGER grant will 
create for Tennessee 5,100 jobs, 573 trucks diverted off the 
roads for Tennesseans; in Alabama, 8,600 jobs, 578,000 trucks 
diverted from there.
    I became the lead Governor. Norfolk Southern came to me. I 
convinced my fellow Governors to invest. It is basically a one-
third, one-third, one-third: one-third Federal investment they 
are hoping to get from TIGER, and they got part of that in the 
first round; one-third from the States, all the States ponied 
up and we put up our third; and one-third from NS. It is the 
way we have got to do this. There has got to be private sector 
investment in these things, and the bank is a perfect vehicle 
to do it, because TIGER is going to go away. I assume you are 
not going to reauthorize the stimulus bill. That is just a 
hunch I have. So I think stimulus is going away, and there has 
got to be something to replace it. TIGER has been enormously 
successful.
    There is another project with NS called National Gateway, 
which goes the other way, from the Florida coast all the way 
through Pennsylvania and Ohio. We happen to be involved in both 
projects. It also receives some TIGER funding. There is no 
vehicle for that. If we are going to build a true high-speed 
rail system in this country, you cannot go on giving Florida 
some money for its high-speed rail, California some money for 
its high-speed rail. There has to be coordination, because 
there are all different types of high-speed rail. There is 
Maglev; there is more conventional high-speed rail. Well, if 
part of the national chain does Maglev and the other part does 
conventional, it will not work. If Pennsylvania does Maglev and 
Ohio does conventional, you will have to get on another train. 
It does not work. These projects have to go through some 
vehicle. An infrastructure bank is the vehicle to do it. We can 
leverage private assistance, and there is so much we ought to 
do.
    You heard Deputy Secretary Kienitz say TIFIA is a great 
program. It is a loan program. It has been enormously 
successful. It goes in as sort of the last piece of the money 
when the equity cannot do the entire deal, and it has been very 
successful. But it has got limits on it. We need to enhance the 
TIFIA program dramatically right now. And we do not spend the 
Federal money. We get that money back in loan repayments.
    Private activity bonds, you have got a cap, I think it is 
$15 billion nationally. That is a drop in the bucket. Raise the 
cap significantly or uncap private activity bonds.
    Building America's Bonds, I think the President is right. 
We ought to make it permanent. It has been hugely successful.
    Pennsylvania just did a $1.1 billion infrastructure bond 
that was about 55 percent BAB. We got our lowest interest rate 
in the history of the Commonwealth, 3.1 percent interest, 
saving the citizens of the Commonwealth a tremendous amount of 
money in interest. But all this private investment can be 
funneled through the infrastructure bank.
    Senator Menendez, to your question, if we were starting 
that project over, if we were starting the project over, what a 
good idea, since I assume it is going to be told, your tunnel.
    Senator Menendez. It is a passenger rail tunnel.
    Governor Rendell. Well, you could use the passenger rail 
ticket price and some form of availability payments from the 
State and Federal Government and get a private company to come 
in, private investors to come in, up-front the money, and they 
get repaid by the fare price and by the availability payments 
from the Federal and State governments over the course of time. 
But we do not up-front it. We do not take the risk. A private 
company can do that. We have got to do it.
    And, by the way, Congressman Oberstar is a hero to all of 
us who believe in infrastructure. There is a part in his bill 
to reauthorized ISTEA. The Office of Public Benefit, that would 
be very damaging to involving private dollars in 
infrastructure. We are going to take a hard look at that and 
either get rid of it or frame it in a different way.
    So there is so much that we need to do, and we need to do 
it. I know there are always questions about deficit spending 
and can we afford to do this. Gentlemen, we cannot afford not 
to do it. Unless we want to consign ourselves, as Senator 
Menendez says, and as Senator Tester said, and Senator Warner, 
to being a second- or third-rate economic power, we have got to 
invest. And there is a difference between investing and 
spending.
    Let me close, because we have some great businessmen on 
this panel, by saying there is not a business in America that 
has grown successful without investing in its own future. Most 
of the time that has been prudent borrowing, sometimes from 
capital reserves, but investing in its own future. We have to 
find a way to do that.
    There is so much that we would love to talk to you about in 
BAF. I think we need a Federal capital budget as a means for 
investing in infrastructure. But regardless of what route you 
choose, we better start investing in our infrastructure, our 
dams, our levees. You know, New Orleans, to repair the levees 
in New Orleans would have cost $700 million. You are winding up 
spending $14.8 billion of Federal money. Good idea not to 
invest that $700 million? I do not think so. It is a 20:1 ratio 
that you have lost Federal dollars by not investing at the 
right time. And infrastructure spending is like that old Fram 
oil filter commercial, remember? A greasy mechanic holds up a 
Fram oil filter and says, ``You can pay me now, $17.28.'' He 
points to a wrecked car, and the screen flashes $4,326. ``Or 
you can pay me later.''
    Let us pay it now. Let us do it right. Let us invest in 
infrastructure. Let us create--Senator Kerry is a great man, 
but he is wrong. If we did a 10-year infrastructure 
revitalization program, that would revitalize this Nation's 
economy and American manufacturing. There is no excuse not to 
do it. The infrastructure bank is an important component. You 
can control it by what you put into the bill. You are not going 
to lose control. You are going to decide what the performance 
measures are. You are going to decide what the make-up of the 
board is. You are going to decide about congressional 
oversight. Let us not let these small problems stand in the way 
of a great opportunity.
    Senator Reed. Thank you, Governor, very much. Thank you.
    Mr. Wolf, please.

STATEMENT OF ROBERT WOLF, CHAIRMAN AND CHIEF EXECUTIVE OFFICER, 
                          UBS AMERICAS

    Mr. Wolf. Good morning, Chairman Reed, and distinguished 
Members----
    Senator Reed. Could you put your microphone on, please?
    Mr. Wolf. Oh, I am sorry. Good morning, Chairman Reed and 
distinguished Members of the Committee. I am grateful for the 
opportunity to offer testimony in support of a National 
Infrastructure Bank. My name is Robert Wolf, and I am chairman 
and CEO of UBS Americas and president of the global Investment 
Bank.
    I have worked in the financial services industry since 
receiving my undergraduate degree in economics from Wharton in 
1984. My career has focused predominantly on fixed income at 
two firms--Salomon Brothers and UBS.
    As a member of the President's Economic Recovery Advisory 
Board, I have worked with fellow Board members to develop a 
considered approach to creating a National Infrastructure Bank. 
Today, I am here to share my own views, as a 26-year veteran of 
the markets, on why I believe a National Infrastructure Bank is 
in our Nation's best interest.
    Let me say at the outset that creating a National 
Infrastructure Bank at this time makes sense for two main 
reasons:
    One, it will attract private investments to help fund badly 
needed infrastructure improvements critical to America's 
competitiveness and economic growth.
    The NIB would vet projects carefully, lend to fund the 
highest priority projects and help attract private sector 
capital to augment Government funding. Preqin, a private equity 
industry consultant, estimates that there is over $180 billion 
dollars of private equity and pension fund capital focused on 
infrastructure equity investments. This capital can play an 
important role in bridging State and local budget gaps.
    And, two, it will create jobs.
    The U.S. Department of Transportation and the Milken 
Institute both estimate $1 billion of Federal and State 
spending on transportation infrastructure creates 25,000-plus 
jobs. Many of these jobs are in the construction industry and 
related sectors that have sustained the largest losses in the 
economic downturn. Our hope is that new jobs will be created in 
the building industry as well as for engineers, architects, 
urban planners, scientists, and industrial production 
businesses.
    To achieve these goals, it is crucial that an NIB be 
chartered with a clear and achievable mission and strict 
operational guidelines.
    The NIB should be:
    One, policy driven. It should be a vehicle for attracting 
public and private funding to projects of considerable merit 
that will modernize our Nation's infrastructure.
    Two, loan focused. It should focus on making loans that 
will generate returns, which means funding primarily projects 
with user fees or dedicated revenue sources.
    And, three, it must be merit based. It is crucial that the 
NIB allocate its funds on the basis of a rigorous cost/benefit 
analysis conducted by experienced industry experts and be 
focused on those projects that will deliver the most value for 
its dollars. This process must be totally transparent.
    The NIB should not be:
    One, a project equity investor. Consistent with the focus 
on lending, the NIB should primarily offer loans and loan 
guarantees at the project level, not project equity capital.
    Nor should it be a substitute for existing infrastructure 
funding programs. Rather, the NIB should complement successful 
programs like the TIFIA loans, private activity bonds, Build 
America Bonds, and municipal bonds.
    Nor should it be solely focused on transportation. Instead, 
it should make funds available for projects of regional or 
national significance in other qualified sectors such as 
energy, broadband, water, and sewerage.
    Finally, in order to achieve this mission, the NIB must be 
properly structured.
    In my view, the NIB should be established as wholly owned 
Government corporation, allowing it to serve a broad range of 
infrastructure sectors, such as transportation, energy, and 
water. The NIB decision makers must have the independence to 
make loan decisions based on project merit. And it should be 
capitalized with equity capital that comes solely from the U.S. 
Government via the Treasury.
    In closing, creating a National Infrastructure Bank is an 
idea whose time has come. I do not think anyone disputes that 
our country's infrastructure needs are extraordinary. The NIB 
would mobilize the capital markets to fund new projects, 
leading to sustainable economic growth and create jobs.
    Again, Chairman, thank you for providing me with this 
opportunity to appear before the Committee today. Thank you.
    Senator Reed. Thank you, Mr. Wolf.
    Mr. Shubert, please.

      STATEMENT OF DONALD SHUBERT, PRESIDENT, CONNECTICUT 
           CONSTRUCTION INDUSTRIES ASSOCIATION, INC.

    Mr. Shubert. Good morning, Mr. Chairman Dodd, Members of 
the Committee. Thank you for this opportunity to testify today.
    Mr. Chairman, I commend you and the Members of the 
Committee for convening today's hearing on how infrastructure 
investments can help generate American jobs and strengthen the 
economy.
    Congress identified infrastructure investments as an agent 
for economic change during the debate over the American 
Recovery and Reinvestment Act. During those discussions it was 
widely endorsed that infrastructure investments create well-
paying jobs for skilled workers. Through my organization, CCIA, 
we work closely with the basic building trades. We know that 
there is a skilled workforce in our industry that could be a 
powerful economic engine that is sitting idle.
    Nationally, the unemployment rate in our industry is 17 
percent. Since 2006, 2.1 million construction jobs have been 
lost. Just to put this into perspective, almost one-third of 
all jobs lost in the U.S. during the 2007 to 2009 recession 
were construction jobs. The Recovery Act put many people to 
work; however, there are many more workers ready to go who are 
standing idle.
    It was also widely endorsed that infrastructure investments 
drive long-term economic growth. We know that the business 
community relies on an efficient and safe infrastructure 
system. Chambers of Commerce constantly tell us that mobility 
increases competitiveness; however, congestion disrupts the 
supply chain, increases the cost of doing business, and 
threatens the ability to attract and retain employees.
    Our Nation has tremendous infrastructure needs in all modes 
of transportation, and significant funding is needed to meet 
those needs. We must rebuild and maintain our current 
infrastructure in a state of good repair and add capacity 
across all modes of transportation to improve mobility and 
address growing congestion. My statement provides details on 
those needs and the costs to address them.
    The Recovery Act is playing a major role in meeting the 
Nation's infrastructure challenges. From an industry 
perspective, the Recovery Act stabilized what may have been a 
devastating construction season. With little work available in 
other sectors of the construction industry, it provided a 
lifeline to many large and small construction companies and 
their employees. The most important discussion to have about 
the Recovery Act investments at this point is that those 
investments are coming to an end. If it is allowed to end 
without new funding in place, the construction industry will be 
decimated, our infrastructure will continue to fall into a 
state of good repair, and congestion will mount while State 
transportation departments cut back programs and wait for long-
term stable funding.
    The authorization of a long-range surface transportation 
bill is critical not only to our industry, but to the safety of 
the traveling public and the competitiveness of America's 
business community. To fully fund a reauthorization bill, 
Congress and the Administration need to make tough decisions on 
infrastructure funding. In the near future, Congress will have 
to decide whether to scale back transit and highway 
investments, add to the deficit, or raise new revenues. We are 
willing to work with you and stand by you as these decisions 
are being discussed.
    A National Infrastructure Bank should be part of those 
discussions. An infrastructure bank can provide for 
megaprojects that are not easily supported under existing 
programs, draw outside dollars into the transportation funding 
scheme to fund large projects and preserve more core funding 
for basic needs, and create a competitive process that would 
ensure the best projects are funded.
    Mr. Chairman, we commend the Committee for advancing the 
discussion on a National Infrastructure Bank. I can assure you 
that the construction industry, labor unions, and Chambers of 
Commerce in Connecticut stand ready to help you as these 
discussions go forward.
    Again, thank you for this opportunity, and I would be happy 
to respond to any questions.
    Senator Reed. Thank you very much, gentlemen.
    Let me first recognize Senator Warner, then Senator Corker; 
then if no one arrives, I will conclude. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. I would like to 
thank the panel for their very good comments. I also feel if we 
could only get Governor Rendell a little bit excited about this 
issue, it would be helpful.
    Let me also acknowledge something that I think everybody 
said. This concept of bringing public capital and private 
capital together is critical, and I would add, Governor, that 
the Commonwealth of Pennsylvania has done some extraordinary 
things, but the real leader in public-private partnerships has 
been the Commonwealth of Virginia. We go back a decade-plus on 
some of these initiatives in terms of trying to draw together--
trying to get private sector capital into our infrastructure. 
And Lord knows anybody that has driven in Northern Virginia 
knows we have not solved that problem yet. But it is a tool.
    I have got two questions. The first question is: My sense--
and I think this panel has reflected that the idea of the 
National Infrastructure Bank really means it is one tool 
particularly for some of these larger, more expansive projects. 
And the key here is to get, again, the private sector at the 
table, and I particularly want to thank my friend Mr. Wolf for 
his leadership on this issue for some time, particularly in 
terms of rallying some of his colleagues on Wall Street.
    One of the things I have thought about for some time--and 
this would have some controversy perhaps more on my side of the 
aisle. But as we think about these national infrastructure 
projects of significant importance, if the National 
Infrastructure Bank was to target in on some of these, have you 
all given any thought to the notion that, you know, part of the 
price of, in effect, qualifying for the infrastructure bank to 
participate might be an expedited regulatory process?
    One of the biggest challenges we have for any kind of 
transportation project--as someone who has still got the scars 
of working for 20 years trying to get rail to Dulles--is that 
the regulatory overhaul--the appropriate environmental reviews, 
other process reviews--becomes such an added transaction cost, 
that something that might make sense in terms of the actual 
dollar construction cost gets put into financial uncertainty 
because of the enormous regulatory burden and uncertainty.
    And, Governor Rendell, in your efforts, have you talked 
about any kind of notion that those projects that would qualify 
for an infrastructure bank funding or potential funding, that 
part of the quid pro quo from the localities and States 
involved might be an expedited regulatory review?
    Governor Rendell. In fact, Senator, BAF--that is one of our 
principles on our basic goals for the system--is we can and we 
should do this, and I think the post-bridge collapse in 
Minnesota, it was our hope that that would shock the Nation 
enough to get us really involved in a real comprehensive 
infrastructure program. It didn't do that. But the only benefit 
that came from that tragedy was do you know how long it took 
Minnesota to rebuild its bridge? Nine months. Nine months. Most 
EISes alone for transportation projects take a year, year-and-
a-half. They did it in 9 months.
    We can do things like that. The regulatory process doesn't 
need to take the time that is built in. If we are willing to 
invest the effort, we can slice through that regulatory 
process, save money by doing it, at the same time preserve the 
basic things that the regulatory process was intended to 
protect and do it quickly. And I think that would, and maybe 
Mr. Wolf wants to comment on this, but I think that would 
excite the private sector because it would be a quicker return 
on their investment.
    Senator Warner. Let me just add one thing before I get to 
Mr. Wolf's comment, and let me just echo and agree with you. I 
also agree with your notion about the ability for us to lift 
the restrictions in a reasonable way on Federal interstates. We 
looked at that opportunity, I-81, which goes through your State 
and mine.
    There was recently a conversation a number of Senators had 
with a very senior member of the Administration. We were 
talking about China's move on putting in a major high-speed 
rail link within 3 years and kind of the comment was, well, 
that couldn't happen in America. Whenever we get to the point 
where we say, that couldn't happen in America because of the 
processes we have set up, well, that is a very different 
America than I think either of us grew up in----
    Governor Rendell. No question.
    Senator Warner. ----or want and----
    Governor Rendell. We used to be the ``can do'' country for 
the world.
    Senator Warner. Amen. And listen, we need appropriate 
regulatory oversight, but sometimes this becomes a transaction 
cost that makes otherwise fundable projects not fundable.
    Very quickly for Mr. Wolf, and again, I want to thank 
Robert for your leadership on this issue, you are out there on 
this, but how do we get--clearly, your colleagues have done 
pretty well. I often think that one of the quid pro quos maybe 
of the TARP ought to have been really challenging Wall Street 
to come up with a $2 trillion private sector Infrastructure 
Investment Bank as the payback for the taxpayers rescuing the 
financial system.
    But how do we make sure that we get not only your 
institution, but the best minds on Wall Street really engaged 
in this issue in a way they can make reasonable returns, not 
make perhaps outrageous returns, but reasonable returns to get 
those minds to the table?
    Mr. Wolf. Thank you, Senator. I think, one, it would be 
important to make sure that the model is right, so it would 
have to be a project that is deemed to be having sustainable 
user fees or revenues that theoretically are paid for, so not a 
grant process but based much more on user and revenue driven.
    I think, second, there would have to be a capital market 
structure at the project level. I mean, this is not going to be 
anything like a GSE. This is going to be at the project level. 
It is almost like project finance. And so our view would be 
that the NIB would normally come in, possibly at more like a 
subordinated debt-type level, which they have done in the past. 
You would have senior debt, you would have sub-debt, and then 
you would probably have some mezzanine debt and equity.
    And then, therefore, for the Government, OK, they would be 
able to maximize their dollars by getting private institutions, 
but more importantly, their risk is defined. Now, the best 
thing about doing it at the project finance level is if it goes 
well, great. Everyone is happy, because the returns are based 
on the cash-flow of the user fees and the time to finish. So to 
your point, regulatory would have to be governed because that 
would--you know, if it postponed because of all these different 
hurdles, then that would be a negative.
    On the flip side, let us just say it didn't go well, which 
is not what we would want, but you would restructure the 
financing at the project level, OK. And where you restructure, 
I mean, to be blunt, private equity loses first. And so I can 
give you examples of how we would structure it that would limit 
the Government risk, OK, and make sure that there was no type 
of guarantee on the whole project.
    So at the end of the day, it has to be based on what we 
would say either the appropriate revenues or the right 
availability process.
    Senator Warner. Thank you. Thank you, Mr. Chairman.
    Senator Reed. Senator Corker.
    Senator Corker. Mr. Chairman, thank you, and thanks for 
your courtesy and to each of you for your testimony.
    Governor, we have been on a number of media programs 
together and you always talked in a rational way, so I thank 
you for that. I don't know what you do when I am not around----
    [Laughter.]
    Senator Corker. ----but I certainly have seen you talk in a 
rational way and I thank you for that and have added to a 
constructive debate. And, Mr. Wolf, it is good to see you 
again.
    I am actually here for one reason. I have read the 
testimony and all of that, but I really want to follow up on 
the last comment Mr. Wolf made. I just want to--I don't 
understand exactly how it works, OK, so the mechanics of how 
the whole transaction would work. So I would love it--I don't 
know if it is appropriate for the Governor or Mr. Wolf just to 
walk me through sort of a standard, typical transaction, 
because I think that would be really educational for all 
involved.
    Mr. Wolf. So, great. Thank you. Good to see you, as well.
    Senator Corker. Yes. Thank you.
    Mr. Wolf. So I think I will bifurcate the answer into 
understanding the capitalization and then understanding how a 
funding of a project.
    But from the capitalization perspective, my recommendation 
would be that the NIB would borrow debt and that it would not 
be guaranteed by the Government. It does not have to borrow 
debt, but that would be my recommendation, and the leverage, 
very different than a GSE, would be capped at two, two-and-a-
half times, which is where the European Investment Bank was. So 
there would be a defined leverage.
    Senator Corker. Instead of that, why don't you just walk 
through a deal.
    Mr. Wolf. A deal----
    Senator Corker. Give me a specific deal and just sort of 
walk through it so----
    Mr. Wolf. So let us just say there was a $1 billion project 
for something that had some sort of user fees. There would be 
likely four different types of investors. You would have $200 
million at the State or local level. Then you would have 
billion at the National Infrastructure Bank level. And you 
would probably have somewhere around $350 billion at private 
debt. And then you would have $250 billion at private equity. 
And it would be completely focused on the cash-flow of that 
project, OK----
    Senator Corker. So every deal, if we could have a little 
bit of exchange, each deal that one would look at would need to 
have some type of user-fee generation for it to work.
    Mr. Wolf. Or availability, but predominately user-
feedriven. That would be the preference of this.
    Governor Rendell. So Mr. Wolf is correct. It needs a rate 
of return. But Deputy Secretary Kienitz before you talked here 
talked about Measure R in Los Angeles. Mayor Villaraigosa 
persuaded 64 percent of Los Angeles County residents to vote to 
raise their sales tax by half a cent over a 30-year period. 
They were to generate enough money to do a number of projects, 
but the most important one was to radically expand their light 
rail system.
    I think, and these figures may not be dead on, but I think 
the project itself, that project was like an $18, $20 billion 
project. In the first 10 years, the sales tax will generate 
about 8 of the 18. What they would seek to do is come to the 
Infrastructure Bank and say, this is a little different from 
what Mr. Wolf was saying. They would say, look, a half cent on 
the sales tax for Los Angeles County, you can gauge what that 
return is going to be.
    But we want to get this done in 10 years, not 30. So can 
you loan us, and we are willing to repay you, can you loan us 
the money in the first 10 years of the existence of this 
project so we can finish it in 10 years? You will get your 
money back by the guaranteed rate of return, by the half-penny 
increase in the sales tax. That will be pledged to repay the 
Infrastructure Bank with the loan.
    So it can be conventional things where the private sector 
is involved or it can be where the Government is going to do a 
rate of return. When Mr. Wolf talked about availability 
payments, it is a very important concept. Assume that I wanted 
to do, and I do, but I'm going to run out of time, I want to do 
something called the Schuylkill Valley Metro. That is a high-
speed rail line from Reading, Pennsylvania, all the way through 
the Western suburbs of Philadelphia into the city. It would be, 
I think over time, be a money maker. But there is no way I can 
get a private company to invest if I say you can have all the 
fares and you can have some of the right of ways at the 
stations. It is just too much of a risk.
    But if I said to the private company--maybe Mr. Wolf and I 
can do the deal right here today--if I said, Pennsylvania is 
willing to give you, in addition to all the fares and the 
retail, we are willing to give you X-amount of million dollars 
a year, can you build it--it is a $1.1 billion project--can you 
build it? Well, with that availability payment and the fares, 
he might be able to take that risk.
    So the thing about it, Senator, is it can respond to all 
sorts of needs like this. And again, I know--look, I have been 
in Government all my life and I know there is always a tendency 
to not want to lose control because you think your ideas are 
the good ones, and usually they are. But you can structure 
this----
    Senator Corker. Actually, I think if we lost control of a 
lot of things around here, it would be good, so----
    [Laughter.]
    Governor Rendell. Well, we lost control of the airline 
industry. That didn't work out so well.
    Senator Corker. Yes.
    Governor Rendell. But if we could--I mean, you can put in 
the criteria. You can put in the framework. But the beauty of 
the bank is, it can be responsive to creative solutions. And 
again, what Mr. Wolf said is so important, and I wish Senator 
Shelby was here--I don't know if you heard his opening 
statement or read it. He was worried about this becoming 
another GSE. It isn't. It isn't. And the Government----
    Senator Corker. How does the entity--I know my time is 
over, and probably you have a noon meeting. How does the entity 
borrow money without Federal backing? I don't get that.
    Governor Rendell. It borrows money up to the State and the 
Federal investment, but you do that right now in TIFIA. You put 
in $400 million in a TIFIA loan to a project. That is your 
risk. But $400 million is a very small piece of the project.
    Mr. Wolf. Well, it would be very clear. I mean, our 
creation of a National Infrastructure Bank would be the 
Treasury would put in, say, $25 billion, $5 billion a year for 
5 years, and that would be their equity. And then I would 
propose a slight leverage at maybe two times. That is $75 
billion of funding toward the National Infrastructure Bank, 
which we think can get you $400 billion of project.
    Senator Corker. Yes. You know what would be good? First of 
all, I thank you for the courtesy. I know I am a minute and 57 
over. I think what would be good for me would be just if you 
all could send like three examples on different types of 
projects as to how your standard, typical deal would work.
    And again, I thank each of you for your testimony and for 
coming up here today. It is rare that we are actually, during 
this period of time, focused on something that is substantive, 
so we thank you for giving us a break in that regard.
    Senator Reed. Thank you, Senator Corker.
    Thank you, gentlemen, for your testimony. Governor, I will 
start with you, but a question I want to pose to every member 
of the panel, an important part of this concept is a local 
contribution. You have done a remarkable job in Pennsylvania of 
coming up with local contributions, but there are lots of parts 
of the country where States and cities and municipalities have 
no capacity or very little capacity to match. They have the 
projects. You can show on paper their rate of return is huge. 
But they don't have that kind of match. So it raises a--or they 
are going to borrow from Peter to pay Paul. They will take from 
an existing program and they will wash the money through 
something and, voila, so you lose out on something else.
    So the question really is, when we think about this, how do 
we make sure, one, that there is a real local match, and two, 
we don't sort of borrow from other things that have to be done, 
and essentially it is new money, matching this new money going 
forward. I will start with you, Governor, and then Mr. Wolf, 
and then Mr. Shubert, please.
    Governor Rendell. Well, I think part of the answer to that 
is to get the private sector involved, that heretofore 
basically hasn't been involved in transportation at all. But I 
think the wastewater and water and sewer example, there often 
is private sector involvement, and there, the Government 
guarantees some of the loans at fairly low interest and it 
works.
    But remember, we all have borrowing capacity, and in most 
cases, in most cases, even in this tough recession, our 
borrowing capacity is in fairly good shape. Not everywhere, 
obviously. There are some municipalities who are really up 
against it.
    Take Pennsylvania, for example. I have borrowed a lot of 
money to invest in infrastructure and other projects critical 
for the Commonwealth. To hear some of my citizens talk about 
it, I have borrowed every dime ever borrowed in the history of 
the Commonwealth. Not necessarily true, but we are barely over 
25 percent of our constitutional borrowing authority in 
Pennsylvania. We are at about $11 billion and it is a $40 
billion authority. We are still doing very, very well in terms 
of Wall Street's analysis of our debt capacity.
    There is debt capacity. I mean, the Federal Government is 
so hamstrung by not having your own capital budget. The only 
part of the Federal--DOD, as you know, has a small capital 
budget built in, but it is the only part of the Federal 
Government that has a capital budget. Rhode Island could never 
have done any of the things that it did without a capital 
budget. And my guess is, you match the Federal transportation 
money in Rhode Island by some form of borrowing to come up with 
the State share. That is what we do in Pennsylvania and what 
most States do.
    So I think having a capital budget gives us the ability 
even in difficult times to continue moving forward, and as my 
colleague from the Connecticut building trades said, the 
borrowing gets a great return on investment.
    You know, one of the things that has always rankled me is 
the CBO scores everything up here and they will score a $400 
billion infrastructure program at $400 billion, and yet it is 
easy to demonstrate how in increased individual taxes that 
these workers who are now earning nothing would pay, in 
additional corporate taxes, in the avoidance of unemployment 
compensation, that most of these 70 percent unemployed guys 
are, that $400 billion, my guess is the Federal Treasury would 
get back $100 or $125 billion, and yet it is scored at $400 
billion.
    Senator Reed. Mr. Wolf? Thank you.
    Mr. Wolf. Thank you, Senator. One, the creation of a 
National Infrastructure Bank would be more for the large 
regional and national projects, but to answer the question more 
on local, first, the burden of local governments is just too 
high. They are funding 75 percent of the infrastructure. It is 
just disproportionately too big.
    Governor Rendell. State and local.
    Mr. Wolf. State and local. And then, second, I think that 
you really have to look at the projects that are being put 
forward. They have to be merit based. So it has to be either 
user based, availability based, but it has to have some sort of 
sustainable perspective for a National Infrastructure Bank. If 
you are going to the grant process, my recommendation would be 
to work more with the agencies.
    Senator Reed. Mr. Shubert, from your perspective on the 
ground.
    Mr. Shubert. Thank you, Senator. From our perspective, and 
being from Connecticut, we see large megaprojects. We are to 
the point now in Connecticut where four megaprojects are 
basically devouring our transportation program. And as our 
State starts looking for new revenue sources to start funding 
megaprojects in the future--like Rhode Island, we are in the 
Northeast. We have an old system. It is running over capacity. 
The winter weather, everything affects our system. It is 
falling into disrepair faster than we are addressing it.
    We are going to have a line of these megaprojects into the 
future. If we can fund some of those megaprojects through an 
Infrastructure Bank, that will free up more regular formula 
funding for us to apply toward our basic needs. And also, 
across the country, the same thing would apply. If there is 
more and more use of an Infrastructure Bank, that is taking 
projects out of the core system, which leaves more money in the 
core system overall for all the States.
    Governor Rendell. And, Senator, one other thing. Building 
America Bonds have been a great help to municipal and State 
governments. We couldn't have financed a number of the major 
construction projects we have done in the teeth of the 
recession within BABs and they should be, whether it is at 35 
percent or 28 percent, they should be reauthorized.
    Senator Reed. Well, thank you, Governor, not only for your 
testimony, but for your great leadership in Pennsylvania. And 
Mr. Wolf and Mr. Shubert, thank you for your excellent 
testimony here today.
    My colleagues might have additional questions. You could 
get them. We will send them to you, and please respond in a 
prompt manner for additional questions.
    But thank you again for your insightful testimony and the 
hearing is adjourned. Thank you.
    [Whereupon, at 11:58 a.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]
           PREPARED STATEMENT OF CHAIRMAN CHRISTOPHER J. DODD
    I call the Committee to order. Today, we are here to discuss how 
investing in our public infrastructure can help to strengthen our 
economic recovery and create well-paying jobs for American workers.
    In 1955, President Dwight Eisenhower sent a message to Congress. In 
it, he called on Congress to meet the challenge presented by a national 
economy that was rapidly outgrowing its capacity to transport people 
and goods. The result of that message was a monumental Federal 
investment in our national infrastructure--our Interstate Highway 
System.
    Eisenhower's initiative was broad in scope, and bold in conception. 
It built upon over a century of investments in our railroads, ports, 
water and sewer systems, and other infrastructure. These investments 
helped build the world's strongest economy.
    Now other nations are catching up and focusing a greater share of 
resources on infrastructure investment than the United States. China 
puts 9 percent of its GDP towards infrastructure projects and India 
contributes 5 percent.
    These countries are focused on providing their citizens with fast, 
reliable transit options. They are lowering their reliance on fossil 
fuels.
    They are making investments on the scale that our Nation made early 
in the 20th century--but they are focusing on the needs of a 21st 
century economy.
    We can't settle for second place.
    We need to do better. This includes passing a long-term surface 
transportation bill which will remain the backbone of our 
transportation policy. Only a long-term bill can give our State and 
local governments the certainty they need to ramp up investments in our 
road, transit, and rail infrastructure. While these investments are 
vital to the health of our transportation systems, we also need a new 
approach to infrastructure finance.
    A National Infrastructure Bank will build on our Nation's legacy of 
bold, innovative investments in public infrastructure. It would 
complement our current infrastructure financing programs in a manner 
that delivers taxpayers the best bang for their buck.
    First, an infrastructure bank would create a competitive, merit-
based process to distribute money. Projects would be subject to cost-
benefit analysis to determine their national and regional economic 
impact.
    Second, a well-designed National Infrastructure Bank would leverage 
State, local, and private funds to support these investments. With the 
current system of formula grants, States often simply substitute 
Federal funding for State funding. The Infrastructure Bank's 
competitive selection process can reward those projects that best 
leverage new public or private funding to expand the pie, not just 
rearrange the slices.
    Lastly, it would allow us to shift our focus from the near-term to 
the long-term. This will provide opportunities to fund large projects 
of national and regional significance, projects that require vision and 
patience. Investments like these will fuel our economy and create jobs 
over the long-term.
    With my former colleague Senator Chuck Hagel, I originally proposed 
legislation that would have established such a bank on August 1st, 
2007. Our announcement received little notice or fanfare--until a few 
hours later when the tragic I-35 bridge collapse happened in Minnesota. 
I'd like to applaud President Obama--who cosponsored my 2007 
legislation--for his continued support of this important idea.
    This is our opportunity to embrace the legacy of big-picture 
thinking that led to investments on the scale of the Interstate Highway 
System. By establishing a National Infrastructure Bank, we're affirming 
our commitment to building a prosperous 21st century economy.
    I look forward to today's testimony, and I'd like to turn it over 
to Senator Shelby for his remarks.
                                 ______
                                 
               PREPARED STATEMENT OF SENATOR TIM JOHNSON
    Mr. Chairman, thank you for holding this hearing today regarding 
the need to invest in our Nation's infrastructure. I commend your focus 
on infrastructure as an investment in jobs and our economy. I am also 
pleased that President Obama has focused national attention on 
strengthening our transportation systems and other infrastructure to 
ensure long-term economic growth and competitiveness.
    This hearing examines an important topic. Throughout my 
congressional career, I have worked to improve South Dakota's highways 
and transit systems, water systems and stock of affordable housing. 
Infrastructure investments are needed across the State--in Indian 
Country, in our rural areas, and in our cities--and those investments 
are in the national interest.
    Mr. Chairman, in the 110th Congress you introduced legislation to 
address infrastructure concerns in housing, water, and transportation. 
This Committee held a hearing on the legislation in March of 2008.
    I'd like to reiterate an issue I raised in my statement at that 
hearing. Specifically, I want to ensure that we take rural as well as 
urban concerns into account in examining investment needs and 
developing any response. For example, in my State we have important 
needs but relatively few projects that would involve a minimum $75 
million Federal commitment, a minimum threshold that has been suggested 
in the past. Also of concern are project criteria that emphasize 
leveraging. In low population density States, the ability to provide 
meaningful financial leverage and to attract outside investors may be 
quite limited. Small numbers of people not doing especially well 
economically are not as well equipped to contribute to projects as 
large numbers of workers in large metro areas. This is especially a 
concern in Indian Country and in other poor rural areas. The citizens 
in these less populated States still have important needs in housing, 
in water systems, in transportation that should be of concern to this 
Committee.
    So, as we examine the issues of infrastructure needs and possible 
responses, I hope that any solutions we develop would provide 
meaningful opportunities for investment in States like South Dakota, as 
well as in more populous areas of the country.
    Mr. Chairman, thanks for your efforts on this issue. I look forward 
to working with you.
                                 ______
                                 
                PREPARED STATEMENT OF SENATOR MIKE CRAPO
    Mr. Chairman, today the Committee hears testimony on infrastructure 
investment needs and possible responses, including a possible 
infrastructure bank.
    In my time in public service I have worked consistently to support 
needed highway, transit, and other improvements to infrastructure in 
Idaho and I agree that infrastructure deserves the attention of the 
Committee. From my work in this area, I can assure my colleagues that 
the infrastructure investment needs our Nation faces include needs in a 
relatively rural State like Idaho as well as in large metropolitan 
areas.
    So, as we hear testimony and consider possible approaches to this 
issue, I will be interested in learning how we can ensure that any 
proposed solutions that we develop would be responsive to needs in a 
State like mine as well as to other needs.
    For example, in infrastructure bank legislation that was introduced 
in 2007 there was a Federal project amount minimum of $75 million. That 
might not seem high in big States and cities but it is an amount that 
looms as a possible barrier to participation for smaller States. Also 
of concern are project criteria that emphasize leveraging and revenue 
streams. With respect to transportation projects, a revenue stream may 
well mean toll roads. Those are not feasible with the traffic levels 
prevalent in lower population density States.
    So, as we consider infrastructure issues, we need to keep in mind 
the concerns and needs of rural States as well as those of large 
metropolitan areas.
    Mr. Chairman, thanks for your interest in this issue. I look 
forward to hearing from the witnesses.
                                 ______
                                 
              PREPARED STATEMENT OF SENATOR JOHN F. KERRY
    Mr. Chairman and Senator Shelby, I wanted to thank you for the 
opportunity to testify at this hearing to explore ways to develop a 
National Infrastructure Bank. Rising economic powers around the world 
are investing in their future--we need to do the same before we are 
left behind.
    Chairman Dodd, I also wanted to take this opportunity to thank you 
for your efforts to enact historic financial reform and for your great 
work as Chairman and as a Member of this Committee for the past 30 
years. As a former Member of the Senate Banking Committee, I know your 
efforts have helped to restore confidence in our capital markets and 
our financial institutions and provided critical new protections to 
consumers from financial fraud and abuse.
    Mr. Chairman, I also want to thank you for your leadership in 
bringing attention to the critical need to renew and expand America's 
infrastructure. I believe we must work together in a bipartisan manner 
to find new ways to finance infrastructure projects that create jobs 
and increase our economic competitiveness.
    There are many ideas about how to do this. However, the costs of 
tackling this problem are high and it's clear to me that the best way--
and the most efficient way--is to create an infrastructure bank for the 
United States. Already, a diverse bipartisan group supports the idea of 
a National Infrastructure Bank including the Chamber of Commerce, the 
AFL-CIO, and SEIU.
    We need to create new and strong incentives for investment here in 
the building blocks for economic competitiveness--roads, bridges, rail, 
aviation, and other essential infrastructure.
    This is an idea whose time has not just come but is long overdue. 
And Americans know it. Every day, during their commute to work, they 
drive on broken roads and crumbling bridges. They are paying more to 
fly and spending more time in the air than they should because we have 
failed to invest in modern radar and upgrades to our airports. They 
travel a rail system that is, for the most part, the product of another 
century. And they live in communities that too often are unable to 
properly manage their natural resources.
    How bad is it? Our infrastructure earned a ``D'' rating from The 
American Society of Civil Engineers, who has estimated that it would 
cost more than $2 trillion to bring our country's existing 
infrastructure to an acceptable level. We are talking about staggering 
sums here, and it clearly reflects just how much we have neglected our 
infrastructure--and just how much we need to do in the years ahead. To 
bring that level of investment to market will require a partnership 
with the private sector and the proper delivery of private capital 
catalyzed by public funds and loan guarantees.
    Well-functioning infrastructure is not a luxury--it is the key to 
connecting our people and creating millions of middle-class jobs for 
American workers over the long term. And it is vital to our economic 
future in the face of global competition. Our growth and exports are 
directly tied to how our infrastructure operates. Quite simply, we are 
falling behind many of our main economic competitors, and the further 
we fall behind in this race, the harder it will be to catch up.
    For example, China's 2009 infrastructure spending is estimated at 9 
percent of GDP, or $350 billion, and is growing at an annual rate of 20 
percent. China's highway mileage is expected to surpass the United 
States' in under 3 years.
    Europe's infrastructure bank, the European Investment Bank, 
financed $350 billion in projects from just 2005 to 2009 across the 
European continent, helping modernize seaports, expand airports, build 
rail lines, and reconfigure city centers.
    And Brazil has invested over $240 billion in their infrastructure 
in the past 3 years alone, with an additional $340 billion planned for 
the next 3 years. Brazil has unveiled major initiatives to invest in 
infrastructure ahead of hosting the World Cup and Olympics, using their 
own infrastructure bank as a key tool to finance this massive 
expansion.
    To get back in the game we need more than the existing municipal 
bond market system, which is already struggling to support over 80 
percent of infrastructure investment in the United States. We have to 
do more than our existing Federal Government programs, which have been 
squeezed by the recent economic downturn and budget deficits. 
Fundamentally, what we need is an American infrastructure bank that 
complements our public efforts and acts as a catalyst for significant 
private investment.
    If done right, I believe an infrastructure bank can change the 
playing field. It would finance projects from high-speed rail to air 
and sea ports, all with the expectation of being repaid. It would lend 
directly to economically viable projects of both national and regional 
significance, without political influence. It would be run in an open 
and transparent manner by experienced professionals and have meaningful 
Congressional oversight.
    Americans have always been builders. We built a transcontinental 
railroad. We built an interstate highway system. We went to the Moon. 
But for too long now, we have lacked adequate investments in our 
infrastructure and what building we have done has been without a long-
term strategic plan. A National Infrastructure Bank will change that. A 
National Infrastructure Bank will make Americans builders again.
    In deciding whether to create a National Infrastructure Bank, we 
should also consider this: When President Eisenhower signed the law 
creating the Interstate Highway System; he noted that, ``Together, the 
united forces of our communication and transportation systems are 
dynamic elements in the very name we bear--United States. Without them, 
we would be a mere alliance of many separate parts.'' What was true 
then is still true today.
                                 ______
                                 
                   PREPARED STATEMENT OF ROY KIENITZ
        Under Secretary for Policy, Department of Transportation
                           September 21, 2010
    Chairman Dodd, Ranking Member Shelby, and Members of the Committee, 
thank you for inviting me to appear before you today to discuss how 
investing in transportation infrastructure can create jobs and grow the 
economy.
    It's particularly appropriate that the Committee has titled the 
hearing ``Creating Jobs and Growing the Economy,'' because 
transportation infrastructure investment has both effects, and the two 
effects are closely related but separate. Infrastructure investment 
creates jobs by creating work opportunities in construction and related 
industries. These jobs are temporary--lasting from less than a year for 
simple projects to several years for complex projects. After the 
project is complete, it creates--if it is well-designed and well-
chosen--decreases in cost and increases in productivity that will spark 
economic growth. Our goal at the Department of Transportation is to 
make sure that both objectives--the short-term goal of creating jobs 
and the long-term goal of growing the economy--are achieved in our 
infrastructure investments.
The President's Infrastructure Investment Proposal
    Two weeks ago, the President laid out a bold vision for renewing 
and expanding our transportation infrastructure--in a plan that 
combines a long-term vision for the future with new investments today. 
It is time to authorize a new 6-year program for transportation 
infrastructure investment, and the President has called for a 6-year 
authorization that would help restore job growth and economic 
prosperity today while reducing our long-term infrastructure deficit. 
To accomplish this, the program will need a robust level of funding, 
higher than our current baseline, and, with the current state of the 
economy in mind, the Administration proposes that $50 billion--a 
significant share of the new investments--be frontloaded in the first 
year.
    Some of the tangible accomplishments of the President's plan over 
the next 6 years will include rebuilding 150,000 miles of roads; 
constructing and maintaining 4,000 miles of rail; and rehabilitating or 
reconstructing 150 miles of runway.
    More generally, our new surface transportation program needs to be 
part of a long-term framework that reforms the infrastructure 
investment process and expands our levels of investment so that we can 
build a truly world-class transportation system. We need to streamline, 
modernize, and prioritize our transportation investments, consolidate 
our dozens of programs into a coherent program structure that reflects 
national needs, and foster a culture of competition and performance 
that will drive investments that will produce better transportation 
outcomes and more livable communities for the American people.
    This program must have a number of key elements. We need to 
continue the commitment by the President and the Congress to expand our 
high-speed rail program. As the Secretary has traveled around the 
country meeting with people in outreach sessions on our surface 
transportation program, a recurring theme is that people want high-
speed rail. They don't want to have to wait in crowded airports or 
drive for hours on congested highways to get where they want to go. 
They want another choice. They want high-speed passenger rail.
    We need to make achieving a state of good repair in our 
transportation infrastructure a national priority. Our highways, our 
bridges, our transit systems, our waterways, our ports, and our 
railroads have in some cases been allowed to deteriorate to the point 
that they are not safe, are not reliable, and don't provide an adequate 
level of performance for the American people. As we repair and 
rehabilitate our infrastructure, we can build in new safety features 
and new technology that will improve our transportation system's 
performance, so that, in every mode, we have a truly 21st Century 
transportation system.
    We need to make livable communities a central part of our 
transportation program. That means we need to invest in better 
transit--in both urban and rural communities--to give people the 
transportation choices they want. We need to give people the option of 
walking or bicycling on short trips without putting their lives at risk 
by walking or bicycling in the street. We need to give people more 
fuel-efficient options to get where they want to go, and allow people 
easier access to jobs and housing.
    We also need to take advantage of the technological breakthroughs 
of the past 20 years in Intelligent Transportation Systems. Advanced 
technology can multiply the effectiveness of our investments, so that 
we get more safety, more congestion relief, and more performance from 
each dollar of our investments than we could with conventional 
technology. We have spent billions of dollars on developing new 
technology; now we need to deploy it to reap the returns on our 
research and development investment.
    The reauthorization proposal needs to address our key priorities, 
and that means that it needs an appropriate division of responsibility 
between the Federal Government, States, and local governments. Each 
State and metropolitan area has transportation needs, and Federal 
assistance should help them meet those needs and grow their economies 
while also addressing national priorities. While formula programs can 
provide basic financial support to States and localities to maintain 
and expand their transportation infrastructure, there are some national 
goals that the Federal Government is uniquely suited to address. The 
Federal Government should address critical freight transportation 
problems that affect our national economic competitiveness and the 
prosperity of communities all across the country. The Federal 
Government should focus on the nationwide environmental sustainability 
challenges that affect the environmental quality of the world that we 
pass on to our children and grandchildren. Competitive Federal programs 
would allow the Federal Government to direct funds toward projects that 
can have the best regional and national impacts on our economy, our 
environment, and our other critical national goals. For too long, these 
critical national needs have been falling through the cracks of our 
stovepiped transportation programs. We need a truly national 
transportation program to address national needs.
    Moreover, competitive programs can promote an environment where 
projects competing with one another for support are forced to 
demonstrate how they can be more effective in advancing our performance 
measures and strategic goals. As projects that are most cost-effective, 
most innovative, and based on the best analysis show that they can win 
additional financial support, the entire culture of transportation 
infrastructure investment is pushed toward a more data-driven, outcome-
oriented framework.
    The Secretary has proposed five national transportation goals as 
part of the Department's Strategic Plan--Economic Competitiveness, 
Safety, State of Good Repair, Livability, and Environmental 
Sustainability. If we want to achieve these goals, we need to be able 
to direct our transportation funds toward whichever mode of 
transportation--or combination of modes of transportation--can most 
effectively achieve those goals. So we need to step away from the 
traditional stovepiped approach to transportation funding. An 
Infrastructure Bank provides an important opportunity to compete 
projects in a way that breaks away from these stovepipes.
    Finally, we need to make sure that the process of deciding which 
projects to invest in is based on the best analysis possible. If we 
want to use transportation infrastructure to grow the economy, we need 
to use economic analysis to find out which projects will have the 
greatest impact on economic growth. In order to achieve and maintain a 
state of good repair for the Nation's transportation infrastructure, we 
need to use asset management systems to develop a complete inventory of 
our transportation assets and analyze what stream of maintenance, 
repairs, and rehabilitation will maintain a state of good repair over 
the life-cycle of the infrastructure at the lowest possible cost. If we 
have specific goals that we are trying to achieve, we need to use 
economic analysis to determine which projects will achieve those goals 
in the most cost-effective way possible.
    The surface transportation program also needs to take advantage of 
all the financing options available to us. Some parts of the 
transportation system can generate a revenue stream that can pay for 
the project without tax revenues. For these projects, the Government 
may need to advance the money up-front, at least in part, but then the 
taxpayer can be paid back from the revenue stream that the project 
generates.
    So we need a financing institution that can provide a range of 
financing options--grants for projects that by their nature cannot 
generate revenue, and loans and loan guarantees for projects that can 
pay for their construction costs (or part of their construction costs) 
out of a revenue stream. In short, we need the Infrastructure Bank that 
the President has proposed.
    The Infrastructure Bank can be designed to embody all of the key 
elements I have described. It can avoid the excessive stovepiping of 
funds into narrow categorical programs. It can be focused on directing 
its investments toward achieving the strategic goals that the Congress 
designates. It can be provided with a professional staff that can focus 
its attention on meeting national and regional transportation needs. It 
can have a broad modal scope, so that it can invest funds in whichever 
mode of transportation--land, water, or air--is most suited to 
achieving our strategic goals. It can apply the tools of economic 
analysis to select projects that can be demonstrated to have the 
greatest possible impact on those goals. It can foster an environment 
of competition and innovation that will encourage the best projects to 
be funded. And it can offer the combination of financing options--
grants, loans, and loan guarantees--that will allow it to leverage 
public funds and get the best results from our limited budgetary 
resources.
    We recognize that these proposals represent a major change in how 
we have envisioned our transportation program in the past. But we 
pledge to work with the Congress to design this program and to figure 
out the best way to pay for it.
Creating Jobs
    The President's new plan will build on what we have already 
accomplished in the American Recovery and Reinvestment Act. That Act 
embodies these twin goals in its title--short-term job opportunities to 
achieve recovery, and long-term economic growth based on reinvestment.
    We are making good progress on using our Recovery Act investments 
to create jobs. As you know, the measurement of the jobs created under 
the Recovery Act is subject to two different sections of the Act, each 
of which calls for a slightly different measure of the number of jobs 
created. Section 1201 of the Act (which applies only to the Department 
of Transportation) calls for DOT to measure the number of ``job-years'' 
created by the Act. A ``job-year'' is one person working for one year. 
So if a project keeps 100 people working for 2 years, it creates 200 
job-years. Section 1512 of the Act is less clear--it asks us simply to 
measure the number of ``jobs.'' This has been interpreted as meaning 
the number of full-time-equivalent jobs that have been created by the 
Act. Returning to our example, if 100 people are employed for 2 years 
on a project, then the full-time-equivalent number of jobs is 100. So 
it is easy to see that the varying statutory language in the two 
sections of the Act can result in two different measures of the number 
of jobs created.
    But the important point is that jobs have been created, by either 
measure. Our measure of the number of job-years created has risen 
steadily as more projects have been started and completed. In our first 
report on job-years created, as of April 30, 2009, the program had just 
started, and only a few projects had broken ground. We recorded only 
130 job-years. In our second report, as of July 31, 2009, we had begun 
to make a real impact, with 15,000 job-years created. In our third 
report, as of January 31 of this year, we were up to 95,000 job-years. 
As of September 10, we estimate that we had created over 208,000 job-
years.
    The number of full-time-equivalent (FTE) jobs, by contrast, is 
higher during the peak construction season in the summer, and then 
falls during the off-peak period in the winter. Unlike job-years, FTE 
jobs can't be added from one time period to another--they are a 
snapshot of the number of people working the equivalent of full-time at 
any one point in time. So our first report, for the period through 
September 30, 2009, showed an average of 46,000 people employed full-
time between when the Act was signed on February 17th and the end of 
September. In our second report, for the period through December 31, 
2009, FTE employment had fallen to 40,000 employees, because projects 
were shutting down for the winter. The numbers for the first quarter of 
2010 showed an even lower estimate, 34,000 employees, because two of 
these three months were winter months. The most recent estimate, for 
the second quarter of 2010, showed FTE jobs bouncing back up to 62,000 
as spring and early summer weather made it possible for construction 
projects to get started again, especially in the northern States. 
Moreover, in creating jobs we are also creating skills. These jobs 
provide on-the-job training for our construction workforce that will 
make it easier for them to find good-paying jobs in the future.
    While we have created thousands of jobs already, additional 
opportunities remain. Almost all of the funds appropriated to DOT under 
the Recovery Act have been committed to specific projects, but much of 
the project funding will continue to be spent over the coming year, 
creating hundreds of thousands of new jobs. Some States emphasized the 
``Recovery'' part of the Act, and spent their money quickly on projects 
that could be started and completed in a few months. Other States 
emphasized the ``Reinvestment'' part of the Act, and chose to spend 
their funds on more complex projects that could create greater long-
term improvements to their economies, but which took longer to plan and 
execute. These projects will not be completed until next year, and they 
will continue to create jobs through 2011. We knew when the Recovery 
Act was designed that this would be a long recession. The Recovery Act 
will continue to create jobs in 2011 and 2012 and continue to help the 
economy to recover. We estimate that the DOT portion of the Recovery 
Act will create 523,000 job-years, so we have plenty of jobs left to 
create in 2011 and 2012.
Growing the Economy
    Infrastructure investment doesn't just create jobs--it grows the 
economy over the long term. There is an extensive economic literature 
that bears out this observation. Let me give you a few examples.
    First, if you look back in history, the effect of our 
transportation investments on growing the economy is undeniable. In the 
19th Century, investments in canals and railroads opened up the 
agricultural lands of the Midwest and allowed the productive bounty of 
that land to be shipped to markets in the East and abroad. In the 20th 
Century, the construction of the Interstate Highway System and our 
network of hub airports made possible convenient, long-distance 
automobile transportation and high-speed, long-distance air passenger 
transportation. The taming of the Mississippi River system with locks 
and dams made possible low-cost barge transportation of Midwest grain 
to export ports. More than 200 years ago, Adam Smith grasped the 
essential role of transportation in the economy when he observed that

        The greatest improvements in the productive powers of labor . . 
        . seem to have been the effects of the division of labor, [and] 
        the division of labor is limited by the extent of the market.

    He then went on to explain how transportation improvements in 18th 
century Britain expanded the extent of the market and allowed the 
British economy to grow.
    Second, the Department has sponsored research that quantifies the 
impact of transportation investments on the growth of the economy. In a 
series of studies conducted by Ishaq Nadiri and Theofanis Mamuneas, our 
research has estimated that our expenditures on transportation 
infrastructure have had a huge payoff on economic productivity. \1\ On 
the average, from 1949 to 2000, investments in transportation 
infrastructure had a 31 percent rate of return. This rate was 
particularly high when we were first building the interstate highway 
network, when we had rates of return as high as 48 percent. But even 
more recently, in the 1990s and 2000s, we have had rates of return of 
6-16 percent.
---------------------------------------------------------------------------
     \1\ The most recent of these is Theofanis P. Mamuneas, 
``Contribution of Highway Investment to National Economic Growth'' 
(Federal Highway Administration, July 2008).
---------------------------------------------------------------------------
    Third, in urban areas, improvements in transportation 
infrastructure have impressive economic effects. Studies by Glen 
Weisbrod and his colleagues in the Chicago and Philadelphia 
metropolitan areas showed that investments in transportation 
infrastructure that reduced travel times by as little as 10 percent 
would reduce business operating costs in Chicago by $980 million and in 
Philadelphia by $240 million each year. \2\
---------------------------------------------------------------------------
     \2\ Glen Weisbrod, Donald Vary, and George Treyz, ``Economic 
Implications of Congestion'', National Cooperative Highway Research 
Program Report #463 (Transportation Research Board, 2001).
---------------------------------------------------------------------------
    Fourth, more recent research by Daniel Graham of Imperial College, 
London, has shown that, in urban areas, ``agglomeration effects'' of 
reducing the costs of travel and freight transportation increase 
productivity. \3\ Businesses are more productive when it is easy for 
them to ship goods to one another and to travel to one another's 
offices and facilities. Even after taking into account the time savings 
for freight and passenger transportation from transportation 
investments, there is a further 25-percent increase in productivity 
resulting from these agglomeration effects.
---------------------------------------------------------------------------
     \3\ Donald J. Graham, ``Agglomeration, Productivity, and 
Transportation Investment'', Journal of Transport Economics and Policy, 
v. 41, pt 3 (September 2007), pp. 317-343.
---------------------------------------------------------------------------
    We have seen these effects in the transportation projects we have 
reviewed as part of our TIGER Grants program. When the Congress 
authorized the TIGER Grant program last year, and we issued guidance to 
applicants, we wanted to make sure that we could choose the best 
projects possible. To achieve this, we required applicants, at least 
for the larger projects, to do a careful analysis of the benefits and 
costs of their proposed projects. We then organized a team of 
economists from within the Department to review those analyses and make 
sure that their estimates were valid. The results gave us confidence 
that the projects we were selecting were truly the best projects 
available.
    We repeatedly found projects that had measurable benefits well in 
excess of their costs. For example, the Priority Bus Transit project 
for Washington, DC, had benefits as much as six times its costs. The 
Kansas City Transit Corridors project had benefits equal to at least 
twice its costs. Several other projects were in the same range. We can 
invest in these projects confident that we are getting our money's 
worth.
    We want to emphasize that growing the economy is not the only 
factor that influences our choices of transportation projects. Not all 
of the benefits of transportation projects can be translated into 
dollars and cents. Many of the elements that make our urban areas more 
livable--sidewalks and trees and multiple transportation options--are 
difficult to assign dollar values to. And we take these kinds of 
benefits seriously, too. But we also pay attention to the effects of 
transportation on increasing the number of dollars in our pockets--
dollars that enhance our economic security and our sense of well-being.
    It's plainly apparent that the Nation's economy is not producing 
the prosperity that we all expect. There are, of course, many reasons 
for that, including defects in our financial markets and excessive 
financial leverage that many consumers were encouraged to engage in 
during recent years. But clearly one contributing factor is that we 
have not allocated the Nation's public investment well. We have not 
invested enough in the public infrastructure that generates 
demonstrable returns in increased productivity, while we have invested 
too much in projects whose value was supported more by speculative 
expectations than by demonstrable contributions to productivity. It's 
time to refocus our investment priorities toward projects of enduring 
value--projects that make a solid contribution to our Nation's economic 
well-being. The Department of Transportation stands ready to play its 
part in that effort.
    Thank you, Mr. Chairman, for this opportunity to appear before you. 
I would be happy to respond to any questions that you have.
                                 ______
                                 
                 PREPARED STATEMENT OF ALAN B. KRUEGER
Assistant Secretary for Economic Policy and Chief Economist, Department 
                            of the Treasury
                           September 21, 2010
Introduction
    Thank you Chairman Dodd, Ranking Member Shelby, and distinguished 
Members of the Committee for inviting me to testify before your 
Committee today. I appreciate the opportunity to discuss proposals to 
improve our Nation's infrastructure investment and finance system.
    Infrastructure is an essential part of the U.S. economy. Publicly 
owned transportation infrastructure--including the roads, rail lines 
and airports that businesses use to transport and deliver goods, and 
that people use to commute to work, visit their families and travel the 
country--makes up nearly 13 percent of our total nonresidential capital 
stock according to the Bureau of Economic Analysis. In addition, 
spending on public infrastructure is a significant part of Government 
activity. According to the Congressional Budget Office, public 
investment in transportation infrastructure in 2006 was approximately 
$140 billion (6.4 percent of total Government spending), which was 
split roughly equally between the Federal Government and State and 
local governments.
    The President has announced a bold plan to renew and expand 
America's transportation infrastructure through an up-front investment 
connected to a 6-year reauthorization of the surface transportation 
program. Under Secretary Kienitz is providing an overview of that plan.
    In my testimony, I will discuss several aspects of the President's 
infrastructure proposals. First, I will evaluate why, from an 
economist's perspective, focusing on infrastructure investment makes 
sense, especially in the current economic environment. Second, I will 
discuss some of the long-term benefits from increasing our investment 
in infrastructure. I will then turn to the core ideas behind the 
Administration's proposed National Infrastructure Bank, which were 
heavily influenced by the bipartisan work of Chairman Dodd and a 
distinguished former Member of this Committee, Senator Hagel. Finally, 
I will highlight an innovative financing program, Build America Bonds, 
which has provided an efficient new way to provide Federal support for 
financing State and local government infrastructure investments and 
could be a useful tool for the National Infrastructure Bank.
Infrastructure Investment in the Short-Term
    The recent recession that started in late 2007 had an exceptionally 
large impact on the labor market. The U.S. lost over 8 million jobs 
between December 2007 and December 2009, and the unemployment rate 
currently stands at 9.6 percent. One in five jobs that were lost in the 
2-year period beginning in December 2007 was in the construction 
sector. While there are positive signs of recovery in many sectors of 
the economy, additional steps are needed to ensure that the recovery 
stays on track. In this economic environment, accelerating 
infrastructure investment--building on what we have already 
accomplished in the American Recovery and Reinvestment Act--makes good 
economic sense for several reasons.
    First, infrastructure investment will provide opportunities for 
workers who have been disproportionately affected by this recession. 
Due to the collapse of the real estate market, the contraction of 
employment in the construction industry has been especially acute. 
Since December 2007, the construction industry has lost 25 percent of 
its total payroll jobs. In August 2010, the unemployment rate for 
construction workers stood at 17 percent. This is over three times 
higher than it was 3 years ago. We should move quickly to provide an 
opportunity for construction workers to productively apply their skills 
and experience. Investment in infrastructure is well targeted to that 
goal, and will take advantage of underutilized resources in the 
construction sector.
    Second, a wide range of analysts, including economists at the 
Congressional Budget Office, have found that additional spending on 
infrastructure is among the most effective policy options for raising 
output and employment. \1\ Investment in infrastructure directly 
increases employment because workers are hired to undertake 
construction projects. Additionally, it adds to demand for goods and 
services through purchases of material and equipment and through 
additional spending by the workers who are hired. This in turn further 
increases employment and output throughout the economy.
---------------------------------------------------------------------------
     \1\ Congressional Budget Office, ``Policies for Increasing 
Economic Growth and Employment in the Short Term'', January 2010.
---------------------------------------------------------------------------
    In addition, during recessions it is common for State and local 
governments to cut back on capital projects, such as building schools, 
roads and parks, in order to meet balanced budget requirements. Past 
research has found that expenditures on capital projects are more than 
four times as sensitive to year-to-year fluctuations in State income 
than is State spending in general. \2\ Tax receipts at the State and 
local level contracted for four straight quarters at the beginning of 
this recession and are still below prerecession levels. The American 
Recovery and Reinvestment Act provided crucial support for 
infrastructure during the recession. However, we must do more to ensure 
that investment in infrastructure is not reduced for the wrong reasons, 
as the need for improved and expanded infrastructure is just as great 
during a downturn as it is during a boom.
---------------------------------------------------------------------------
     \2\ See, James R. Hines, Hilary Hoynes, and Alan Krueger, 
``Another Look at Whether a Rising Tide Lifts All Boats'', in The 
Roaring '90s: Can Full Employment Be Sustained?, edited by Alan B. 
Krueger and Robert Solow, Russell Sage and Century Fund, 2001.
---------------------------------------------------------------------------
    Finally, we have long been underinvesting in the Nation's 
infrastructure--and, as I will explain in the next section of my 
testimony, addressing this shortfall with investments we make today 
could help spark growth not only now but also in the long-term. The 
American Society of Civil Engineers (ASCE) estimates that we face a 
$2.2 trillion need for infrastructure investment over the next 5 years. 
We would need to roughly double our current level of investment in 
order to reach the levels they recommend. While that analysis might not 
be an authoritative guide for the most efficient investment of public 
resources, it strongly suggests that additional funding can be put to 
good use. Given the stark difference between their assessment of the 
need for investment and what we are doing, it is not surprising that 
these engineers have given us a ``D'' for our current efforts. It 
doesn't take a professor to know that this grade is unacceptable.
Infrastructure Investment in the Long-Term
    As I just mentioned, investing in infrastructure is not only 
important to our economy now; it also is crucial to the economy's long-
term health. Investment in infrastructure can have a sustained impact 
on aggregate output by improving economic efficiency and productivity. 
There have been several major infrastructure investments throughout 
American history that have allowed goods to be transported more quickly 
and at lower costs, resulting in both lower prices for consumers and 
increased profitability for firms. Examples include the building of the 
national railroad system in the 19th century and the creation of the 
Eisenhower Interstate System in the 1950s and 1960s.
    While economists have debated the magnitude of the productivity 
gains from various infrastructure investments,\3\ \4\ evidence from 
recent research clearly points to a positive and significant effect of 
transportation infrastructure investment on productivity. In a 1999 
paper published in the American Economic Review, John Fernald finds 
that the large infrastructure investments made during the construction 
of the interstate highway system in the 1960s corresponded with a 
significant increase in the productivity of vehicle-intensive 
industries (such as transportation and gas utilities), relative to 
industries that do not depend heavily on vehicles (such as apparel and 
textiles and plastics). \5\ Fernald's findings suggest that, in the 
past, investment in infrastructure led to substantial productivity 
gains, and they point to the potential for further increases in 
productivity through additional, well-targeted investment.
---------------------------------------------------------------------------
     \3\ Munnell, Alicia, ``Policy Watch: Infrastructure Investment and 
Economic Growth'', Journal of Economic Perspectives, Vol. 6, No. 4, 
(Fall 1992), pp. 189-198.
     \4\ Gramlich, Edward, ``Infrastructure Investment: A Review 
Essay'', Journal of Economic Literature, Vol. 32, No. 3 (Sept., 1994), 
pp. 1176-1196.
     \5\ Fernald, John G., ``Roads to Prosperity? Assessing the Link 
Between Public Capital and Productivity'', The American Economic 
Review, Vol. 89, No. 3 (Jun. 1999), pp. 619-638.
---------------------------------------------------------------------------
    In addition to improving productivity, infrastructure is a public 
good that provides lasting benefits to consumers and households. 
Evidence from economics research, including preliminary evidence from a 
randomized experiment involving road paving in Mexico, suggests that 
infrastructure investment can raise housing values, which reflects an 
improvement in living standards.\6\ \7\
---------------------------------------------------------------------------
     \6\ Haughwout, Andrew F., ``Public Infrastructure Investments, 
Productivity, and Welfare in Fixed Geographic Areas'', Journal of 
Public Economics, Vol. 83, No. 3, (Mar. 2002), pp. 405-428.
     \7\ Quintana-Domeque, Climent, and Marco Gonzalez-Navarro, 
``Street Pavement: Results from an Infrastructure Experiment in 
Mexico'', Industrial Relations Section, Princeton University, Working 
Paper No. 556, (Jul. 2010).
---------------------------------------------------------------------------
    Of course, policy should adjust to take advantage of new investment 
opportunities made available by technological progress and we must be 
mindful of the fact that at some point, the economy reaches the point 
of diminishing returns from further investments in a particular area. 
As Fernald observed, ``Building an interstate network might be very 
productive; building a second network may not.''
The Case for a National Infrastructure Bank
    A well designed National Infrastructure Bank could help achieve 
three major policy objectives. It could:

  <bullet>  increase overall investment in infrastructure, and, 
        specifically, attract private capital to coinvest in specific 
        infrastructure projects;

  <bullet>  improve the efficacy of our infrastructure investment by 
        having a merit-based selection process for projects; and

  <bullet>  fill in the gaps in our infrastructure funding system, 
        which currently disadvantages investments in multimodal and 
        multijurisdictional infrastructure projects.

    As I indicated earlier, there is a large gap between our current 
level of investment in infrastructure and the level that outside 
experts assess is needed to maintain our transportation infrastructure. 
We are also investing less than other countries as a percentage of GDP. 
Last week, President Obama noted that our total infrastructure 
investment as a share of GDP is much less than infrastructure 
investment in Europe and China. While we are investing 2 percent of our 
GDP, Europe is investing roughly 5 percent and China is investing 9 
percent.
    One way to address the need for more infrastructure investment is 
to attract more private capital for direct investment in transportation 
infrastructure. There is currently very little direct private 
investment in our Nation's highway and transit systems. The lack of 
private investment in infrastructure is in large part due to the 
current method of funding infrastructure, which lacks effective 
mechanisms to attract and repay direct private investment in specific 
infrastructure projects. It also results because the private benefit 
for investors is less than the benefit for society as a whole, because 
of externalities from infrastructure. The National Infrastructure Bank 
could address these problems by directly funding selected projects 
through a variety of means. The establishment of a National 
Infrastructure Bank would create the conditions for greater private 
sector coinvestment in infrastructure projects.
    Secondly, with a few notable exceptions, Federal funding for 
infrastructure investments is not distributed on the basis of a 
competition between projects on the basis of rigorous economic analysis 
or any cost-benefit comparisons. The current system virtually ensures 
that the distribution of investment in infrastructure is suboptimal 
from the standpoint of raising the productive capacity of the economy.
    To address the lack of merit-based funding, the National 
Infrastructure Bank would develop a framework to analytically examine 
potential infrastructure projects based on cost-benefit analysis, and 
evaluate the distributional impact of both the costs and benefits of 
each project. Of course, not all of the costs and benefits can be 
quantified, but an effort should be made to quantify what can be 
quantified and to take account of any additional benefits and costs to 
society. A rigorous analytic process would result in support for 
projects that yield the greatest returns to society, and would avoid 
investing taxpayer dollars in projects where total costs exceed total 
societal benefits. The National Infrastructure Bank would select 
projects along a sliding scale of support that most effectively 
utilizes the bank's limited resources, targeting the most effective and 
efficient investments.
    I should clearly acknowledge that creating a framework for project 
selection based on cost-benefit analyses of competing infrastructure 
projects is challenging. For example, consider the well publicized cost 
of congestion. The Texas Transportation Institute recently estimated 
that in 2007 some 4.2 billion hours were spent sitting in traffic in 
439 urban areas, which they calculate is equivalent to nearly one full 
work week for the typical American. Valuing the time lost due to being 
stuck in traffic may appear simple at first, if you only think about 
the cost of that time as equal to the lost income (i.e., valued at the 
marginal wage rate). However, not everyone can find a job or wants one, 
so it is not clear that time spent in congestion should be valued at 
the wage rate. The Department of Transportation, in its guidance on 
this matter, recommends a variety of values of time, depending on 
whether the travel takes place as part of paid business travel, local 
commuting travel, or long-distance leisure travel. The value of time in 
freight transportation is even more complex, varying with the value and 
``perishability'' of the cargo that is being transported. Additionally, 
there are costs of commuting beyond lost time. A recent survey by 
Gallup, for example, found that those with long commutes are more 
likely to experience back and neck pain. All of these potential costs 
of congestion--and corresponding benefits of alleviating congestion--
should be factored into any cost-benefit analysis of infrastructure 
alternatives.
    Finally, in addition to the lack of merit-based funding within one 
mode of transportation, coordinating multimodal projects in the current 
system is extremely difficult because each mode of transportation has 
distinct funding sources. Each of these funding sources has different 
requirements, Federal and State matching limits, and other 
restrictions. Complicating matters further, if a multimodal project 
crosses State lines, there could be significant difficulty accessing 
the capital markets for local funding given the difficulty inherent in 
multi-State debt issuances. Because of the current criteria underlying 
infrastructure investments, we have lost sight of the larger rationale 
for national infrastructure investment.
    As a result, there has been an underinvestment in multimodal and 
multijurisdictional infrastructure projects, compared with single modes 
and single jurisdictional projects. A National Infrastructure Bank 
would be tasked with assisting projects that are multimodal and/or 
cross jurisdictional boundaries.
    A corollary to this point is the potential value that can be 
generated from so-called ``network effects.'' Network effects suggest 
that investments in certain areas, such as infrastructure, can lead to 
increasing returns based on the size and interconnectivity of the 
broader network. A classic example is telephones: if only one person 
has a telephone, the value is much less than half as great than if two 
people have telephones. This is particularly important when one 
considers the new types of investments that can be financed by the 
National Infrastructure Bank. Multimodal, multijurisdictional 
investments will improve the connections between our existing 
infrastructure networks, such as better links between our ports and our 
freight rail lines, or connecting our airports and intercity passenger 
rail lines to individual cities' public transit systems.
    As infrastructure investments often have broad benefits for society 
as a whole, it is incorrect to simply assign the benefits of a project 
directly to the area where the infrastructure is built. For example, a 
project that improves the connectivity between a freight rail line and 
a port to allow for quicker, cheaper and more reliable service will be 
a benefit for the producers of goods, who will use the rail line to 
send their goods to the port for export. Those producers may be 
thousands of miles from the actual infrastructure investment, but they 
will enjoy a portion of its benefits.
Innovative Financing
    In addition to improving the targeting of our infrastructure 
investment, we need to consider new ways to finance it. A National 
Infrastructure Bank should be at the forefront of innovative and sound 
ways for financing worthy infrastructure projects. According to the 
Congressional Budget Office, there is little direct private investment 
in our Nation's surface transportation infrastructure system, and this 
is a challenge that the National Infrastructure Bank would be able to 
address. \8\ However, State and local governments often turn to the 
private capital markets to finance infrastructure investment through 
the municipal bond market, a long standing practice which the Federal 
Government subsidizes by allowing tax-exempt bond status.
---------------------------------------------------------------------------
     \8\ Kile, Joseph, ``Issues in Infrastructure Investment'', 
National Tax Association Conference. Congressional Budget Office, 
Philadelphia, 26 Sep. 2008. Address.
---------------------------------------------------------------------------
    I'd like to highlight an innovative financing tool that was 
introduced in the Recovery Act and has helped hundreds of States and 
local governments fund infrastructure projects thus far--Build America 
Bonds, or BABs. BABs are an alternative for issuers who traditionally 
have issued tax exempt bonds, such as State and local governments. A 
Build America Bond is a taxable bond for which Treasury pays a 35 
percent direct subsidy to the issuer in lieu of the traditional 
extension of tax exempt status. (Other Recovery Act bonds, which 
utilize the BABs model, have an even deeper subsidy, such as Recovery 
Zone Facility Bonds.) BABs have enjoyed a very positive reception from 
both issuers and investors. Between the program's launch on April 3, 
2009, and August 31, 2010, over $126 billion of BABs have been issued 
by State and local governments in 49 States and the District of 
Columbia. Last spring, the Department of the Treasury estimated that 
for the $90 billion of Build America Bonds issued through March 31, 
2010, State and local governments will save over $12 billion in present 
value borrowing costs compared with issuing traditional tax-exempt 
bonds. This figure has grown since then.
    Given the success of the program, the Administration has proposed 
to extend the BABs program at a subsidy rate of 28 percent, which we 
estimate would be revenue-neutral for the Federal Government. In 
addition, the Administration has proposed to expand the eligible uses 
of BABs, allowing them to support financing for nonprofits and a wider 
range of municipal borrowing. This is an example of both building off 
the successes of the Recovery Act as well as creating innovative 
financing tools for infrastructure investment. We look forward to 
working with Congress to extend this innovative program. Indeed, the 
value of extending BABs would be even greater if a National 
Infrastructure Bank were in existence to spur public-private 
investments in infrastructure projects.
Conclusion
    To summarize, a strong economic case can be made to increase our 
infrastructure investments and to accelerate those investments to put 
people back to work, to partner more with the private sector in funding 
infrastructure projects, and to take benefits and costs into account in 
allocating infrastructure investments. The creation of a National 
Infrastructure Bank would be a major step toward achieving these goals.
    Mr. Chairman, this concludes my prepared testimony. I thank you for 
your leadership on these issues. I will be pleased to answer any 
questions you or other Members of the Committee may have.
                                 ______
                                 
                PREPARED STATEMENT OF EDWARD G. RENDELL
Governor, Commonwealth of Pennsylvania, and Cochair, Building America's 
                                 Future
                           September 21, 2010
Introduction
    Good morning and thank you Chairman Dodd and Senator Shelby for 
welcoming me to the Senate Banking, Housing, and Urban Affairs 
Committee. Given the President's recent infrastructure investment 
announcements, and the interest from people across America, I am very 
grateful to be here to testify about the need to create a National 
Infrastructure Bank to help finance critical investments in our 
Nation's crumbling infrastructure.
Building America's Future
    I am here both in my capacity as the Governor of Pennsylvania and 
as Cochair of Building America's Future, which I am honored to lead 
along with Governor Arnold Schwarzenegger of California and Mayor Mike 
Bloomberg of New York City. Building America's Future is a growing, 
bipartisan, nonprofit organization of State and local elected officials 
from across the United States who believe that we must reform how we 
pay for infrastructure and that additional resources must be invested 
more wisely.
    Our members include 18 sitting governors, 44 mayors of major 
cities, and 47 other State and local elected officials. They are 
republicans, democrats, and independents each working in their own 
communities to figure out how to repair and rebuild our crumbling 
infrastructure. Given the economic downturn, the decreased budgets in 
States and cities, and the rising unemployment rate, many of us are 
searching for responsible ways to invest more while spurring additional 
job growth.
The Need for Additional Investments in Our Infrastructure
    I am struck by what happens every time there is another 
infrastructure catastrophe in this country. For 24, 48, or 72 hours 
there is a barrage of news videos and articles about those catastrophes 
but when the cameras leave our collective attention is turned to other 
issues while the victims and local leaders are left to contend with the 
aftermath of the disaster.
    Take the recent gas pipeline explosion in San Bruno, California 
that killed at least four people, injured about 50, and destroyed or 
damaged more than 80 homes. Media reports indicate that the pipeline 
was first installed in 1956. As of now, we do not know the cause of 
that horrible explosion since the National Transportation Safety Board 
and the Pipeline and Hazardous Materials Safety Administration continue 
investigating. But we do know that many of our pipelines and 
underground systems, such as our drinking water and waste water 
systems, are old and could fail at any moment.
    The question for all of us here today is whether or not we will act 
in the aftermath of this recent crisis in California or must we wait 
for another catastrophic event to occur before we realize the need to 
move now and make investments to repair and rebuild infrastructure that 
was installed during the Eisenhower Administration?
    I do not want to sound alarmist but I know firsthand that an 
accident of this magnitude--or worse--could happen in many other 
communities whether it is another gas pipeline, a structurally 
deficient bridge, aging dams, or leaking water pipes. Part of the 
reason many people do not think a problem exists is because these 
assets are hidden or underground. It is only after a disaster occurs do 
we pay attention to that infrastructure but by then it is too late.
    Many of you may recall back in March of 2008 when I had to shut 
down I-95 in both directions just north of the Philadelphia central 
business district. An inspector from the Pennsylvania Department of 
Transportation just happened to be in the area during lunch and 
discovered a major crack in one of the main concrete support pillars of 
I-95. We had to shut down the highway for fear that if that concrete 
pillar collapsed several hundred people could have been hurt or killed 
because 190,000 vehicles per day travel over that section of I-95. 
Thank goodness that inspector happened to discover that crack or the 
consequences could have been devastating.
    In the past few years we have seen the I-35W bridge collapse in 
Minneapolis, dams fail in Cedar Rapids, widespread power outages in the 
Northeast and parts of the Midwest, and the levees fail in New Orleans. 
The cost of the search and rescue and clean-up efforts is in the 
billions where had we made the necessary investments we may have been 
able to avoid the costs in dollars and human lives lost. The aftermath 
of Hurricanes Katrina and Rita have already totaled over $15 billion in 
Federal Emergency Management Agency assistance alone according to the 
Department of Homeland Security. Had we invested more in those levees 
perhaps we could have avoided the painful aftermath.
    We should not wait for another disaster to take action and that is 
part of the reason why I am here today to discuss how a National 
Infrastructure Bank can help our Nation.
    Building America's Future has been fighting for additional 
investments in our Nation's roads, bridges, transit systems, dams, 
levees, ports, drinking water and waste water facilities, broadband and 
electricity systems and other infrastructure. We believe that we must 
not only invest more but we must do so more wisely and with a longer-
term vision. We must do more if the United States is to remain 
competitive in a global economy. A first class infrastructure system is 
one way to ensure our success in that effort.
    I would also like to include a letter for the record that is signed 
by many of our fellow Building America's Future governors, mayors, and 
other local elected officials. Whether it is Los Angeles' ``30/10'' 
transit initiative, the construction of high speed rail in Florida or 
California, the public-private Crescent Corridor rail project 
connecting the South and the Northeast, or the need to address our 
crumbling bridges, dams and levees in other parts of the country we 
know that the needs for more investment already exists.
    It is my opinion that you can help address that need by passing 
legislation before this Congress adjourns to establish a National 
Infrastructure Bank.
President Obama's Announcement
    That is why I was extremely encouraged with President Obama's 
recent announcement that he is asking Congress to create a National 
Infrastructure Bank, provide an additional $50 billion on top of 
existing funding levels for transportation infrastructure, and that he 
seeks a reformed, robust transportation bill as quickly as possible. By 
doing these three things we can ensure that America's infrastructure--
our transit systems, highways, bridges, runways, pipelines, water and 
energy systems, and high speed rail network--is of the highest caliber 
for its owners, the American people. We will create millions of jobs 
and boost our economy.
    As I understood the President's announcement he seeks an additional 
$50 billion on top of existing surface transportation funding levels 
and some of that money would go toward capitalizing a National 
Infrastructure Bank for projects of regional and national significance. 
What I think is important about this proposal is that the cost of such 
projects will not be shouldered by the Federal Government alone but 
rather the Bank would seek to establish partnerships with Federal, 
State, and local governments as well as more robust private sector 
involvement. If we do this quickly and properly we can make great 
progress toward repairing and rebuilding our Nation's crumbling 
infrastructure.
    The idea of a National Infrastructure Bank is not new. It is a 
concept that has been around for many years and versions of it have 
been implemented successfully in several States like California and 
South Carolina. And across the pond the European Investment Bank has 
been financing infrastructure projects since 1958.
The Need for a National Infrastructure Bank in the United States
    What is missing at the Federal level is a long-term vision about 
budgeting and planning for large-scale infrastructure projects. We do 
not have a Federal capital budget and because of that investments are 
typically made on an annual basis. We must change that investment 
strategy so that we invest the taxpayers' dollars in the most 
meritorious projects that have the most economic impact.
    Building America's Future believes that the United States must 
create a National Infrastructure Bank so that we can have a single 
entity, staffed by experts, who can work to attract and leverage 
dollars from State and local governments as well as the private sector. 
The Bank will focus on projects of regional and national significance, 
will remove politics from the process, subject all requests to a 
benefit-cost analysis, and set the standard for accountability and 
transparency.
    I recently hosted a forum in Pennsylvania to discuss the future of 
the transportation bill and other infrastructure needs. I was pleased 
that former Governor Jon Corzine, with whom many of you served here in 
the Senate, came to talk about the billions of dollars in private 
investment funds that are waiting to be invested in the United States. 
These investment funds represent a significant opportunity to be 
creative in how we go about repairing and rebuilding our infrastructure 
because they will allow us to leverage the Federal dollars that are 
used to capitalize the bank. If we can marshal this private capital 
then I believe we can make a significant dent in the $2.2 trillion 
funding shortfall that the American Society of Civil Engineers says 
exists in the United States just to bring our systems into a State of 
good repair.
    Many are rightly concerned about our growing Federal deficit but I 
believe more people are concerned about the growth of our economy. We 
must invest where it makes sense and that means more resources for our 
transit systems, the creation of high speed rail, and removing 
bottlenecks in and around our ports and cities so that people and goods 
move more quickly, use less gas, and keep costs down.
    If we do this through the National Infrastructure Bank we will 
create millions of more jobs not only on the construction sites but 
back in the factories that produce the concrete, asphalt, aggregate, 
steel, wood, and other materials that go into these projects. We are 
used to building things in this country and we can do so again by 
standing up the National Infrastructure Bank now.
    One other point I would like to make. Many detractors of a National 
Infrastructure Bank say that we cannot afford to do this. I say we 
cannot afford not to do it. I would like to know what successful 
company in the United States has grown itself without investing money 
back into its business. Some say that there should be no more spending, 
no more borrowing, and no more investing. If that argument wins the day 
then I think we will look back upon these times of 9.7 percent 
unemployment with envy because it will mean not only significantly more 
unemployment but a complete degradation of our infrastructure. 
Companies will leave our shores and we will import more than we export. 
That cannot be the way of our future. That is not the America we know 
and love.
National Infrastructure Bank Structure
    We believe that a National Infrastructure Bank should be created 
with the following basic concepts:

  <bullet>  Establish the Bank as an independent entity with the 
        greatest flexibility to finance and fund only projects of 
        regional and national significance.

  <bullet>  Allow the Bank to fund projects beyond just transportation 
        such as ports, drinking and waste water, electrical grid, 
        broadband and others that make sense.

  <bullet>  Enable merit-based selection of projects by experts so that 
        the most critical and feasible projects proceed by employing 
        benefit-cost analysis methods.

  <bullet>  Ensure Federal assistance at a significant enough scale to 
        make these major projects financially viable.

  <bullet>  Ensure that the Bank has the authority to employ a range of 
        finance and funding tools including, but not limited to: 
        grants, credit assistance, low interest loans, tax incentives, 
        Build America Bonds, Private Activity Bonds, enhanced TIFIA 
        authority, and others to be determined.

  <bullet>  Create a method for leveraging public investments with 
        private capital.

  <bullet>  Establish clear performance measurement standards such as 
        completing projects on time and within budget, reducing traffic 
        delays for passengers and goods movement, reducing carbon 
        emissions, and improving safety.

  <bullet>  Provide project expediting capability by eliminating 
        redundancies to speed completion of projects while still 
        ensuring the environment remains protected.

    President Obama's fiscal year 2010 budget proposed $5 billion per 
year for 5 years for a total initial capitalization of $25 billion for 
the National Infrastructure Bank. In fiscal year 2011 that proposal was 
modified to be an infrastructure fund administered by the Department of 
Transportation. However, Congress has not appropriated these dollars 
primarily because the Bank has not been authorized. I give the 
President credit for supporting this concept with real dollars as it is 
a sign of his commitment to the long-term vision of rebuilding this 
country through smart, targeted investments.
    It is incumbent upon this Congress to pass a National 
Infrastructure Bank authorization bill this year so that it can be 
stood up properly next year. And I believe that the Obama 
Administration must engage with the House and Senate in the details of 
this legislation in the coming days.
    We have heard some concerns about whether or not a National 
Infrastructure Bank means rural States will be ignored to the benefit 
of urban areas. I do not think that is true at all. The Bank will look 
at projects on a regional and national basis. That may mean investments 
in areas that expand beyond any major city because of the long-term 
vision. For example, we need to expand our exports and by investing in 
our ports now we can ensure that agriculture products that come from 
our rural areas can get to those foreign markets more efficiently and 
quickly. This would mean a benefit not only to the port in the city in 
which it is located but to the farmers and ranchers who depend upon 
proper delivery to earn their wages.
    One other way that rural areas will benefit is if existing grant 
programs that fund large-scale projects would concentrate on smaller 
projects. For example, the Highway Trust Fund has recently been under 
threat of depletion and insolvency. Transfers of funds from the general 
fund into the Highway Trust Fund have kept the program alive. I believe 
that if the National Infrastructure Bank stands up it could ease the 
current strain on the Highway Trust Fund by funding the larger-scale 
projects through the Bank. Therefore, allowing more Highway Trust Fund 
dollars to remain available for smaller projects in rural areas. I 
think that is a benefit that must be studied and explored.
    Ultimately this is about what we are going to do for the American 
people. The average American loses 60 hours a year stuck in traffic. 
That is time that people can never get back and it is time that they 
cannot spend with their families and friends. And it's costing us $87.2 
billion in lost productivity and 2.8 billion gallons in wasted fuel 
each year.
    We must stop this cycle.
    We can do this. This is not rocket science. But we must do so on a 
good-faith, bipartisan basis and with the goal of assuring the Bank's 
success. If the Bank is successful then our cities, States, and regions 
will be more successful.
Conclusion
    Our hope is that if the National Infrastructure Bank is capitalized 
at the right level the Bank will make significant progress towards 
addressing some of the larger projects and outstanding needs in the 
country while Congress moves forward with significant reforms of 
existing funding silos, policy decisions, and the creation of a 
national vision.
    We believe that Congress must also pass a robust, reformed 
transportation bill that will address our surface transportation needs 
for the next several years. This program needs reforms and I was 
extremely encouraged that the President recognized that fact and 
intends to offer a proposal in the coming weeks.
    I know that many of you are hearing from people in your States as I 
have in the Commonwealth of Pennsylvania about the economy and 
unemployment. People are hurting. The construction industry is at 20 
percent unemployment and future job creation is uncertain at best. As 
Governor of the sixth largest State in the Nation I have done what I 
can to make smart investments and I can tell you investments in 
infrastructure have created and saved thousands of jobs. What that 
means is that a worker can make the car and mortgage payments, put food 
on his or her family's table, and contribute to the tax base. It means 
less people on unemployment and more people being productive as part of 
our workforce.
    That is the fabric of America.
    Is a National Infrastructure Bank going to be the single solution 
to our unemployment or crumbling infrastructure problems? No, it is 
not. There are no silver bullets. But we must fight this battle with as 
many bullets and weapons as possible to defeat it.
    Thank you and I look forward to answer any of your questions.
                                 ______
                                 
                   PREPARED STATEMENT OF ROBERT WOLF
           Chairman and Chief Executive Officer, UBS Americas
                           September 21, 2010
    Good morning Chairman Dodd, Ranking Member Shelby, and 
distinguished Members of the Committee. I am grateful for the 
opportunity to offer testimony today in support of a National 
Infrastructure Bank (NIB). My name is Robert Wolf, and I am Chairman 
and CEO of UBS Americas and President of the global Investment Bank. I 
am also a member of the Group Executive Board of UBS AG, our parent 
company.
    I have worked in the financial services industry since receiving my 
undergraduate degree in economics from Wharton in 1984. My career has 
focused predominantly on fixed income specializing in the credit 
markets, principally at two firms--Salomon Brothers for approximately 
10 years and UBS for 16 years.
    As a member of the President's Economic Recovery Advisory Board, I 
have worked with fellow board members to develop a considered approach 
to creating a National Infrastructure Bank. Today, I am here to share 
my own views, as a 26-year veteran of the markets, on why I believe a 
National Infrastructure Bank is in our Nation's best interest. I will 
also offer specific recommendations on how the proposed bank should be 
structured to achieve its goals in an optimal manner.
    Let me say at the outset that creating a National Infrastructure 
Bank at this time makes sense for two main reasons:
(1) It will attract private investment to help fund badly needed 
        infrastructure improvements critical to America's 
        competitiveness and economic growth
    State and local governments account for about 75 percent of public 
infrastructure spending, and many of these governments are under severe 
fiscal strain. A number of important projects have been delayed or 
sidetracked, especially those with high capital cost or those which 
cross State boundaries. A National Infrastructure Bank would vet 
projects carefully, lend to fund the highest priority projects, and 
help attract private sector capital to augment Government funding. 
Preqin, a private equity industry consultant, estimates that there is 
over $180 billion dollars of private equity and pension fund capital 
focused on infrastructure equity investments. This capital can play an 
important role in bridging State and local budget gaps.
(2) It will create jobs
    The U.S. Department of Transportation estimates that $1 billion of 
Federal and State spending on transportation infrastructure creates 
27,400 jobs. Similarly, the Milken Institute estimates that $1 billion 
of spending creates 25,000 jobs. Many of these jobs are in the 
construction industry and related sectors that have sustained the 
largest job losses in the economic downturn. Greater employment in 
these areas is essential to any sustained and accelerated economic 
recovery. A National Infrastructure Bank will provide funding for new 
projects that put people to work now--not just transportation-related 
jobs, but jobs that build durable infrastructure with lasting economic 
benefit, including projects in energy and electricity, water and 
wastewater, and telecommunications and broadband. Our hope is that new 
jobs will be created not only for construction workers, but also for 
engineers, architects, urban planners, scientists and many industrial 
production businesses.
    To achieve these goals, it is crucial that a National 
Infrastructure Bank be chartered with a clear and achievable mission 
and strict operational guidelines.
    I have looked at other Government-sponsored infrastructure 
institutions from around the world and have developed views on what the 
National Infrastructure Bank's mission should and should not be.
    The National Infrastructure Bank SHOULD be:
(1) Policy driven
    It should be a vehicle for attracting public and private funding to 
projects of considerable merit that accomplish broader policy goals 
like relieving congestion, minimizing environmental impact, improving 
mobility, enhancing transportation networks, and increasing our 
national or regional economic competitiveness.
(2) Loan focused
    It should focus on making loans that will generate returns, which 
means funding primarily projects with user fees or dedicated revenue 
sources.
(3) Merit based
    It is crucial that the National Infrastructure Bank allocate its 
funds on the basis of a rigorous cost-benefit analysis conducted by 
experienced industry experts and be focused on those projects that will 
deliver the most value for its dollars. Transparency is critical 
throughout the decision-making process. If a project cannot generate 
revenues sufficient to pay the principal and interest on the loan, and 
there is no other dedicated revenue source or local availability 
payments for that purpose, the loan should not be made.
    The National Infrastructure Bank should NOT be:
(1) A project equity investor
    Consistent with its lending focus, the NIB should primarily offer 
loans and loan guarantees at the project level, not project equity 
capital.
(2) A substitute for existing infrastructure funding programs
    Rather, the National Infrastructure Bank should complement 
successful programs like loans under the Transportation Infrastructure 
Finance and Innovation Act (TIFIA), Private Activity Bonds, Build 
America Bonds and municipal bonds. It should act to leverage other 
public and private sector funding sources at the project level, and it 
should complement the traditional appropriations process, not replace 
it.
(3) Focused solely on transportation
    Instead, it should make funds available for projects of regional or 
national significance in other qualified sectors such as energy, 
broadband, water and wastewater.
    Finally, in order to achieve this mission, the National 
Infrastructure Bank must be properly structured.
    In my view, the National Infrastructure Bank should be established 
as a wholly owned Government corporation, allowing it to serve a broad 
range of infrastructure sectors, such as transportation, energy and 
water. The NIB decision makers must have the independence to make loan 
decisions based on project merit. Independence will permit faster, more 
transparent and objective project selection supported by detailed cost-
benefit analysis.
    It should be capitalized with equity capital that comes solely from 
the U.S. Federal Government via the U.S. Treasury. Funding its equity 
in this manner will avoid the problems seen with the Government 
Sponsored Enterprises, such as Fannie Mae and Freddie Mac, which are 
hybrid organizations chartered to be owned by private shareholders 
while benefiting from Government sponsorship. By contrast, the National 
Infrastructure Bank should be fully owned by the Federal Government 
with no private shareholders.
    In closing, creating a National Infrastructure Bank is an idea 
whose time has come. I don't think anyone disputes that our country's 
infrastructure needs are extraordinary. The NIB would mobilize the 
capital markets to fund new projects, leading to sustainable economic 
growth--and new jobs.
    Again, Mr. Chairman, thank you for providing me with this 
opportunity to appear before the Committee today to discuss my views, 
and I am happy to answer any questions you and other Members may have.
                                 ______
                                 
                  PREPARED STATEMENT OF DONALD SHUBERT
       President, Connecticut Construction Industries Association
                           September 21, 2010
    Good morning Chairman Dodd, Ranking Member Shelby, and Members of 
the Committee, my name is Don Shubert and I am president of the 
Connecticut Construction Industries Association (often referred to as 
``CCIA''), based in Wethersfield, Connecticut. CCIA is an organization 
of associations representing the many facets and disciplines of the 
construction industry in Connecticut. The associations include the: 
Connecticut Road Builders Association, Associated General Contractors 
of Connecticut, Connecticut Ready Mixed Concrete Association, 
Connecticut Asphalt and Aggregate Producers Association and others. The 
membership includes construction managers, general contractors, 
subcontractors, equipment and material suppliers, professional 
engineers, and other professionals allied with the construction 
industry. Together, we build the infrastructure that services all modes 
of transportation.
    The CCIA divisions enjoy an active working relationship with 
national organizations that include the: American Road and 
Transportation Builders Association, Associated General Contractors of 
America, National Asphalt Pavement Association, National Ready Mixed 
Concrete Association, National Stone, Sand and Gravel Association, and 
the U.S. Chamber of Commerce. Additionally, we are founding members of 
a large transportation advocacy coalition, KEEP CT MOVING, that is a 
broad-based group modeled after the Americans For Transportation 
Mobility coalition that is led by the U.S. Chamber of Commerce. KEEP CT 
MOVING members include industry associations, organized labor, and the 
major Chambers of Commerce in Connecticut.
    I am testifying today solely in my capacity as president of CCIA.
Infrastructure investments drive economic growth
    Mr. Chairman, I commend you and the Members of this Committee for 
convening today's hearing on how infrastructure investment can help 
generate American jobs and strengthen the U.S. economy. There are few 
things the public sector can do that rival the short-term and long-term 
benefits of boosting infrastructure investment. The 2008 and 2009 
debate on an economic stimulus package proves this point, as the 
potential of infrastructure investment to facilitate economic recovery 
was widely endorsed by both parties, with only the immediacy of these 
impacts questioned by some. As later parts of my testimony will 
demonstrate, the American Recovery and Reinvestment Act's (Recovery 
Act) transportation investments have delivered profound results for our 
community and the entire country over the last 18 months.
    The benefits of investing in infrastructure are basically two-fold. 
First, those investments create well-paying jobs for skilled workers 
who are sitting idle in a sector of the economy that has been hit 
hardest by the economic downturn. Second, those investments rebuild 
infrastructure that is falling into disrepair and expand capacity to 
improve mobility. Investments in transportation infrastructure drive 
the long run growth, productivity, and competitiveness of the American 
economy.
    The U.S. economy is a vast network of businesses that produce goods 
and services for America's 115 million households, for export to 
foreign countries, or for use by other businesses. The tie that binds 
these businesses to their customers, suppliers and workers is the U.S. 
transportation network. Each year, almost 80 percent of the value of 
freight shipments in the U.S. is carried by trucks along the Nation's 
highways.
    CCIA has an active working-relationship with the U.S. Chamber of 
Commerce, and local Chambers of Commerce across Connecticut. We hear 
constantly from the business community that manufactured goods and 
cargo move through the United States on a system primarily consisting 
of ports, roads, rail, and inland waterways. The supply chain is viewed 
from initial point of origin to the final destination with frequent 
junctures in between. To keep competitive domestically and 
internationally, many U.S. businesses have developed complex logistics 
systems to minimize inventory and ensure maximum efficiency of their 
supply chains. However, as congestion increases throughout the U.S. 
transportation system, these supply chains and cargo shipments are 
frequently disrupted and the cost of business increases.
    Another priority message from business is that traffic congestion 
threatens its ability to attract and retain employees. Employers in all 
industries rely on transportation systems to connect them with their 
workforce and connect that workforce with suppliers and customers 
around the country and the world. In Connecticut, the rising cost of 
living in certain areas is pushing workers farther from their place of 
employment, increasing commute times and costs. The business community 
constantly reminds us that increasing congestion is disrupting the 
important connection with their workforce and imposing additional costs 
on the workforce and employers alike.
    To the business community, infrastructure investments: improve 
competitiveness because of reduced production and distribution costs as 
a result of increased travel speeds and fewer mobility barriers; give 
employees access to higher-paying jobs; and improve regional economic 
competitiveness, which stimulates job growth to support an increasing 
population.
    For example: the Stamford Chamber of Commerce identifies Stamford 
as the economic engine of Connecticut. According to the Chamber, 
Stamford is the largest business center in the State, and with present 
development plans under construction, it will be the largest city in 
the State. Stamford is the largest international trade center between 
New York and Boston. The Chamber tells us that the biggest challenge to 
Stamford's economic growth is the out-dated transportation 
infrastructure and mounting congestion in all modes of transportation 
that is becoming a barrier the region.
    The foundation of a modern economy is a transportation system that 
moves people and freight efficiently, safely, and on time. This lesson 
was learned during the 1960s and 1970s when construction of the 
Interstate Highway System allowed American firms to access a nationwide 
market and take advantage of scale economies that yielded significant 
increases in productivity.
    The construction industry can play a significant role in economic 
growth. Employing local workers and using local materials to improve 
our infrastructure is an excellent combination to drive economic 
growth. Unfortunately, the pervasive uncertainty about future 
investments by Federal and State governments and the private sector is 
stalling many infrastructure projects.
A skilled workforce, that is a powerful economic engine, is idle
    The construction industry workforce today is faced with its worst 
economic crisis since the Great Depression. This past winter, 23 
percent of construction workers were unemployed. In August, the peak of 
the construction season, the unemployment rate was still 17 percent. 
Before the recession, the unemployment rate for construction workers 
was less than 6 percent. According to the Bureau of Labor Statistics, 
there were 7.7 million workers employed in construction in August 2006. 
This August, there were only 5.6 million employed, a loss of more than 
2.1 million construction jobs. To put this in perspective, almost one-
third of all the jobs lost in the United States during the 2007-2009 
recession were construction jobs. Contractors are reluctant to hire new 
employees and purchase new equipment with few prospects of work in the 
near future. The reality of the construction industry is that most jobs 
exist only if the companies have sufficient work. The last thing our 
members want to do is hire and train new employees when they may not be 
able to keep them on the payroll. The following graph charts 
construction unemployment over the past 32 months.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Labor unions in Connecticut have reported 20-30 percent 
unemployment this year. One union has reported that unemployment 
increased over 2009 figures, even with the additional funding provided 
by the Recovery Act. Many union members struggle to work the number of 
hours needed to maintain their benefits over the course of the year. 
Contractors and suppliers are rotating employees and mandating 
furloughs to maintain continuity in the workforce.
    In addition to the economic downturn, construction employment is 
suffering from the direct impact of the uncertainty, being caused by 
lack of Federal long-term surface transportation funding legislation, 
that is paralyzing State Department of Transportations. Since SAFETEA-
LU expired on September 30, 2009, State transportation agencies have 
been restricting their programs to compensate for the lack of a stable, 
predictable funding stream. During the delay of reauthorizing the last 
surface transportation legislation, from 2003 to 2005, there was an 
abundance of private projects, and other public projects to keep 
contractors working while State DOT's constricted their programs. 
Today, we are in a delay period for reauthorization, and there is 
little other work available. We expect the economic impacts in terms of 
job loss and industry contraction to be much more significant in 2010-
2011 than during the 2003-2005 period.
    Contractors also have significant excess capacity. According to the 
quarterly construction market survey conducted by the American Road and 
Transportation Builders Association, only 3 percent of transportation 
construction firms are currently operating at full capacity, compared 
to a normal rate of 15 percent. At the other end of the scale, 45 
percent of contractors are operating at less than three-quarters of 
capacity, compared to a normal rate of 10 percent. Even with $20 
billion of Recovery Act highway projects underway, the industry could 
undertake far more construction work than is currently available.
    This available labor force and industry capacity can be an economic 
engine. Every $1 billion invested in nonresidential construction adds 
$3.4 billion to Gross Domestic Product (GDP) and $1.1 billion to 
personal earnings according to the Associated General Contractors of 
America. The Federal Highway Administration calculates that every $1 
billion invested in highway and bridge improvements creates or sustains 
27,823 jobs. Approximately one-third (9,537) of these jobs are on-site 
construction jobs in the State of investment. Another one-sixth (4,324) 
are in industries that supply materials and services used in highway 
and bridge construction. Most of these jobs would be in-State depending 
on the project and mix of in-State suppliers. About half (13,962) of 
the jobs would be induced jobs created when the construction and 
supplier workers and owners spend their additional incomes. These jobs 
would be a mix of in-State and out-of-State jobs. Conversely, 
investments elsewhere would support some jobs in-State.
    There is no shorter line between unemployment and a job than a 
construction project. There are millions of skilled trades-people 
across the country who are out of work and stand ready to return--many 
of whom could report back to work on one-day's notice. Construction 
jobs on public projects offer people the opportunity to earn a decent 
living, obtain quality health benefits, and save for retirement. 
However, contractors and construction workers are in a holding pattern 
while State transportation departments adjust to a lack of funding 
certainty and search for funding.
The Nation has tremendous transportation needs
    A 2010 National State of Good Repair Assessment conducted by FTA 
reports that:

  <bullet>  Nine percent of America's rail assets are in poor condition 
        and 17 percent of are in marginal condition.

  <bullet>  Nine percent of America's bus assets are in poor condition 
        and 32 percent are in marginal condition.

    TRIP, a national research group, reports that:

  <bullet>  Thirty-two percent of America's major roads are in poor or 
        mediocre condition.

  <bullet>  Twenty-five percent of America's bridges are structurally 
        deficient or functionally obsolete.

  <bullet>  Forty-four percent of America's major urban highways are 
        congested.

    Connecticut has similar needs. TRIP reports:

  <bullet>  In 2008, thirteen percent of Connecticut's major roads were 
        rated in poor condition and 32 percent were rated in mediocre 
        condition.

  <bullet>  Nine percent of Connecticut's bridges were structurally 
        deficient in 2009.

  <bullet>  Twenty-five percent of Connecticut's bridges were 
        functionally obsolete in 2009.

  <bullet>  In 2008, fifty-eight percent of Connecticut's urban 
        Interstates and other highways or freeways were considered 
        congested.

    And these are only surface transportation needs. We must also 
modernize the air traffic control system, expand capacity at our 
airports and on freight rail lines, improve connections to ports and 
increase the reliability of the inland waterways system.
Significant funding is needed to meet those needs
    Two congressionally appointed commissions have recommended a broad 
overhaul of the Federal Surface Transportation Program to improve 
mobility, safety and the physical condition of the Nation's surface 
transportation system by significantly increasing funding. The National 
Surface Transportation Policy and Revenue Study Commission (NSTPRSC) 
and the National Surface Transportation Infrastructure Financing 
Commission (NSTIFC) were created by Congress to examine the current 
condition and future funding needs of the Nation's surface 
transportation program, develop a plan to insure the Nation's surface 
transportation system meets America's future mobility needs, and to 
recommend future funding mechanisms to pay for the preservation and 
improvement of the Nation's roads, highways, bridges and public transit 
systems.

  <bullet>  The NSTPRSC concluded that it is critical to the future 
        quality of life of Americans that the Nation create and sustain 
        the preeminent surface transportation system in the world, one 
        that is well-maintained, safe and reliable.

  <bullet>  The NSTIFC found that the U.S. faces a $2.3 trillion 
        funding shortfall over the next 25 years in maintaining and 
        making needed improvements to the Nation's surface 
        transportation system.

    The U.S. Department of Transportation issues reports on the 
Conditions and Performance of the Nation's Highways, Bridges and 
Transit, in which it calculates the annual investment that all levels 
of government would have to make both to maintain current conditions 
and improve conditions.
    The 2008 Conditions and Performance Report issued by the U.S. 
Department of Transportation included data on the cost to maintain and 
improve the Nation's mass transit systems, including both bus and rail-
based transit. When combined with data on recent cost increases and 
traditional Federal share, the report indicates that a Federal transit 
program of $12 to $14 billion annually between FY2011 and 2016 would 
maintain conditions while $17 to $19 billion would be needed to improve 
conditions. In FY2010, total funding for the public transportation 
program was just over $10 billion. For FY2011 through 2016, Transit 
Account revenues are projected to be about $5.5 billion per year, less 
than half the amount needed just to preserve existing conditions.
    The latest report, which was issued in January 2009, provides data 
on the average annual investment that would be needed between 2006 and 
2026 both to maintain conditions and improve conditions on our Nation's 
highways. When combined with information on recent increases in highway 
construction costs and the traditional Federal share of highway 
investment, the report shows that funding for the Federal highway 
program in the next surface transportation authorization bill should be 
in the range of $71 to $78 billion per year just to maintain current 
highway and bridge conditions. The annual Federal investment needed to 
improve conditions would be even higher. By contrast, Federal highway 
investment in fiscal year 2010 is $41.1 billion, a shortfall of more 
than $30 billion for just keeping the status quo.
    The massive gap between Federal highway investment and needs is 
shown on a State by State basis in the following Table that was 
provided by the American Road and Transportation Builders Association. 
For example, the table shows that Connecticut would need an annual 
Federal investment of just over $627 million as the Federal share of 
the cost to maintain conditions and performance on the State's highways 
and bridges. \1\ In FY2010, the State received about two-thirds of that 
amount. Alabama also received fewer Federal highway funds than needed 
just to maintain current highway and bridge conditions, as did almost 
every other State. The table also shows that the one-time highway 
stimulus funds in the American Recovery and Reinvestment Act, while 
helpful in the short-term, come nowhere near filling the long-term 
Federal highway investment shortfall, leaving a shortage that threatens 
to cripple the systems that provide the mobility that is essential to 
support our economy and quality of life.
---------------------------------------------------------------------------
     \1\ State investment needs are based on Federal Highway 
Administration data on the number of highway miles in poor or mediocre 
condition in each State, the total deck area of deficient bridges in 
each State, and a measure of highway congestion.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In January 2010, the Connecticut Department of Transportation 
released an analysis that identifies approximately $4 billion of 
unfunded initiatives in our public transit, highway, and bridge systems 
that were programmed over the next 5 years. The Department based its 
analysis on what it described as a tremendous uncertainty surrounding 
the passage of long-term surface transportation measure which has 
significant implications on the Department's ability to plan and 
execute its transportation infrastructure program. In the analysis, 
ConnDOT identifies 49 unfunded projects that were programmed for 2010, 
102 unfunded projects programmed for 2011, 36 unfunded projects 
programmed for 2012, 17 unfunded projects programmed for 2013, and 16 
unfunded projects programmed for 2014. Additionally, the analysis 
identified over $8 billion in additional major long-term unfundable 
initiatives in the transit, highway, and bridge programs.
ARRA's major impact on the Nation's transportation needs is ending
    The American Recovery and Reinvestment Act's transportation 
investments have been one of the few bright spots for the 
transportation construction industry. Virtually all of the projects 
financed by the Act's $48 billion for transportation improvements are 
now either underway or completed. As a result, transportation 
construction is the only major construction market that did not decline 
during the 2007-09 recession. As the next graph shows, the value of 
construction work put in place on homebuilding is now more than 60 
percent below its prerecession peak, while private nonresidential 
construction is down 25 percent and public construction other than 
transportation is down more than 10 percent. But the value of 
construction work put in place on transportation improvements has not 
fallen. It is clear the construction industry could very well have been 
devastated over this construction season without the Recovery Act 
projects stabilizing the workload.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Recovery Act has mitigated a steep drop in construction 
activity in the residential and commercial sectors of the industry. For 
example: in the asphalt industry, over a third of the total market was 
comprised of homebuilding and commercial construction projects. When 
those market segments were devastated by the economic downturn, the 
loss was somewhat offset by the gains provided by the Recovery Act. In 
the cement and concrete industries, where those market segments 
comprise a larger part of the total market, the resulting loss was 
greater. In turn, the aggregates industry (stone, sand, and gravel) 
suffered major market losses. The following chart shows that even with 
the Recovery Act there was a downturn in the asphalt market.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While the Recovery Act funds have had a positive stabilizing impact 
on the construction marketplace, those resources are coming to an end. 
We believe the momentum generated by ARRA will be lost if Congress 
fails to find revenue sources to support a well-funded, multiyear 
surface transportation authorization bill. A robust multiyear bill is 
the best step that can be taken to alleviate the uncertainty that 
prevents State DOTs from planning and undertaking projects and driving 
America's economic recovery and growth.
    Unfortunately, the Federal public transportation and highway 
programs are currently in a state of limbo and have been operating 
under a series of short-term extensions since the last bill expired 
almost a year ago. The delay periods during the reauthorization of the 
last two Federal surface transportation measures show that States rely 
heavily on continuing and guaranteed funding from the Federal 
Government. As stated earlier, uncertainty in Federal transportation 
funding stifles State transportation programs which stalls the delivery 
of much needed infrastructure, disrupts hiring and equipment purchases, 
interrupts steady employment, fosters inconsistent training, and causes 
the loss of highly skilled employees. In short, this shuts-down a large 
economic engine.
A comprehensive long-term reauthorization bill is needed
    We were greatly pleased to see President Obama's recent call for 
enactment of a 6-year reauthorization of the Federal public 
transportation and highway programs. We believe that enactment of a 
multiyear surface transportation bill would be a true economic 
stimulus.
    As welcome as the President's commitment to prompt enactment of a 
reauthorization bill is, we recognize there is still a long path ahead 
of us. The 2005 reauthorization bill included surface transportation 
investment levels well beyond what existing revenues could support and 
included no new resources. As a result, the Highway Trust Fund surplus 
was liquidated over a 4-year period and this structural draw down was 
exacerbated by the worsening economy.
    The Mass Transit and Highway Accounts face cash crises in the years 
ahead. This means Congress is now faced with three very difficult 
funding alternatives for the next bill:

  <bullet>  scale back transit and highway investments to currently 
        supportable levels and, in so doing, force the loss of hundreds 
        of thousands of construction industry jobs;

  <bullet>  further add to the Federal deficit to support future 
        transportation investments; or

  <bullet>  raise new revenues.

    CCIA supports raising new revenues. While I fully appreciate the 
challenges this situation presents for elected officials, I would be 
remiss in not pointing out that only through dedicated revenues can 
contract authority and other mechanisms that provide States the 
certainty to move forward with long-term transportation plans be 
retained. Clearly, the core of an effective national surface 
transportation program must be a stable, guaranteed, long-term revenue 
source.
    Given the inherent financing challenge facing the reauthorization 
of the Federal surface transportation program, we fully acknowledge the 
importance of being open to new ways to meeting the Nation's 
transportation infrastructure challenges.
An Infrastructure Bank could be part of the solution
    A National Infrastructure Bank proposal is one of a number of 
proposals that has been suggested by both of the federally chartered 
commissions mentioned above and many transportation interests. An 
Infrastructure Bank would provide funding for many megaprojects that 
are not easily supported through the existing Federal public 
transportation and highway programs. It would enhance a long-term 
stable funding source, by providing new funding for projects, which 
would leave more funding in the core stable and dependable 
transportation formula programs.
    In Connecticut, several megaprojects are currently devouring the 
State's transportation program. If one or two of those projects had 
been funded by an Infrastructure Bank, more resources would be 
available through the core program and the State would be in a better 
position to meet its maintenance and expansion needs. Additionally, 
there are many other megaprojects that ConnDOT has identified with no 
funding sources. An Infrastructure Bank may be the ideal funding 
mechanism for one or more of those projects, which may not otherwise be 
delivered in the future.
    An Infrastructure Bank could provide several benefits. It could 
fill a clear void that exists in Federal transportation policy to 
support large-scale projects that provide service beyond the border of 
an individual State. An Infrastructure Bank could bring more revenue 
from State, local, and private sources into the infrastructure funding 
scheme. For example, if the amount of financial participation from 
State, local, and private sources is one of the criteria included in 
project selection process, an Infrastructure Bank could create 
competition that will draw new investments into transportation funding 
programs. Likewise, the competitive process created under an 
Infrastructure Bank would ensure the best projects move forward. As 
such, we urge Congress and the Obama Administration to pursue an 
Infrastructure Bank as a supplement to robust Federal public 
transportation and highway programs. The additional funding generated 
by the bank would leave more of the stable core program funding in 
place to meet basic needs.
    My discussion today has focused mainly on transportation 
infrastructure. However, the concept of infrastructure bank funding for 
large-scale projects may also lend itself to other applications, such 
as Clean Water projects that are facing similar funding challenges. The 
U.S. Environmental Protection Agency estimates we could need as much as 
$390 billion each year over the next 20 years to repair obsolete 
drinking water and waste water systems. In Connecticut, the 
Metropolitan District Commission is currently administering a billion 
dollar Clean Water project to separate sanitary sewer and storm water 
lines. There are likely many similar projects in cities and towns in 
Connecticut and across the country in need of funding.
    Mr. Chairman, we commend you for the time you and your staff have 
invested in advancing the creation of a National Infrastructure Bank. 
We believe there is substantial potential in an Infrastructure Bank to 
leverage new infrastructure dollars and create a new merit-based 
process to select and deliver much-needed upgrades to our 
transportation systems. We stand ready to work with you as these 
proposals develop.
    Again, thank you Mr. Chairman for this opportunity to testify 
today. This discussion is important to putting the Federal-Aid Public 
Transportation and Highway Programs on a solid foundation of fiscal 
stability.
    I will be happy to respond to any questions.
        RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN DODD
                        FROM ROY KIENITZ

Q.1. Ideal Time to Invest in Infrastructure. I have heard that 
given today's low interest rates and the excess capacity 
available in the construction industry that now is an ideal 
time to be investing in infrastructure. Please comment on the 
efficiencies that we can realize by increasing our Nation's 
investment in infrastructure right now, in the midst of the 
current economic downturn.

A.1. This is indeed a good time to take advantage of abundant 
underused resources to close part of the Nation's 
infrastructure gap. As the Department of the Treasury and the 
Council of Economic Advisers noted in their report on 
infrastructure investment on October 11, 2010, the unemployment 
rate in the construction industry is currently over 17 percent, 
so abundant human resources are available. Many are also 
unemployed in supporting industries, such as steel and cement 
manufacture. As a result, construction costs for infrastructure 
investment are unusually low. Our experience with Recovery Act 
funding has shown that many projects were built for less than 
the estimated construction cost. Among our $1.1 billion in 
aviation investments, for example, winning bids for the 
projects came in $200 million below their initial engineering 
estimates. As a result, more than 2,000 additional airport, 
highway, bridge, and transit projects were funded because other 
projects were being completed under budget. Finally, interest 
rates on high-grade municipal bonds are down 82 basis points 
from 2008, further reducing the costs of investing in 
infrastructure.

Q.2. Merit-Driven Selection Process. One of the benefits of 
creating a National Infrastructure Bank is the fact that we 
create a competitive, merit-driven process that leads to 
selection of those projects with the best returns. How can we 
design a bank to ensure that we make the best use of Federal 
dollars and fund the projects with the highest rates of return 
and the greatest public benefits?

A.2. We believe that our selection process for the TIGER Grants 
program that was created under the Recovery Act provides a good 
model for how a merit-driven selection process might work. In 
that program, we received over 1,400 grant applications, 
totaling over $59 billion in requested funding, for a $1.5 
billion program. We organized teams of technical experts--with 
each team including experts from several modal 
administrations--to provide a preliminary review of the 
applications and to select the best 10 percent as ``highly 
recommended'' for further review. We had required that each 
application provide a detailed discussion of the benefits that 
it would achieve, including a detailed benefit-cost analysis 
for projects over $100 million. A team of economists critically 
reviewed the benefit-cost analyses for the highly recommended 
projects, and provided its conclusions, along with the 
conclusions of the technical experts, to a senior review team 
comprising the Department's senior management from each of its 
modal administrations. The senior review team made its 
recommendations to the Secretary, who made the final selection 
decisions. This process worked effectively because it drew 
heavily on the technical expertise of the Department's career 
staff, combined with the common sense judgment and wide 
experience of the Department's senior management, as well as 
the ultimate accountability of final selection by the 
Secretary. The process also worked because we required 
applicants to make use of economic analysis to provide a common 
measuring stick for comparing disparate projects. While we 
exempted smaller projects from the benefit-cost analysis 
requirement in the first round of TIGER Grants, our experience 
was that even applications for small projects often were able 
to put together very capable benefit-cost analyses; as a 
result, in the second round of TIGER Grants that were awarded 
in October 2010, we required all applications to include a 
benefit-cost analysis.

Q.3. Leveraging. One of the goals of an infrastructure bank is 
to leverage new State, local, and private funding. Some studies 
have found that previous increases in Federal transportation 
funding have led to reduced State and local funding. How can we 
best design an infrastructure bank to ensure that it leverages 
new public and private funding rather than simply substituting 
for existing funding?

A.3. It is true that previous studies have found that States 
curtail their own spending on infrastructure when the Federal 
Government increases its spending. A GAO report in 2004, for 
example, found that since 1982 States had reduced their 
spending on highways by about 50 percent of the Federal 
increase in spending on highways, and that this rate of fiscal 
substitution had increased during the 1990s. In the TIGER Grant 
program, we looked closely at the extent to which States, 
cities, transportation authorities, and private firms were 
contributing to the costs of the projects for which TIGER Grant 
funding was sought. We did this partly because we wanted to 
increase the number of projects that could be funded, and 
partly because we thought that projects that had attracted 
funding from local authorities and private firms were more 
likely to have high benefits than projects that had not. In 
many cases we awarded less funding than the applicant had 
originally requested, strengthening the incentive for local 
authorities to increase their contributions. An infrastructure 
bank that has flexible authority to issue both grants and loans 
can structure its assistance so as to leverage funding from 
several sources--State and local taxes, user fees, and private 
sector contributions--and increase the number of projects that 
can be funded with a given level of resources. Careful economic 
analysis can also identify how the benefits of a project are 
distributed and suggest what would be a fair distribution of 
the costs of funding the project.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN DODD
                      FROM ALAN B. KRUEGER

Q.1. Ideal Time To Invest in Infrastructure. I have heard that 
given today's low interest rates and the excess capacity 
available in the construction industry that now is an ideal 
time to be investing in infrastructure. Please comment on the 
efficiencies that we can realize by increasing our Nation's 
investment in infrastructure right now, in the midst of the 
current economic downturn.

A.1. There is currently a large group of unemployed and 
underemployed labor available to improve our infrastructure. 
Building more roads, bridges, and rail tracks would help the 
segment of workers that was most disproportionately affected by 
the economic crisis--construction and manufacturing workers. 
The Treasury Department, with the Council of Economic Advisers, 
recently issued a report which addressed this topic in greater 
detail. I am enclosing a full copy of the report for the 
record.
    Due to the collapse of the real estate market, the 
contraction of employment in the construction industry was 
especially acute. Since December 2007, the construction 
industry has lost 25 percent of its total payroll jobs, 
dropping from 7.5 million to 5.6 million employees. In 
September 2010, the unemployment rate for construction workers 
stood at 17.2 percent; over three times the rate from 3 years 
ago, and almost double the overall unemployment rate. 
Accelerated infrastructure investment would provide an 
opportunity for construction workers to productively apply 
their skills and experience. Moreover, hiring currently 
unemployed construction workers would require lower training 
costs for firms than would be incurred by hiring workers during 
normal times, because these workers already have the requisite 
skills and experience in construction.
    The excess supply of construction workers is one of many 
factors making current construction costs low, which in turn 
leads to lower project costs. For example, the Federal Aviation 
Administration received $1.1 billion in Recovery Act funds for 
airport improvements. The money was designated for 300 
projects. The winning bids for those projects came in over $200 
million below the engineers' original estimates. A second round 
of projects was selected, which also received less expensive 
bids than had been anticipated. As a result of these cost 
savings, 367 runway and airport improvement projects were 
funded with the same amount of money that was originally 
intended to support 300 projects.

Q.2. Merit-Driven Selection Process. One of the benefits of 
creating a National Infrastructure Bank is the fact that we 
create a competitive, merit-driven process that leads to 
selection of those projects with the best returns. How can we 
design a bank to ensure that we make the best use of Federal 
dollars and fund the projects with the highest rates of return 
and the greatest public benefits?

A.2. Transportation investment by the Federal Government has 
rarely been made through a competitive process. To address the 
lack of merit-based funding, the National Infrastructure Bank 
would develop a framework to analytically examine potential 
infrastructure projects based on cost-benefit analysis and to 
understand the distributional impact of both the costs and the 
benefits of each project. Of course, not all of the benefits 
and costs can be quantified, but an effort should be made to 
quantify what can be quantified and to take account of any 
additional benefits and costs to society. A rigorous analytic 
process would result in support for projects that yield the 
greatest returns to society, and would avoid investing taxpayer 
dollars in projects where costs exceed total benefits.
    This is a difficult process given the inherent complexities 
involved in calculating the benefits from investment in 
transportation infrastructure. As I mentioned in my testimony, 
even calculating the full costs of congestion is very 
difficult. The Department of Transportation has begun a 
competitive multimodal transportation grant program, the TIGER 
program, which was started under the Recovery Act and 
subsequently continued through additional Congressional 
funding. DOT is planning to gather data on the actual benefits 
of their TIGER Grant projects so that they can find out how 
closely the actual benefits correspond to the benefits 
anticipated in the benefit-cost analyses. I support this effort 
to see what lessons can be learned from the experience of the 
TIGER program to develop procedures for a National 
Infrastructure Bank.
    Finally, I recommend that when considering the costs and 
benefits of project proposals, the Bank should take into 
account the effects that infrastructure investments will have 
throughout the network connected to these investments. 
Specifically, the Bank ought not only to consider the costs and 
benefits that accrue in the area where the infrastructure 
project takes place, but also track the costs and benefits 
attributable to investments away from the project site. For 
example, a significant improvement in the connection between a 
port and a freight rail line will also benefit those who use 
that route to export goods. The National Infrastructure Bank 
should consider all the costs and benefits when considering 
project proposals--not just localized costs and benefits at the 
project site.

Q.3. Effects of Prolonged Unemployment. Prolonged unemployment 
can have significant negative impacts on construction workers 
and the construction industry. Can you discuss what impacts 
prolonged unemployment can have on the skills of construction 
workers and the long-term impacts of substantial prolonged 
unemployment on the construction industry?

A.3. The construction industry was hit particularly hard by the 
economic downturn. We have conducted analysis which suggests 
that 61 percent of the jobs created by investing in 
infrastructure would be in the construction sector, 12 percent 
would be in the manufacturing sector, and 7 percent would be in 
retail trade, for a total of 80 percent in these three sectors. 
Nearly 90 percent of the jobs in the three sectors most 
affected by infrastructure spending would be middle class jobs, 
defined as those between the 25th and 75th percentile in 
national distribution of wages. Overall, the average 
unemployment rate among those who would be put to work by 
additional investment in infrastructure is currently over 15 
percent, more than one and one-half times the national 
unemployment rate.
    Research by Laurence Ball of Johns Hopkins University, who 
analyzed unemployment in OECD countries, finds that prolonged 
recessions can produce persistently high unemployment, even 
after the recession is over--a phenomenon known as hysteresis. 
\1\ At a microeconomic level, unemployment has been found to be 
associated with health problems, illness, and depression. \2\ 
Moreover, research by Andrew Clark and others finds that 
unemployment has a ``scarring'' effect; unemployment spells 
lower the reported life satisfaction of those who return to 
work even after they become reemployed. \3\
---------------------------------------------------------------------------
     \1\ See, Laurence Ball, ``Aggregate Demand and Long-Run 
Unemployment'', Brookings Papers on Economic Activity, 1999(2), pp. 
189-251; and Laurence Ball, ``Disinflation and the NAIRU'' (1997), in 
Reducing Inflation: Motivation and Strategy, edited by Christina Romer 
and David Romer, Univ. of Chicago Press.
     \2\ Linn, Margaret W., Richard Sandifer, and Shayna Stein, 
``Effects of Unemployment on Mental and Physical Health'', American 
Journal of Public Health, 75(5):502 (1985).
     \3\ Clark, Andrew E., Yannis Georgellis, and Peter Sanfey, ``The 
Psychological Impact of Past Unemployment'', Economica, 68(270):221-241 
(2001).

Q.4. Public-Private Partnerships. What is the potential for 
public-private partnership in infrastructure? What is the 
evidence that private capital is available for the kinds of 
significant regional projects that the NIB would be designed to 
---------------------------------------------------------------------------
support?

A.4. Experience suggests that there is enormous potential for 
public-private partnership in infrastructure, and private 
capital is available and ready to invest in transportation 
infrastructure. For example, the Recovery Act established a 
number of new and expanded bond financing programs to enable 
State and local governments to borrow at lower costs for 
capital projects, including Build America Bonds (BABs), which 
have been very successful. Prior to the introduction of BABs, 
the traditional tax-exempt municipal bond market was frozen. In 
March 2009, highly rated issuers faced borrowing costs that 
were higher than taxable Treasury yields, even though their 
bonds were tax-exempt, and many issuers were unable to access 
financing at any price. Then in April 2009, the BABs program 
was introduced. This program made municipal bonds attractive to 
a wide variety of new investors--including pension funds, 
sovereign wealth funds, and retail investors in lower tax 
brackets. Since the program's inception in April 2009, State 
and local governments have now issued more than $150 billion in 
BABs and saved billions of dollars in financing costs. \4\ The 
success of the BABs program demonstrates strong private 
investor interest in infrastructure financing.
---------------------------------------------------------------------------
     \4\ This figure is for BABs issuances from April 2009 to October 
31, 2010.
---------------------------------------------------------------------------
    As Governor Rendell stated in his testimony, there are 
billions of dollars in private investment funds that are 
waiting to be invested in the United States. Moreover, as 
Robert Wolf stated at the hearing, ``Preqin, a private equity 
industry consultant, estimates that there is over $180 billion 
dollars of private equity and pension fund capital focused on 
infrastructure equity investments. This capital can play an 
important role in bridging State and local budget gaps.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN DODD
                     FROM EDWARD G. RENDELL

Q.1. Ideal Time To Invest in Infrastructure. I have heard that 
given today's low interest rates and the excess capacity 
available in the construction industry that now is an ideal 
time to be investing in infrastructure. Please comment on the 
efficiencies that we can realize by increasing our Nation's 
investment in infrastructure right now, in the midst of the 
current economic downturn.

A.1. There is no question that now is the time to invest in our 
infrastructure to take advantage of the very low interest rates 
as well as the low bids cities and States are receiving on 
their construction projects. That has the potential to make 
current dollars go further. For example, Pennsylvania issued a 
$900 million ``Build America Bond'' in January of this year and 
the result was that the Commonwealth obtained the lowest 
interest rate since 1968 at a rate of 3.13 percent. That is a 
remarkable rate and the savings realized will mean more dollars 
available for other worthy projects.
    Additionally, we have been receiving some of the lowest 
construction bids for projects throughout Pennsylvania. The bad 
news is that many of these bids are so low because unemployment 
rates are high. The September, 2010, U.S. Department of Labor 
unemployment figures indicate that unemployment in Pennsylvania 
is at about 9 percent which is slightly below the national 
unemployment rate of 9.6 percent. And because of that, 
construction firms are more interested in keeping workers 
employed by reducing their bids in order to win more contracts. 
For example, when Pennsylvania received its stimulus funding 
for roads, highways, and bridges we bid out 242 projects. 
Because the bids came in significantly lower than expected, we 
were able to add 344 new projects.
    I cannot speak for every other State but my guess is that 
other governors, mayors, and elected officials are experiencing 
similar experiences.

Q.2. Merit-Driven Selection Process. One of the benefits of 
creating a National Infrastructure Bank is the fact that we 
create a competitive, merit-driven process that leads to 
selection of those projects with the best returns. How can we 
design a bank to ensure that we make the best use of Federal 
dollars and fund the projects with the highest rates of return 
and the greatest public benefits?

A.2. If we are going to set up a National Infrastructure Bank 
then we must do it right from the beginning. That means we must 
have expert staff capable of conducting benefit-cost analysis, 
we must have a board experienced in the infrastructure world 
making informed and merit-based evaluations of the projects, 
and we must establish criteria which all projects must meet. 
One way to do that is to limit the types of projects to those 
that have regional or national significance. I would also 
recommend that an NIB be completely transparent by posting all 
the data for the world to see. When people can see where and 
why their tax dollars are being spent then they will tend to 
trust their leaders in making these difficult decisions.
    With respect to the rates of return and public benefit that 
is not easy to define but that is why this Bank must be 
established--to make the tough decisions. Will every project be 
eligible? The answer to that is absolutely not. Those 
submitting projects for consideration must prove to the Board 
why these projects truly benefit a region or Nation. For 
example, our ports are clogged and cargo is often expensive to 
ship over land due to congestion, lack of capacity, and lack of 
alternative transportation options such as on-dock-rail. Well, 
a port could justify the impact by laying out for the Bank how 
improvements in certain cities and States would eliminate choke 
points, speed traffic, or get our goods exported more easily. 
That scenario is a win not just for that particular port but 
for the shippers, consumers, and those buying our products 
overseas because the overhead costs of shipping will be reduced 
and on-time delivery can improve. And I believe that our 
Government--be it through the Bank or another entity that 
currently tracks this data--should measure those benefits to 
companies who ship their products and earn profits thereby 
hiring more people back to work so that can increase their 
productivity.

Q.3. Leveraging. One of the goals of an infrastructure bank is 
to leverage new State, local, and private funding. Some studies 
have found that previous increases in Federal transportation 
funding have led to reduced State and local funding. How can we 
best design an infrastructure bank to ensure that it leverages 
new public and private funding rather than simply substituting 
for existing funding?

A.3. First, I am not suggesting that a NIB replace current 
Federal funding--most of which is allocated to the States on a 
formula basis. Instead, the NIB should be viewed as a 
supplementary tool that could provide appropriate assistance to 
large scale projects of national or regional significance. 
Establishing criteria about the level and amount of NIB 
assistance would be the best way to safeguard the Federal 
contribution. Some of these limits are already in place. For 
example, in the transportation infrastructure area the TIFIA 
program is prohibited from contributing more than 33 percent of 
a project's total cost. Additionally, Federal law already 
requires a specific State/local match for highway and transit 
projects.
    I think similar things could be done in the water and 
wastewater, energy, broadband, and other infrastructure areas 
that the Bank could help finance once criteria are established 
for those needs.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN DODD
                        FROM ROBERT WOLF

Q.1. Ideal Time To Invest in Infrastructure. I have heard that 
given today's low interest rates and the excess capacity 
available in the construction industry that now is an ideal 
time to be investing in infrastructure. Please comment on the 
efficiencies that we can realize by increasing our Nation's 
investment in infrastructure right now, in the midst of the 
current economic downturn.

A.1. Interest rates are currently at their lowest levels in 
decades allowing for low-cost funding of projects.

  <bullet>  The 10-year U.S. Treasury is currently 2.39 
        percent, 172bps below the 10-year historical average of 
        4.11 percent and 454bps below the 30-year historical 
        average of 6.93 percent. \1\
---------------------------------------------------------------------------
     \1\ Bloomberg data, 10/9/10.

  <bullet>  The Moody's Aaa corporate bond index is currently 
        4.56 percent, 104bps below the 10-year historical 
        average of 5.60 percent and 267bps below the 25-year 
        historical average of 7.23 percent. \2\
---------------------------------------------------------------------------
     \2\ Bloomberg data, 10/9/10.

    The construction industry has been among the hardest hit in 
the economic downturn and the costs of key inputs for 
---------------------------------------------------------------------------
construction (concrete, steel, etc.) have also come down.

  <bullet>  The Dodge Construction Index that tracks total U.S. 
        construction contract/pipeline value has decreased 25 
        percent from September 2008. \3\
---------------------------------------------------------------------------
     \3\ Bloomberg data, 10/9/10.

  <bullet>  The Dow Jones Global Building Materials and 
        Fixtures Index has declined nearly 30 percent from 
        September 2008. \4\
---------------------------------------------------------------------------
     \4\ Factset data, 10/9/10.

  <bullet>  According to the Bureau of Labor Statistics, the 
        construction industry has an unemployment rate of 17.2 
        percent as of September 2010. \5\
---------------------------------------------------------------------------
     \5\ Bureau of Labor Statistics, ``Industries at a Glance: 
Construction'', September 2010.

    In addition to the costs of financing and constructing 
infrastructure now at historically low levels, there is 
currently over $180bn of equity capital looking to invest in 
infrastructure. \6\
---------------------------------------------------------------------------
     \6\ Preqin, September 2010.

  <bullet>  This private capital will be invested wherever 
        private sector infrastructure investment opportunities 
        develop (primarily in the OECD), and will be invested 
        abroad if investment opportunities are not available in 
---------------------------------------------------------------------------
        the U.S.

    Given the low interest rate environment and high 
unemployment in the construction sector, now would be an 
optimal time to create jobs through infrastructure investment.

  <bullet>  Jack Wells, chief economist at USDOT, estimates 
        that $1bn of Federal funding for transportation 
        infrastructure would create 34,800 jobs. \7\
---------------------------------------------------------------------------
     \7\ Jack Wells, USDOT, September 2008.

  <bullet>  The Milken Institute estimates that $1bn of 
        transportation infrastructure spending would create 
        27,400 jobs. \8\
---------------------------------------------------------------------------
     \8\ Milken Institute, ``Jobs for America'', January 2010.

Q.2. Merit-Driven Selection Process. One of the benefits of 
creating a National Infrastructure Bank is the fact that we 
create a competitive, merit-driven process that leads to 
selection of those projects with the best returns. How can we 
design a bank to ensure that we make the best use of Federal 
dollars and fund the projects with the highest rates of return 
---------------------------------------------------------------------------
and the greatest public benefits?

A.2. The NIB must allocate funds based on rigorous cost-benefit 
analysis conducted by experienced industry experts and should 
focus on those projects that will deliver the highest value for 
money.

  <bullet>  The decision-making process must be totally 
        transparent and open to public scrutiny.

  <bullet>  The decision to fund selected projects will be 
        independent of the appropriations process or other 
        partisan constraints and free of the election and 
        budgetary cycles.

  <bullet>  To help select the best projects, the NIB should 
        have a broad-based board of governors, representing 
        various infrastructure stakeholders and comprised of 
        members with demonstrated sector expertise and private 
        and public sector experience.

  <bullet>  It should be noted that the NIB should be policy 
        driven, which means it will consider nonmonetary cots 
        and benefits alongside monetary ones as part of its 
        cost-benefit analysis.

    USDOT's existing TIFIA program provides an example of how a 
National Infrastructure Bank would use merit to determine 
project funding.

  <bullet>  The TIFIA process uses pre-agreed criteria to 
        determine which projects receive loans; these criteria 
        include innovation, safety, livability, sustainability, 
        economic competitiveness, and State of good repair.

  <bullet>  Since its inception in 1998, TIFIA has made $7.9bn 
        of loans, $1.6bn of which have already been repaid with 
        interest. \9\
---------------------------------------------------------------------------
     \9\ Federal Highway Administration, TIFIA Projects and Case 
Studies, October 2010.

  <bullet>  TIFIA-assisted projects have created over $29.4bn 
        of total infrastructure spending; an example of the 
        potential to leverage Federal dollars with local 
        government and private sector investment. \10\
---------------------------------------------------------------------------
     \10\ Federal Highway Administration, TIFIA Projects and Case 
Studies, October 2010.

Q.3. Public-Private Partnerships. What is the potential for 
public-private partnership in infrastructure? What is the 
evidence that private capital is available for the kinds of 
significant regional projects that the NIB would be designed to 
---------------------------------------------------------------------------
support?

A.3. Private-public partnerships can be a viable tool in 
infrastructure investment because they:

  <bullet>  Mobilize private sector capital to fund projects 
        alongside Government funding.

  <bullet>  Shift elements of the project risk from the public 
        sector to the private sector.

  <bullet>  Allow for greater participation of the private 
        sector in the development and financing of 
        infrastructure and provision of services.

    There is currently over $180bn of equity capital looking to 
invest in infrastructure and there is over $55bn of new equity 
capital being raised by infrastructure investors today. \11\
---------------------------------------------------------------------------
     \11\ Preqin, September 2010.

  <bullet>  If this $180bn of equity capital comprised 30 
        percent of project costs, it could generate $600bn of 
---------------------------------------------------------------------------
        infrastructure investment.

    Since 2005, over $38.1bn of public-private partnership 
transactions have been undertaken in the U.S. transportation 
sector (road, rail, and port). \12\
---------------------------------------------------------------------------
     \12\ Dealogic Database, InfraAmericas, Infrastructure Journal.

  <bullet>  Of this, over $13.6bn has been invested in 
        greenfield projects, the majority of which would not 
        have been completed without the use of private sector 
---------------------------------------------------------------------------
        equity.

  <bullet>  An additional $24.5bn has been invested in 
        brownfield projects, which have helped reduce 
        Government debt burdens and allowed these governments 
        to redeploy capital into new infrastructure projects.

    An example of one such project is the North Tarrant Express 
in Texas that reached financial close in November 2009:

  <bullet>  This project was financed using $1,048mm of private 
        sector debt, $600mm of TIFIA loans, $573mm of 
        contributions from TxDOT, and $426mm of private sector 
        equity. \13\
---------------------------------------------------------------------------
     \13\ Dealogic Database, InfraAmericas, Infrastructure Journal.

  <bullet>  Of these funds, the Federal Government contributed 
        only $600mm (22 percent of project cost) for the TIFIA 
        loan which is expected to be paid back with interest 
---------------------------------------------------------------------------
        over 40 years.

    The track record for public-private partnerships globally 
is very strong.

  <bullet>  U.K. National Audit Office studies have found that 
        privately developed infrastructure projects are 
        delivered on-time and on-budget with much higher 
        frequency than similar publicly procured projects. \14\
---------------------------------------------------------------------------
     \14\ U.K. National Audit Office, ``PFI: Construction 
Performance'', February 2003.

  <bullet>  73 percent of public procurements ran over-budget 
---------------------------------------------------------------------------
        vs. only 22 percent of privately financed projects.

  <bullet>  70 percent of public procurements ran over time vs. 
        only 30 percent of privately financed projects.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR VITTER
                        FROM ROBERT WOLF

Q.1. How would you suggest funding the proposed infrastructure 
bank?

A.1. The NIB could leverage its initial funding with private 
sector equity and debt to maximize value for money. To provide 
an example, an initial NIB funding of $25 billion could be 
leveraged two times by issuing debt to private sector 
investors, creating $75 billion of NIB capital that could be 
used to fund as much as $375 billion in infrastructure funding 
(while maintaining only a 20 percent NIB stake). A primary 
advantage of involving private equity is that private equity 
takes the first loss on projects in the event of distress, 
thereby shielding the Federal Government's investment in the 
project. The NIB would be subject to strict leverage limits to 
be set forth in its establishing legislation.

Q.2. Do you believe any new funding used to create the proposed 
infrastructure bank should be offset with corresponding 
decreases in Federal spending elsewhere?

A.2. We believe that infrastructure spending is critical to the 
economic growth of this country and that a National 
Infrastructure Bank would increase the overall pool of capital 
available for infrastructure investment. The creation of an 
infrastructure bank as we have outlined would be advantageous 
for the country because it would leverage Federal dollars with 
funds from private sector debt and equity investors, thereby 
reducing the reliance on the Federal Government to fund 
infrastructure improvements. However, I would not advocate 
reducing the Federal Government's overall spending on 
infrastructure.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN DODD
                      FROM DONALD SHUBERT

Q.1. Ideal Time To Invest in Infrastructure. I have heard that 
given today's low interest rates and the excess capacity 
available in the construction industry that now is an ideal 
time to be investing in infrastructure. Please comment on the 
efficiencies that we can realize by increasing our Nation's 
investment in infrastructure right now, in the midst of the 
current economic downturn.

A.1. As far as low interest rates are concerned, if the 
question is regarding Government's ability to borrow, reports 
show that current market interest rates are at low levels. This 
means that the Government can obtain the same amount of 
bonding, paying far less over the debt service period. If the 
question goes to producers' and contractors' ability to finance 
new equipment purchases, the same holds true. However, access 
to capital is tight making it harder for companies to finance 
new equipment and plant purchases.
    There are two primary efficiencies that can be realized 
now. First there is a skilled workforce sitting idle. That 
workforce is fully trained and can return to work on short 
notice. Hiring unemployed construction workers would impose 
lower training costs on firms that would be incurred by hiring 
and training new workers, because these workers already have 
the requisite skills and experience in construction. This lower 
training cost is one factor that is keeping construction costs 
low, which leads to the second efficiency.
    Second, the fierce competition between contractors seeking 
work due to the excess capacity in the construction industry is 
driving down prices, making current construction costs low. In 
a report issued on October 11, 2010, the Department of the 
Treasury with the Council of Economic Advisors provided that: 
``Construction costs and other costs associated with building 
projects are especially low in the current environment. The 
Department of Transportation's (DOT) experience with Recovery 
Act funding has shown that more than 2,000 additional airport, 
highway, bridge, and transit projects were funded because of 
low bids, or projects being completed under budget. DOT also 
reported that among its $1.1 billion in aviation investments, 
winning bids for the projects came in $200 million below their 
initial engineering estimates.''
    A recent bid opening in Connecticut provides an example. On 
October 13, 2010, the Connecticut Department of Transportation 
held a bid opening for the Reconstruction of the I-95/I-91/
Route 34 Interchange Project that was estimated to cost over 
$500 million. The low bid was $356.8 million.

Q.2. Merit-Driven Selection Process. One of the benefits of 
creating a National Infrastructure Bank is the fact that we 
create a competitive, merit-driven process that leads to 
selection of those projects with the best returns. How can we 
design a bank to ensure that we make the best use of Federal 
dollars and fund the projects with the highest rates of return 
and the greatest public benefits?

A.2. CCIA does not have the type of data to sufficiently advise 
you on the design of a bank to ensure that we can make the best 
use of Federal dollars and fund projects with the highest rates 
of return and the greatest public benefits, however, we believe 
that effective measures to ensure those important results would 
be to identify specific goals and set objective selection 
criteria to meet the goals. Goals could include economic 
competitiveness, safety, state of good repair, and other 
critical national goals. Criteria to meet those goals could 
include items such as job creation, reduced carbon emissions, 
and public health and safety benefits.
    It is important to set high standards of transparency and 
accountability. One way to do this may be to require that those 
goals and the selection criteria be set forth for all 
applicants to understand prior to the acceptance of proposals 
and conducting evaluations.

Q.3. Effects of Prolonged Unemployment. Prolonged unemployment 
can have significant negative impacts on construction workers 
and the construction industry. Can you discuss what impacts 
prolonged unemployment can have on the skills of construction 
workers and the long-term impacts of substantial prolonged 
unemployment on the construction industry?

A.3. Prior to the economic downturn, the construction industry 
was facing a workforce challenge. The workforce was aging, and 
the industry was having problems attracting and retaining 
younger employees. At that point, the industry was investing in 
workforce development initiatives such as annual Construction 
Career Day programs for high school juniors and seniors.
    With the economic downturn, and resulting high unemployment 
in the industry, the large number of unemployed skilled trades-
people is limiting contractors' and apprenticeship training 
programs' ability to bring new people into the industry and 
train them. Employers will only hire and invest in training new 
employees when there are long-term prospects of work available. 
Likewise, it is difficult to conduct apprenticeship training 
programs when there are many skilled people looking for work. 
It makes no sense to train people for unemployment.
    The current situation is exacerbating the challenge of 
replacing our aging workforce. If and when construction 
employment rises again, we will be worse off, because we have 
fallen behind in our efforts to replenish a skilled productive 
workforce.
    Retaining management employees and office staff presents 
another challenge. Many contractors have had staff reductions 
during the economic downturn. Many of the newly unemployed 
high-level employees and staff have transferable skills and are 
seeking work in other industries and sectors of the economy. 
This will present a significant challenge for construction 
companies when they begin taking on new work and rebuilding 
their companies.

Q.4. Leveraging. One of the goals of an infrastructure bank is 
to leverage new State, local, and private funding. Some studies 
have found that previous increases in Federal transportation 
funding have led to reduced State and local funding. How can we 
best design an infrastructure bank to ensure that it leverages 
new public and private funding rather than simply substituting 
for existing funding?

A.4. From CCIA's viewpoint, a National Infrastructure Bank will 
almost certainly supplement rather than replace core Federal 
transportation funding streams. We believe that there are a 
significant number of mega- and multi-modal projects that are 
too expensive for a State or region to fund, and are too large 
for the core funding program to support. We believe that 
alternative funding sources such as an infrastructure bank will 
be used to meet those needs, leaving the core funding programs 
to fund the mounting number of regular program projects.
    Again, Chairman Dodd and Ranking Member Shelby, the 
Connecticut Construction Industries Association applauds your 
leadership and looks forward to working with the Committee to 
develop meaningful legislation to invest in infrastructure, 
create jobs and grow the economy.
              Additional Material Supplied for the Record
   PREPARED STATEMENT SUBMITTED BY THE CALIFORNIA INFRASTRUCTURE AND 
                       ECONOMIC DEVELOPMENT BANK
    Chairman Dodd, Ranking Member Shelby, and distinguished Members of 
the Committee my name is Stanton C. Hazelroth, and it is a privilege to 
offer my testimony concerning the need for the creation of a National 
Infrastructure Bank.
    As you know, a discussion has been taking place ranging far and 
wide about the need for and the make-up of a National Infrastructure 
Bank. I believe you have heard testimony about successful examples in 
other parts of the world. I am here to testify that such a bank has 
existed in California for over 15 years, providing financing for over 
$31 billion of infrastructure and related governmental needs. I suggest 
that you only have to look as far as California to find a working model 
that proves, albeit on a State-sized scale, the potential impact of 
such a bank.
    I serve as the Executive Director of the California Infrastructure 
and Economic Development Bank (California I-Bank). The California I-
Bank was created by the California Legislature in 1994. The Legislation 
was approved by a vote of 67 to 1 in the Assembly and 30 to 3 in the 
State Senate illustrating the potential bipartisan appeal of this 
concept. The mission of the California I-Bank is to finance public 
infrastructure and private development that promote economic growth 
that is the sine qua non for creating new jobs for Californians. I am 
here to tell you that a national I-Bank is not only feasible, but a 
must if our Nation is going to rebuild the infrastructure that our 
economy relies upon to compete globally. While it cannot and should not 
supplant our current systems of financing infrastructure, it can 
supplement them in a most powerful way.
    The California I-Bank is the State of California's only general 
purpose financing authority and has extremely broad statutory powers to 
issue revenue bonds, make loans and provide credit enhancements for a 
wide variety of infrastructure and economic development projects. It 
received an initial one-time net appropriation of $181 million in 1999. 
The California I-Bank does not receive annual appropriations from the 
State; its operations are funded solely from fees, interest earnings 
and loan repayments. The I-Bank began full operations in 1999. Over the 
last decade we have steadily grown from $6.0 billion to approximately 
$30 billion in debt financings with a staff of 25 positions. \1\ Most 
of the projects financed by the California I-Bank also receive funding 
from additional sources, multiplying the impact of the I-Bank 
financing. Working with a National Infrastructure Bank as a member of 
the team would allow project proponents to make effective use of 
multiple sources of financing in creative, innovative ways that allow 
more and even larger regional projects to happen and on extremely 
favorable terms.
---------------------------------------------------------------------------
     \1\ Information technology, human resources, and certain I-Bank 
accounting services are provided by other departments. In a few cases, 
a bond that was issued by the I-Bank and later defeased by the I-Bank 
are both shown as financing work by the I-Bank and counted in the 
overall total. Removing those few examples, the money that I-Bank has 
placed is approximately $28 billion.
---------------------------------------------------------------------------
    When considering a National I-Bank, it is helpful to understand how 
the California I-Bank is organized. It is similar to the many of the 
proposals currently before this Congress. Both Infrastructure Banks 
would be governed by a five-member board of directors. In California, 
the board consists of four Governor's appointees and the California 
State Treasurer. Three of the Governor's appointees sit as a result of 
their appointed positions with the Governor, like the Secretary of 
Business, Transportation and Housing, and one is directly appointed by 
the Governor.
    The Board is statutorily required to approve all financing by the 
California I-Bank. Staff is not free to make loans and investments on 
their own unless by specific delegations from the Board. The daily 
affairs are managed and conducted by an Executive Director, who is 
appointed by the Governor and confirmed by the Senate. The California 
I-Bank Executive Director and staff were responsible for developing the 
structure, departments and employees needed to carry out their mandate. 
The Congressional proposals commonly include a detailed and 
sophisticated ``ready to go'' organizational structure, taking many 
successful ideas from the European Infrastructure Bank. A strong, 
independent board and staff is essential. The I-Bank recently received 
ratings upgrades from Standard and Poor's (S&P) and Fitch Ratings, Inc. 
(Fitch). S&P cited, ``[p]rogram oversight and loan screening provided 
by State infrastructure bank'' staff as well as a key factor in the 
upgrade. Moody's cited ``strong management with rigorous and detailed 
credit reviews of new and existing borrowers'' as a key consideration 
in their rating assessment.
    Like the Congressional proposals, the California I-Bank can issue 
debt, make loans and loan guarantees, among other powers. Both the 
California I-Bank and the Federal proposals require the development of 
objective selection criteria. After consultation with all interested 
parties and technical experts, a series of public hearings was held 
throughout the State to insure that criteria were developed leading to 
the selection of only the best projects. Due to the diversity required 
by the financing model, the projects over the last 10 years in the 
direct loan program are 50 percent rural projects and 50 percent urban 
projects. The I-Bank statute requires special efforts to provide 
technical assistance to those in need and often those are rural 
projects.
    The following table lists the cumulative totals by fiscal year in 
which the I-Bank has loaned, issued debt, or played a significant role 
as a member of the financing team.

 
------------------------------------------------------------------------
             Fiscal Year                  Cumulative Financing Totals
------------------------------------------------------------------------
1997-1998............................                    $6,022,000,000
1998-1999............................                    $6,086,580,000
1999-2000............................                    $6,533,692,050
2000-2001............................                    $6,852,267,350
2001-2002............................                    $7,621,646,205
2002-2003\2\.........................                   $11,550,160,105
2003-2004\2\.........................                   $15,642,301,155
2004-2005............................                   $18,134,898,155
2005-2006\3\.........................                   $23,146,452,663
2006-2007\2\.........................                   $28,431,501,828
2007-2008............................                   $29,492,415,314
2008-2009............................                   $30,764,252,814
2009-2010............................                   $31,757,137,814
------------------------------------------------------------------------

    The diversity of the I-Bank's programs has also expanded and now 
includes the following primary programs:
---------------------------------------------------------------------------
     \2\ Includes the sale of Tobacco Settlement Bonds for which the I-
Bank was responsible for creating a special purpose trust, selling the 
tobacco assets to the special purpose trust, and working with the 
Department of Finance to oversee the sale of the bonds.
     \3\ On April 25, 2006, $1,160,435,000 of Toll Bridge Seismic 
Retrofit Revenue Bonds issued by the I-Bank was defeased and $80 
million in related commercial paper was repaid.

  <bullet>  Infrastructure State Revolving Fund (ISRF) Program 
        (provides low-cost financing to local agencies for public 
---------------------------------------------------------------------------
        infrastructure projects);

  <bullet>  Industrial Development Revenue Bond (IDB) Program (provides 
        tax-exempt revenue bond financing for eligible small- to mid-
        size manufacturing companies);

  <bullet>  501(c)(3) Revenue Bond Program (provides tax-exempt revenue 
        bond financing for certain nonprofit public benefit 
        corporations);

  <bullet>  State School Fund Apportionment Lease Revenue Bond Program 
        (provides tax-exempt revenue bond financing for school 
        districts needing emergency apportionment loans);

  <bullet>  Public Agency Revenue Bond Program (provides tax-exempt 
        revenue bond financing for governmental entities, including the 
        I-Bank's ISRF Program); and

  <bullet>  Other Tax-Exempt Revenue Bonds (this category captures I-
        Bank projects that don't meet the criteria of any of the four 
        bond programs listed above).

(The IDB Program, the 501(c)(3) Revenue Bond Program, the State School 
Fund Apportionment Lease Revenue Bond Program, the Public Agencies 
Revenue Bond Program and Other Tax-Exempt Revenue Bonds are 
collectively the Bond Financing Programs.)
    The I-Bank statute has allowed a broad and creative range of 
economic development financings. Below is information on each of the 
programs.
Infrastructure State Revolving Fund Program
    The Infrastructure State Revolving Fund (ISRF) Program is a direct 
revolving fund loan program created by the I-Bank that can directly 
serve as a model for the national I-Bank. It is a statewide program 
that provides low-cost loans \4\ up to $10 million per project for the 
following 16 statutorily designated categories \5\ of public 
infrastructure: (1) city streets; (2) county highways; (3) drainage, 
water supply and flood control; (4) educational facilities; (5) 
environmental mitigation measures; (6) parks and recreational 
facilities; (7) port facilities; (8) power and communications; (9) 
public transit; (10) sewage collection and treatment; (11) solid waste 
collection and disposal; (12) water treatment and distribution; (13) 
defense conversion; (14) public safety facilities; (15) State highways; 
and (16) military infrastructure. ISRF Program eligible applicants 
include local government entities such as cities, counties, 
redevelopment agencies, special districts, assessment districts, and 
joint powers authorities. Since June 2000, the Board has approved 
ninety-five (95) ISRF Program loans totaling nearly $417.6 million. \6\
---------------------------------------------------------------------------
     \4\ ``Loans'' is generically used to mean loans, leases/leaseback 
agreements and installment sale agreements.
     \5\ Each of the categories is further defined in Government Code 
Section 63010.
     \6\ This number includes seven approved loans that were withdrawn 
by the borrower.
---------------------------------------------------------------------------
    While the appropriated funds have been committed to ISRF Program 
borrowers, additional ISRF Program financing is available because of an 
innovative ``leveraged loan program'' structure which involves the 
issuance of revenue bonds secured by the repayments from previously 
approved loans. To date, the I-Bank has issued three series of revenue 
bonds totaling roughly $153 million to provide additional funding for 
the ISRF Program (Program Bonds). As noted above, the I-Bank recently 
received ratings upgrades from S&P and Fitch. The Program Bonds are 
rated ``AA+,'' ``Aa2,'' and ``AA+'' by Fitch, Moody's Investors Service 
(Moody's) and S&P, respectively. Moody's cited ``strong management with 
rigorous and detailed credit reviews of new and existing borrowers'' as 
a key consideration in their rating assessment. S&P cited, ``[p]rogram 
oversight and loan screening provided by State infrastructure bank'' 
staff as well as a key factor in the upgrade.
Industrial Development Revenue Bond Program
    The I-Bank is authorized to issue Industrial Development Bonds 
(IDBs), which are tax-exempt bonds issued by governmental entities to 
small- to mid-size, privately owned manufacturing and processing 
businesses to provide low-cost financing of up to $10 million for the 
acquisition, construction, rehabilitation, and equipping of the 
business. The purpose of IDBs is to promote economic development and 
job creation or retention. The I-Bank is a conduit issuer of IDBs. IDB 
bonds are payable solely from the revenues generated by the privately 
owned business and are neither backed nor guaranteed by either the 
State or the I-Bank, and do not involve the use of State funds. The 
eligibility requirements for IDBs are governed by provisions in the 
Internal Revenue Code and U.S. Treasury regulations. Since 1999, the I-
Bank has issued forty-eight (48) IDBs totaling approximately $235 
million to businesses located throughout the State.
501(c)(3) Revenue Bond Program
    The I-Bank is authorized to issue 501(c)(3) bonds, which are tax-
exempt bonds issued by governmental entities to federally approved tax-
exempt nonprofit corporations to provide low-cost financing for capital 
improvement projects. Similar to IDBs, the eligibility requirements for 
501(c)(3) bonds are governed by the Internal Revenue Code and U.S. 
Treasury regulations. The I-Bank serves as the conduit issuer of 
501(c)(3) bonds, which are payable solely from the revenues of the 
nonprofit entity, are neither backed nor guaranteed by either the State 
or the I-Bank, and do not involve the use of State funds. As a result, 
the I-Bank typically issues bonds for the following types of nonprofits 
located throughout the State: \7\ (1) research institutions (e.g., 
Scripps Research Institute, Gladstone Institute, RAND Corporation, and 
Buck Institute for Age Research); (2) cultural organizations (e.g., 
Asian Art Museum, San Francisco Ballet, California Academy of Sciences, 
and Getty Museum); (3) charitable organizations (e.g., Salvation Army 
and Goodwill Industries of Orange County); (4) recreational facilities 
(e.g., YMCA); and, (5) other unique nonprofits that provide a defined 
public benefit (e.g., Society for the Prevention of Cruelty to Animals, 
the Academy of Motion Picture Arts and Sciences and Learning With a 
Difference, Inc. d/b/a The Westmark School). Since 1999, the I-Bank has 
issued ninety-three (93) 501(c)(3) bonds totaling approximately $5.8 
billion.
---------------------------------------------------------------------------
     \7\ While the I-Bank has broad authority as a conduit bond issuer 
for nonprofit entities, it is statutorily prohibited from financing 
housing projects. Additionally, the I-Bank's board of directors has 
adopted a policy to not issue bonds for nonprofit health facilities or 
nonprofit higher educational facilities and other projects that are 
eligible for financing through other State financing authorities that 
were created specifically to finance those types of projects.
---------------------------------------------------------------------------
State School Fund Apportionment Lease Revenue Bond Program
    Emergency Apportionment Lease Revenue Bonds. In December, 2005, the 
I-Bank issued $97 million of State School Fund Apportionment Lease 
Revenue Bonds in three series. In April, 2010, the I-Bank issued an 
additional series totaling $13 million for a fourth district. The 
bonds, which were initially authorized by Chapter 263, Statutes of 2004 
(AB 1554), as amended, will reimburse the State's General Fund for 
long-term emergency loans made to four school districts experiencing 
severe financial distress. The bonds will be repaid through a direct 
intercept of State School Fund monies designated for apportionment to 
the four districts. To the extent any school district in the future 
obtains approval by the Legislature for an emergency loan, it is 
anticipated that the I-Bank will issue bonds to fund the loan using the 
model developed for the bonds issued in December 2005. This occurred as 
mentioned above, in April, 2010.
Public Agency Revenue Bond Program
    Because the I-Bank is the Governor's only general purpose financing 
authority and has extremely broad statutory powers to issue revenue 
bonds and act on the State's behalf in certain statutorily authorized 
circumstances, the I-Bank has been involved in the following financings 
and activities to support various State entities and programs.
    Infrastructure State Revolving Fund Program. As mentioned above, on 
March 1, 2004, the I-Bank issued its initial series of ISRF Program 
revenue bonds, the Series 2004 ISRF Bonds, in the amount of $51.37 
million. On December 14, 2005, and September 24, 2008, I-Bank issued 
the 2005 and 2008 ISRF Bonds, totaling $52.8 million and $48.375 
million, respectively, to provide additional funding for loans under 
the ISRF Program.
    Energy Efficiency Bonds. In April 2003, the California Consumer 
Power and Conservation Financing Authority (CPA) issued $28,005,000 of 
2003A Energy Efficiency Bonds on behalf of the California Energy 
Commission (CEC). On October 25, 2004, the CPA assigned its rights and 
responsibilities for these bonds to the I-Bank when the CPA's 
operations were closed down as a result of budget elimination. In May 
2005, the I-Bank issued a second series of revenue bonds in the amount 
of $37 million to provide additional funding for the CEC's Energy 
Efficiency Financing (EEF) Program, which provides low-cost loans of up 
to $3 million to schools, hospitals and local governments for the 
installation of energy-saving measures. The bonds are repaid from 
previously approved EEF Program loans. Eligible projects include 
heating, ventilating, air conditioning, equipment control, small 
cogeneration and photovoltaic systems.
    California Insurance Guarantee Association Bonds. In August 2004, 
the I-Bank issued $750 million of revenue bonds for the California 
Insurance Guarantee Association (CIGA) pursuant to authorization 
contained in Chapter 645, Statues of 2003 (AB 227). CIGA is an 
organization created by the California Legislature in 1969 to pay 
claims of insolvent insurance carriers that are licensed to do business 
in the State of California. The proceeds of the bonds were used by CIGA 
to pay claims and related expenses that arose as a result of the 
insolvencies of insurance companies providing workers' compensation 
insurance. The bonds are repaid solely by special and regular premium 
assessments on worker's compensation premiums paid by insurance 
companies to CIGA.
    Toll Bridge Seismic Retrofit Bonds. In August 2003, the I-Bank 
issued $1.1 billion of long-term fixed rate revenue bonds for the 
California Department of Transportation (Caltrans) pursuant to 
authorization in Chapter 907, Statutes of 2001 (AB 1171). The bonds 
were rated in the ``AA'' category by all three rating agencies and were 
repaid solely from revenues and related interest earnings generated by 
the $1 per vehicle seismic retrofit surcharge collected on the seven 
Bay Area State-owned toll bridges. Caltrans used the bond proceeds to 
fund a portion of the construction of the new East Span of the San 
Francisco-Oakland Bay Bridge (Bay Bridge), which is one of the largest 
public works projects in Northern California history. In March 2005, 
the I-Bank also authorized the issuance of up to $400 million of 
commercial paper for the program, with Caltrans using the proceeds for 
the continued construction of the Bay Bridge. In March 2006, the Toll 
Bridge Seismic Retrofit Bonds were defeased by bonds issued by the Bay 
Area Toll Bridge Authority (BATA). BATA also paid off the related I-
Bank commercial paper notes at that time. BATA was given the financial 
responsibility of continuing the Bay Bridge seismic upgrades and for 
the costs thereof pursuant to Chapter 71, Statutes of 2005 (AB 144), 
which also authorized BATA to collect the seismic surcharge revenue 
generated from tolls collected on the State-owned Bay Area toll 
bridges.
    Clean Water State Revolving Fund (CWSRF) Bonds. In August 2002, the 
I-Bank issued $300 million of fixed-rate revenue bonds to provide 
additional funding for the CWSRF Program. The CWSRF, which is 
administered by the State Water Resources Control Board (SWRCB), 
provides low-cost loans up to $25 million per year to local agencies 
throughout the State for the construction of wastewater treatment and 
water recycling facilities. The bonds, which are repaid by 98 
previously approved CWSRF loans from 50 different borrowers, received 
natural ``AAA'' ratings from all three rating agencies. The bond issue 
also represented the first time that the State had leveraged one of its 
Federal Environmental Protection Agency-funded State revolving fund 
programs, and added California to the ranks of over 20 other States 
that have utilized this innovative financing technique to expand 
lending capacity.
    In addition to the above programs, the I-Bank has also been 
involved in other unique financings listed below.
    Tobacco Securitization Bonds. As part of the State's solution to 
provide funds to address the Fiscal Year 2002-2003 budget deficit, the 
Legislature and the Governor authorized the issuance of bonds secured 
solely by tobacco settlement revenues. Chapter 414, Statutes of 2002 
(SB 1831) authorized a special purpose nonprofit corporation 
(Corporation) to serve as the issuer of the tobacco settlement bonds 
and authorized the I-Bank to sell for, and on behalf of, the State, all 
or any portion of the tobacco settlement revenues to the Corporation 
necessary to issue the bonds. In January 2003, September 2003, August 
2005 and most recently in March 2007, the I-Bank sold the tobacco 
settlement revenues to the Corporation, and the Corporation issued 
bonds totaling over $13 billion to be repaid from tobacco settlement 
revenues.
    Recovery Zone Economic Development Bonds Pool Finance Program 
(RZEDBs). On February 17, 2009, President Obama signed the American 
Recovery and Reinvestment Act of 2009 (Recovery Act), which contains a 
number of new financing tools valuable for counties and cities to 
achieve short-term economic stimulus and support long-term economic 
recovery. RZEDBs are taxable governmental bonds that must be issued 
before January 1, 2011, and are principally used in designated recovery 
zones after designation as such for qualified economic development 
purposes. RZEDBs can be used to pay costs associated with public 
infrastructure or facilities that promote development or other economic 
activity in a recovery zone, or for expenditures for job training and 
educational programs. RZEDBs provide either a 45 percent interest rate 
cash subsidy from the Federal Government to the bond issuer, or 
bondholders can receive a tax credit equal to 45 percent of each bond 
interest payment (unused credits may be carried forward to successive 
years).
    As a conduit bond issuer, the I-Bank may sell RZEDBs, which are 
payable solely from the revenues of the participating eligible cities 
and counties, are neither backed nor guaranteed by either the State or 
the I-Bank, and do not involve the use of State funds. The I-Bank 
intends to offer a pooled bond program to aggregate RZEDB financings 
from several cities and counties into one large bond issuance to 
facilitate efficient and cost effective access to this new type of 
taxable bond with lower interest costs, lower bond issuance costs and a 
ready-assembled bond financing team.
    Tribal Compact Asset Securitization Bonds. Chapter 91, Statutes of 
2004 (AB 687) ratified amended State-tribal gaming compacts (Compacts) 
with five recognized Native American tribes (Tribes). Each Compact 
allows the Tribe to increase the authorized number of gaming devices it 
operates and also enhances the Tribe's exclusivity over gaming 
activities. In return, the State receives, among other things, two new 
income sources from the Tribes derived from the increased gaming 
devices (Compact Assets). AB 687 authorizes the I-Bank to sell for and 
on behalf of the State some or all of the Compact Assets to a special 
purpose trust created by the I-Bank as a not-for-profit corporation 
(Trust). The Trust is authorized to issue bonds, the repayment of which 
is limited to the Compact Assets sold to the Trust by the I-Bank. The 
I-Bank works closely with the Department of Finance and the State 
Treasurer's Office to issue the bonds, with the bond proceeds intended 
to be used to fund transportation projects.
    Imperial Irrigation District Preliminary Loan Guarantee. On April 
29, 1998, the Imperial Irrigation District (IID) and the San Diego 
County Water Authority (SDCWA) entered into a 45-year water 
conservation and transfer agreement (Transfer Agreement) for the 
transfer of up to 200,000 acre-feet per year of water supply to SDCWA 
based upon IID water conservation. The Metropolitan Water District of 
Southern California (MWD) and the Coachella Valley Water District 
(CVWD) challenged the IID/SDCWA transfer, resulting in Key Terms of a 
Quantification Settlement Agreement (QSA), which outlined a series of 
agreements to settle disputes and allow the Transfer Agreement to 
proceed (QSA together with the Transfer Agreement, collectively the 
Agreements).
    IID did not initially approve the QSA due to concerns about two 
early termination provisions contained therein and expected potential 
environmental mitigation costs associated with actions undertaken 
pursuant to the Agreements. Early termination would eliminate the 
contract revenues that IID and its landowners would rely upon to 
finance the capital investments enhancing water supply based upon IID 
water conservation. A preliminary loan guarantee, approved by the I-
Bank Board on June 27, 2003, addressed the financial risks involved 
with early termination and enabled IID to issue sufficient revenue 
bonds to finance the water supply project. The Board of Directors of 
the IID approved the QSA on October 2, 2003.
    On December 15, 2009, the I-Bank Board approved a 1-year extension 
of the 2003 Preliminary Commitment, subject to certain clarified terms 
and conditions and to further negotiations on a few remaining terms and 
conditions consistent with the 2003 Preliminary Commitment.
Other Tax-Exempt Revenue Bonds
    The I-Bank has issued bonds for projects that do not fall into any 
of the above categories of bonds. These include Rate Reduction Bonds, 
Exempt Facility Revenue Bonds, Enterprise Zone Facility Bonds and 
Economic Development Facility Bonds.
    The I-Bank's activity related to rate reduction bonds (RRBs) 
involved the issuance and ongoing administration of $6.046 billion of 
bonds by special purpose trusts in 1997 and 1998. The RRBs were related 
to the restructuring of the electric utility industry.
    Exempt Facility Revenue Bonds are a category of bonds created by 
special provision of the Internal Revenue Code which allow private, 
for-profit companies, typically located at ports and airports, to 
utilize the proceeds of tax-exempt bonds to finance limited types of 
projects. California I-Bank is currently processing a bond to finance 
$530 million for Poseidon, a desalinization plant to be located in 
Carlsbad, California. A National I-Bank could finance such projects, 
serving the driest regions in the States, making a huge positive impact 
on water supply.
    Enterprise Zone Facility Bonds are issued for projects that meet 
the definition of 26 United States Code, Section 1394. An ``Enterprise 
Zone'' means any area within a city, county, or a city and county that 
is designated as an enterprise zone by the California Department of 
Housing and Community Development in accordance with the provisions of 
Section 7073 of the California Government Code. Economic Development 
Facility Bonds are issued for projects that meet the definition of 
Economic Development Facilities as defined in the I-Bank's statutes.
National I-Bank Project Example
    Earlier this year, the Mayor of Los Angeles came to Washington with 
an unusual financing request. According to press reports, he was not 
looking for a grant or other handout. He simply needs a loan or loan 
guarantee. He has obtained local voters approval to collect funds for 
transportation. A one-half cent sales tax was passed by the voters in a 
recent election to be collected for 30 years. Some experts say the 
total amount that will be collected over 30 years is approximately $40 
billion.
    The City also has a very detailed, shovel ready plan to use the 
money for transportation projects-mostly rail. If the City builds and 
finances the projects on a pay-as-you-go basis, it will take 30 years 
to put these critical transportation improvements in place. If it can 
borrow the money, secured by the ongoing payment of this tax, the City 
estimates that all of the projects can be complete within 10 years. 
Think of the reduction in traffic, increases in air quality, and all 
the other massive environmental benefits that could take place in 10 
years: one-third of the time it would otherwise take.
    The initial reaction to the Mayor's request was that such a program 
doesn't exist. That is exactly my point. A National Infrastructure Bank 
is designed to respond to just this kind of need. Los Angeles has a 
huge infrastructure and environmental need, as do many communities 
throughout the Nation. We have the solution.
                                 ______
                                 
PREPARED STATEMENT SUBMITTED BY THE CONSTRUCTION MANAGEMENT ASSOCIATION 
                               OF AMERICA
    The Construction Management Association of America welcomes this 
opportunity to comment on current proposals to create a National 
Infrastructure Bank. We have long supported this concept and I would 
like to commend Chairman Dodd on taking the initiative to explore this 
important and innovative idea and move it toward enactment. CMAA joined 
with the Chairman and other Senate leaders last January in a news 
conference in support of the Infrastructure Bank and other proposals.
    We were also encouraged by President Obama's recent announcements 
of support for the National Infrastructure Bank and his intention to 
seek additional short-term funding for infrastructure investment.
    CMAA would like to commend Pennsylvania Governor Ed Rendell of 
Building America's Future for his eloquent and consistent leadership in 
this effort.
    CMAA is a national organization of more than 6,200 members, 
including both owners of construction projects and individuals and 
organizations providing professional construction and program 
management services for our Nation's infrastructure.
    CMAA's owner members are predominantly in the public sector and 
include such organizations as the U.S. Army Corps of Engineers, the 
U.S. General Services Administration, the State Department's Overseas 
Building Operations, the Department of Veterans Affairs, the Department 
of Homeland Security's Customs and Border Protection agency, and 
numerous State Departments of Transportation, city and regional transit 
agencies, ports, school districts, airports, and other entities.
    Our service provider members include virtually all of the leading 
companies in this industry. Although CMAA members are active across all 
types of construction, it is fair to say that public sector 
infrastructure projects account for a very significant portion of their 
total business.
    CMAA develops and maintains the Construction Management Standards 
of Practice and administer the Certified Construction Manager (CCM) 
program, which has been accredited by the American National Standards 
Institute under International Organization for Standardization norm ISO 
17024.
    Our entire focus as an organization is on bringing professional 
discipline to the management of every phase of a construction project 
or program. The goal is the most successful project possible, as 
measured by the achievement of schedule, budget, quality, and safety 
goals and the avoidance of delays, claims, and disputes.
    Sound professional construction management protects the interests 
of owners and their projects, saving tax dollars while providing 
quality buildings and infrastructure.
    We believe the concept of a National Infrastructure Bank is 
fundamentally in harmony with this focus, and creating the Bank will be 
a powerful step toward assuring America of the infrastructure we will 
need to continue to grow and prosper. Moreover, the Bank concept may 
also provide a new level of oversight and accountability in 
infrastructure construction.
    The National Infrastructure Bank will replace our current, 
politically driven process for selecting projects with a process based 
on clear cost-benefit analysis conducted by impartial experts. The best 
projects--those that serve clear public needs and are planned and 
implemented effectively--will promise sufficient returns to attract 
investment dollars.
    The discipline imposed by ROI metrics will drive steady improvement 
in design, construction techniques, procurement policies, adoption of 
new technology, and other areas. Projects will be selected for funding 
based on merit-based criteria rather than geography or political 
considerations. This strategy will also foster development of clear 
performance measurement standards such as completing projects on time 
and within budget, with high levels of quality and safety.
    All of these values are the fundamental goals of professional 
Construction and Program Management. As we continue to work in an 
environment of constrained resources, these basic values will become 
ever more critical. Getting the most from the available resources will 
be the key challenge of the years ahead.
    In our advocacy of a new multiyear Surface Transportation 
Authorization, as proposed by Rep. James Oberstar, as well as 
legislation to improve our Nation's drinking water and wastewater 
systems, develop high speed rail initiatives, and promote other forms 
of infrastructure investment, one question comes to the fore again and 
again: How are we going to pay for these improvements?
    Nobody doubts that our infrastructure needs are real and urgent. 
But we all also recognize that the potential cost of meeting these 
needs is immense. Both in our present budgetary and economic climate, 
and in any likely near-future scenario, this price tag is simply beyond 
our ability to pay . . . if we continue to rely on our traditional 
funding mechanisms.
    This is why the Bank is so critical, and why the new resource must 
be conceived and structured as a bank and not simply a new Government 
fund.
    The Highway Trust Fund, based chiefly on the gasoline tax, will 
never again be adequate to fund even ongoing maintenance of our roads 
and bridges, let alone expansions. We see similar situations with a 
wide range of revolving funds and other methods that, in one form or 
another, channel tax revenues into infrastructure.
    This is the linkage that we must leave behind. We must move away 
from complete reliance on public funding for infrastructure and forge a 
new, stronger connection between private capital and infrastructure 
needs. Many innovative new financial methods are being employed in the 
United States today, from Public Private Partnerships to Design-Build-
Operate-Maintain contracts. CMAA members are often in the forefront of 
these efforts, both as owners and as providers of services that range 
from predesign planning to ongoing operation of buildings and other 
structures. These new tools are being improved through practical 
experience, evolving steadily into systems that deliver good value to 
taxpayers and users as well as to investors.
    There will always be a role for direct Federal spending, of course, 
because not every infrastructure project will attract private 
investment, and because certain public assets and resources must be 
supported whether they generate revenues or not. But using a National 
Infrastructure Bank to finance a large part of our infrastructure needs 
means we will be able to target Federal spending more efficiently and 
realize more benefits from it. By introducing a major new source of 
funds that have not previously been available, the Bank will make it 
possible for Federal, State, and local funds to be directed to other 
projects--projects that might have been squeezed out of budgets by 
larger-scale undertakings.
    In addition, the Bank will always be able to lend out far more 
money than it has on hand. Initial Federal funding, together with funds 
deposited by private investors, will serve as the reserves on which a 
significantly larger lending volume can be based. A funding system 
based on tax revenues and Federal borrowing will never be able to 
generate the same amount of money as a true banking system.
    The National Infrastructure Bank should be invested with authority 
to use a wide range of proven financial tools, including grants, credit 
assistance, low interest loans, tax incentives, Build America Bonds, 
Private Activity Bonds and other resources. The Bank should also have 
the broadest possible focus on infrastructure, financing not only roads 
by water and wastewater systems, electric power, ports, airports, 
broadband, and other forms of infrastructure.
    CMAA is also organizationally dedicated to transparency and 
accountability in construction management. We believe these values 
thrive in an environment in which objectives and metrics are clear; in 
which risk is realistically and reasonably shared, and in which 
performance is measured with the goal of continuous improvement. 
Funding infrastructure projects through Bank investments will 
contribute to creating this kind of environment.
    America must be able to repair, maintain, and expand all kinds of 
infrastructure in order to support future economic growth. The National 
Infrastructure Bank provides a means for the business community to fund 
this infrastructure in the same way it would fund any other similarly 
critical asset. Creating a National Infrastructure Bank is a key step 
away from viewing infrastructure as an expense and toward seeing it as 
an investment. Expenses are incurred and never recovered, while 
investments can continue to pay off for years or decades to come.
     LETTER SUBMITTED BY THE NATIONAL ASSOCIATION OF MANUFACTURERS

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   LETTER SUBMITTED BY THE ASSOCIATION OF METROPOLITAN WATER AGENCIES


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
